<html>
<title> - LEGISLATIVE HEARING ON H.R. 67, H.R. 1435, H.R. 1444, AND H.R. 1490</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




  LEGISLATIVE HEARING ON H.R. 67, H.R. 1435, H.R. 1444, AND H.R. 1490

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 17, 2007

                               __________

                           Serial No. 110-11

                               __________

       Printed for the use of the Committee on Veterans' Affairs













                     U.S. GOVERNMENT PRINTING OFFICE

35-697                   WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001













                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, JR., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado, Ranking
PHIL HARE, Illinois                  MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              GUS M. BILIRAKIS, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

























                            C O N T E N T S

                               __________

                             April 17, 2007

                                                                   Page
Legislative Hearing on H.R. 67, H.R. 1435, H.R. 1444, and H.R. 
  1490...........................................................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared satement of Chairman Hall...........................    42
Hon. Doug Lamborn, Ranking Republican Member.....................     3
    Prepared statement of Congressman Lamborn....................    42

                               WITNESSES

U.S. Department of Veterans Affairs, Ronald R. Aument, Deputy 
  Under Secretary for Benefits, Veterans Benefits Administration.    35
    Prepared statement of Mr. Aument.............................    66

                                 ______

Baca, Hon. Joe, a Representative in Congress from the State of 
  California.....................................................     7
    Prepared statement of Congressman Baca.......................    45
Donnelly, Hon. Joe, a Representative in Congress from the State 
  of Indiana.....................................................     9
    Prepared statement of Congressman Donnelly...................    47
McIntyre, Hon. Mike, a Representative in Congress from the State 
  of North Carolina..............................................     5
    Prepared statement of Congressman McIntyre...................    44
National Association of County Veterans Service Officers, F. 
  Douglas LeValley, Past President...............................    20
    Prepared statement of Mr. LeValley...........................    50
National Organization of Veterans Advocates, Robert Vincent 
  Chisholm, Past President.......................................    26
    Prepared statement of Mr. Chisholm...........................    63
Paralyzed Veterans of America, Carl Blake, National Legislative 
  Director.......................................................    21
    Prepared statement of Mr. Blake..............................    52
Upton, Hon. Fred, a Representative in Congress from the State of 
  Michigan.......................................................    11
    Prepared statement of Congressman Upton......................    49
Veterans Law Project, North Carolina Central School of Law, Craig 
  M. Kabatchnick, Supervising Attorney and Director, and Adjunct 
  Law Professor..................................................    25
    Prepared statement of Mr. Kabatchnick........................    58
Veterans of Foreign Wars of the United States, Gerald T. Manar, 
  Deputy Director, National Veterans Service.....................    23
    Prepared statement of Mr. Manar..............................    54

                       SUBMISSIONS FOR THE RECORD

American Veterans (AMVETS), Kimo S. Hollingsworth, National 
  Legislative Director, statement................................    70
Disabled American Veterans, Brian Lawrence, Assistant National 
  Legislative Director, statement................................    72

                   MATERIAL SUBMITTED FOR THE RECORD

Washington Post article, dated April 8, 2007, entitled, 
  ``Hundreds of Thousands of Disability Claims Pending at VA; 
  Current Wars Likely to Strain System Further,'' by Christopher 
  Lee............................................................    74
Congressional Research Service Report for Congress, entitled 
  ``Veterans Affairs: The Appeal Process for Veterans' Claims,'' 
  Updated April 9, 2007, by Douglas Reid Weimer, Legislative 
  Attorney, American Law Division................................    76














 
  LEGISLATIVE HEARING ON H.R. 67, H.R. 1435, H.R. 1444, AND H.R. 1490

                              ----------                              


                        TUESDAY, APRIL 17, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 12:36 p.m., in 
Room 334, Cannon House Office Building, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.

    Present: Representatives Hall, Rodriguez, Hare, Lamborn, 
and Bilirakis.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. Thank you all for coming today. We are expecting 
our Ranking Member to be here any minute.
    But because there are a number of other Committee and 
Subcommittee meetings that are overlapping with this one, I 
want to try to get started so we can get the Members who are 
testifying through and out of here if they need to leave and 
get to all of our panels.
    I am pleased that you could be here today for this 
legislative hearing of the Subcommittee on Disability 
Assistance and Memorial Affairs.
    Today we are going to discuss four bills, House Resolution 
67, House Resolution 1435, House Resolution 1444, and House 
Resolution 1490, bills which will, if passed into law, impact 
the VA claims delivery system.
    And I just want to acknowledge, in addition to our Members 
who are here, Mr. Lamborn, who just arrived, welcome. Mr. 
Bilirakis I saw a minute ago, Mr. Rodriguez, Mr. Hare.
    I also want to thank our staff, Jian Zapata, Shannon 
Taylor, Kimberly Ross, Thaddeus Hoffmeister, Kristal DeKleer, 
and Carol Murray and on our Minority staff, John Clark, Jeff 
Phillips, Arthur Wu, and I think I got everybody.
    But just because the last time I did not and they probably 
do not get thanked enough or acknowledged enough, so thank you 
all for the work that you do.
    Will you join me in the Pledge of Allegiance.
    [Pledge of Allegiance.]
    Mr. Hall. And if we could have a moment of silence for our 
service men and women and also for the victims and families of 
the shootings at Virginia Tech.
    [Moment of silence.]
    Mr. Hall. Thank you.
    As most know, there are problems with the VA claims process 
and I want to say at the onset that few of the problems 
associated with the process are beyond the control of the VA 
and the product of our ongoing wars in Iraq and Afghanistan.
    Having said that, I must acknowledge that there is a 
growing claims backlog that has gone from approximately 465,000 
in 2004 to 525,270 in 2005 to 604,380 in 2006 to at its peak 
this year 647,857.
    My last information was that that is down now to 590,000, 
but the number changes weekly and it is something that we would 
all like to see much lower. We are looking for help as we 
devise a way to get that claims process streamlined.
    Not surprisingly, this backlog has resulted in increased 
waiting periods for claims to be processed. At last count, the 
VA took an average of 177 days to process an original claim and 
an average of 657 days to process an appeal.
    Just last week, the Washington Post published an article 
entitled, ``Delayed Benefits Frustrate Veterans.'' You may have 
seen it, but there is a copy of it here which I will be 
submitting for the record. It details instances of veterans who 
literally have died while waiting for their claims to be 
processed.
    [The Washington Post article, dated April 8, 2007, 
entitled, ``Hundreds of Thousands of Disability Claims Pending 
at VA; Current Wars Likely to Strain System Further,'' by 
Christopher Lee, appears on p. 74.]
    Mr. Hall. To me, this is evidence of a broken system. 
Whether you are one of the few remaining World War I veterans 
or recently back from OIF/OEF, you should not have to suffer 
through extended waiting periods to receive the benefits you 
earned by serving our country.
    I view today's hearing as an initial step in improving the 
VA claims process.
    In the first panel, we will hear from Members testifying 
about their individual bills. Next we will hear from VSOs and 
practitioners in the field about how these bills might work in 
practice, and then finally we will receive from the VA their 
views on the legislation before us today.
    I look forward to having a constructive conversation with 
all our witnesses. I do not know about any other Members 
legislation, but as far as I am concerned, mine is a work in 
progress and I suspect that there will be changes suggested and 
probably changes adopted to any legislation that does come out 
of this Subcommittee.
    Before the first panel starts, I want to talk a few moments 
about House Resolution 1444, a bill that I introduced, which is 
under discussion at today's hearing.
    In simple terms, House Resolution 1444 requires the VA to 
provide a monthly stipend to certain veterans who have to wait 
longer than 180 days for a decision from the VA on a remanded 
claim.
    To be more precise, if a veteran's benefits appeal is 
remanded by the U.S. Court of Appeals for Veterans Claims or 
the Board of Veterans' Appeals and a decision is not made 
within 180 days of the remand, the VA will pay the veteran a 
monthly stipend until a decision is made. This stipend will be 
$500 per month for each person filing a claim.
    If a final decision is favorable, the amount paid will be 
considered part of the back payment due the veteran. If the 
decision is unfavorable, the interim benefits shall not be 
considered an overpayment of benefits.
    Of course I understand that there may be disagreements with 
this bill. However, I believe the principles behind it, by 
creating benchmarks for the VA, are sound and will go a long 
way in improving claims processing.
    I believe that as the veterans' population continues to 
age, and disabled veterans return home from Iraq and 
Afghanistan, we must look for solutions that go beyond merely 
adding more claims representatives.
    I look forward to hearing what others have to say about 
House Resolution 1444 and the other three bills before this 
Subcommittee.
    [Mr. Hall also submitted a Congressional Research Service 
Report for Congress, entitled ``Veterans Affairs: The Appeal 
Process for Veterans' Claims,'' Updated April 9, 2007, by 
Douglas Reid Weimer, Legislative Attorney, American Law 
Division, which appears on p. 76.]
    [The statement of Chairman Hall appears on p. 42.]
    I will now yield to Mr. Lamborn, our Ranking Member, for an 
opening statement.

             OPENING STATEMENT OF HON. DOUG LAMBORN

    Mr. Lamborn. Thank you, Mr. Chairman, for recognizing me 
and for holding this hearing.
    I am here today to learn about the legislation before us 
and I look forward to hearing from our witnesses and my 
colleagues on the Subcommittee.
    Our first bill, House Resolution 67, the ``Veterans 
Outreach Improvement Act of 2007,'' has my full support. One of 
the most persistent challenges we face is communicating to 
veterans and their families the existence of benefits they may 
have earned.
    This bill funds outreach by State and local governments 
which have proven capable incubators for effective public 
policy. Perhaps some of their innovations could be useful at 
the Federal level. This legislation also sends VA a signal that 
Congress expects strong and effective outreach to our veterans.
    Our second bill, House Resolution 1435, the Department of 
``Veterans Affairs Claims Reduction Act of 2007,'' could make a 
big difference in reducing claims backlog. This bill would fund 
a pilot program to allow properly trained County Veteran 
Service Officers to develop claims.
    This inter-governmental partnering could speed up the 
adjudication process, improve accuracy, and enhance the 
linkages between governmental layers as they serve veterans. I 
believe this is good policy. In fact, Mr. Chairman, I would 
support including in this pilot State and Municipal Veteran 
Service Officers.
    To ensure that veterans get quality results, I also suggest 
that service officers are certified by VA. This approach has 
already been tried with considerable success. A 2002 pilot 
program between the New York State Division of Veterans Affairs 
and the Buffalo, New York VA Regional Office showed that this 
concept could reduce claim development time and improve 
accuracy. The concept is sound.
    Mr. Chairman, I look forward to hearing more about House 
Resolution 1444 and 1490. I am concerned that these bills could 
create unfortunate and unintentional consequences, and fail to 
solve the fundamental problems they are intended to address.
    House Resolution 1444 would provide veterans $500 per month 
if their compensation and pension claim was remanded by the 
U.S. Court of Appeals for Veteran Claims or by the Board for 
Veterans Appeals and it has been over 180 days since the date 
of the remand. There is no recoup mechanism for this money if 
it is determined the veteran does not qualify to receive it.
    House Resolution 1490 would give veterans the median amount 
of compensation for a claim based on a brief statement of 
evidence until their claim has been adjudicated. The bill also 
directs the Secretary to audit a percentage of these claims for 
accuracy and fraud.
    Mr. Chairman, I understand that the intent of these bills 
is to reduce the backlog. It seems to me that both bills are 
what could be called ``frustration legislation'' written out of 
sheer and justified frustration with a faulty system.
    I suggest that it is better to instead concentrate on 
fixing VBA's systematic problems within the claims processing 
system. I believe it is within our power working with the VA to 
do that without making payments to people who may not have 
earned them and potentially creating an incentive for 
misrepresentation.
    Mr. Chairman, part of the problem is one of access for 
veterans to VA expertise. Some veterans are simply unaware that 
they may have grounds for a claim. That is why I am happy to 
announce that today I have introduced House Resolution 1863.
    This bill would require VA to conduct a pilot project that 
would provide mobile claims processing stations that would 
travel within a given VA Regional Office's area of 
responsibility, providing veterans with outreach, help on their 
claims, and also collecting feedback for use in systemic 
improvements.
    And today I also introduced House Resolution 1864. This is 
another piece of legislation that could have a significant 
impact on the claims backlog. It authorizes a pilot program for 
an automated rules-based system that could improve decision 
making on simpler claims issues and thus freeing up highly 
trained claims developers and adjudicators to work the more 
difficult issues.
    The bill authorizes $5 million per year for 4 years for the 
project. It would permit VA to contract for development and 
implement the system in not less than two Regional Offices.
    A rating produced in this manner, because the bill does not 
call for changing the current rating system, but would make 
decisions within that system more efficient, would thus 
contribute significantly to reducing the backlog.
    And that, Mr. Chairman, I think is what we're all truly 
after, and I yield back.
    [The statement of Congressman Lamborn appears on p. 42.]
    Mr. Hall. Thank you, Mr. Lamborn.
    I look forward to learning more about H.R. 1863 and H.R. 
1864 and I think you are right on the money when you said that 
this is what all of our efforts are aimed at.
    So after our colleagues on the first panel have finished 
giving their testimony, Members will be recognized for 5 
minutes to make opening remarks or to ask questions for 5 
minutes.
    And now we will ask our first panel for their testimony, 
and thank you for coming this morning. You each have a busy 
schedule, so we will try to get you processed as quickly as we 
can through our process.
    Mr. McIntyre from North Carolina, we will start with you, 
please.

STATEMENTS OF HON. MIKE McINTYRE, A REPRESENTATIVE IN CONGRESS 
      FROM THE STATE OF NORTH CAROLINA; HON. JOE BACA, A 
 REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA; HON. 
 JOE DONNELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
INDIANA; AND HON. FRED UPTON, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MICHIGAN

                STATEMENT OF HON. MIKE McINTYRE

    Mr. McIntyre. Thank you, sir. Thank you, Mr. Chairman and 
to the Ranking Member and to all the Members of the Committee. 
I am honored and privileged to have this opportunity to testify 
before you today about the ``Veterans Outreach Improvement 
Act,'' House Resolution 67.
    This bill has been endorsed by and was written with the 
assistance of the National Association of County Veteran 
Service Officers and enjoys widespread support nationwide in 
our report to Congress.
    The ``Veterans Outreach Improvement Act'' would address 
three important areas which I will summarize for you. First, 
coordination; second, local grants; and, third, resources.
    The bill would require the Secretary of the VA to establish 
a plan to coordinate outreach activities within the Department 
and would authorize $25 million annually for 3 years that would 
be used to provide grants to State and local governments for 
outreach purposes.
    By empowering our local Veterans Service Offices on the 
local level throughout the Nation, we would get more bang for 
our buck literally to locate veterans and assist them in 
receiving the benefits they deserve.
    First, the coordination aspect. The ``Veterans Outreach 
Improvement Act'' would require the Secretary to establish and 
annually review a plan to coordinate outreach activities within 
the Department. Currently various organizations have trouble 
accessing veterans' records even if the organization is 
accredited by the VA.
    Second, with regard to the outreach grants, many veterans, 
spouses, and widows of veterans are unaware of the benefits 
that

they are entitled to through the VA. We spend so much time 
debating here in Congress ways to help our veterans.
    I know I have 66,000 veterans in southeastern North 
Carolina sandwiched in between the areas roughly from Fort 
Bragg to Camp Lejeune. Yet, many of our veterans, especially in 
rural areas like I live in, do not even realize the full 
panoply of benefits that they are entitled to.
    According to a Knight Ridder report, as many as two million 
poor veterans or their widows may not be receiving of the $22 
billion annually in pensions to which they are already 
entitled. Other estimates suggest that only 30 percent of 
veterans receive the benefits for which they are eligible. So 
this is the back part of the tragedy.
    Number one, we have got to make sure we are doing right by 
our veterans, which I am sure we would all agree on. But, 
number two, are we educating and reaching out to make sure they 
understand and can access what those benefits are?
    Unfortunately, too many of our military personnel came back 
from overseas, they get lost in the shuffle when they leave the 
Department of Defense healthcare system and enter into the VA 
system. There are currently increased efforts underway to 
improve the seamless transition, but many veterans 
unfortunately have already fallen through the cracks and this 
would reach out to both the new veterans as well as those who 
may have already, of course, served our country and have fallen 
through the cracks.
    This bill, House Resolution 67, would establish a program 
for the VA Secretary to provide grants to States for outreach 
activities, establish cooperative relationships, and assist in 
the development of veterans' benefits claims.
    States may award portions to local governments. If no local 
veteran service program is available in a certain community, 
then States may use funds from grants to operate in place of a 
local agency or to establish a local program.
    And then, third, in addition to coordination and outreach, 
resources are critically important. This bill, House Resolution 
67, authorizes $25 million annually for the next three fiscal 
years. This is one dollar per veteran.
    This bill's funding allocation could be used by State or 
local governments for several key purposes such as establishing 
education and training for State and local government employees 
for accreditation to provide these outreach services. Another 
would be improving existing offices by being able to hire 
additional staff. And, third, allowing the Veteran Service 
Offices to purchase advertising space or, I know in rural areas 
such as I live in, establishing transportation programs for 
veterans to be able to travel and get the healthcare they 
deserve.
    In conclusion, I know that we all agree that our commitment 
to our veterans should be top priority. To allow at least a 
dollar per veteran, the 25 million we are talking about, to 
reach out to let them know potentially, as I mentioned earlier, 
of the 22 billion dollars in pensions that they might be 
entitled to, I think is a dollar well spent for each of our 
veterans and the very least we could do to help them.
    Our veterans deserve the benefits they have earned. It is 
our obligation to make sure they know what those benefits are 
and have the assistance in developing their claims. That is why 
I encourage the Subcommittee to give this bill its full 
consideration.
    I look forward to working with each of you and with our 
Nation's veterans and veteran's organizations. And in 
particular, I want to thank Ann Knowles, who is the National 
President of the County Veteran Service Organizations from 
Sampson County in our district, the 7th District of North 
Carolina, who will also be here testifying today.
    Thank you, and God bless you, Mr. Chairman.
    [The statement of Congressman McIntyre appears on p. 44.]
    Mr. Hall. Thank you, Congressman, and God bless you too. 
And thank you for that eloquent description of your laudable 
proposal.
    And we will ask Congressman Baca to go next.

                   STATEMENT OF HON. JOE BACA

    Mr. Baca. Thank you very much, Mr. Chairman and Ranking 
Member Lamborn and Members of the Subcommittee, for holding 
this important hearing today.
    Earlier this year, I have introduced House Resolution 1434 
to help reduce the veterans' claim backlog which is an issue 
that I have been concerned about for many years. These are 
benefits that veterans have earned. And I speak as a veteran 
who has served in both the 101st and 82nd Airborne.
    As you already know, there are almost one million backlog, 
and I state, one million backlog claims pending at the Veterans 
Administration. That is appalling to me when we look at 
veterans and we look at one million backlog already at the 
administration.
    The average claim takes about 6 months to process and 
appeal takes 2 years, bear that in mind, of a veteran who has 
served our country who has returned. Many of these claims are 
for older veterans who live month to month, need urgent medical 
attention.
    An article on the backlog ran in last week's Washington 
Post describing World War II veteran Seymour, Seymour Lewis, 
who lost hearing in the line of duty in 1944. Seymour Lewis 
waited 5 years, waited 5 years for the VA to give him an answer 
for his disability claim. That is 5 years that he waited. His 
claim was still pending when he died, when he died last year at 
the age of 80.
    This tragedy is not isolated incident. It is happening 
across the country and it is going to get worse, it is only 
going to get worse. The current backlog does not include the 
veterans who will be returning soon from Iraq and Afghanistan.
    GAO expects over 600,000 new claims will be filed from 
these two wars in the next 5 years alone. Bear that in mind 
when you think about what we have and the responsibility that 
we have to our veterans.
    It is clear that we need to act now to fix this problem 
before the system breaks down. I am proud of House Resolution 
1435 because I truly believe it would help reduce the backlog 
and make the difference in the lives of veterans, make the 
difference in the lives of veterans that deserve the benefits 
that they have earned.
    House Resolution 1435 is based on legislation I carried 
last year in Congress to reduce the backlog. However, this is a 
completely

new bill that incorporates new ideas while addressing some of 
the past concerns.
    House Resolution 1435 is a fiscally responsible bill that 
has built-in accountability and provides viable service to our 
veterans. This bill will establish a 3-year pilot project in 
five States that would allow the County Veteran Service to help 
develop backlog claims and we may even take in the 
consideration of our Minority Ranking Member that suggested 
State municipals.
    The five States, California, Florida, Ohio, and South 
Carolina, and Texas, were picked based on the extent of the 
County Veteran Service network, the veteran population in these 
States because we wanted a good sample of both large and small 
States in different regions of the county.
    Under the pilot program, the VA will identify the backlog 
claim that need further development, refer these claims to the 
veterans' nearest County Veteran Service Officers. The VA will 
also identify what information is needed to evaluate the claims 
so that the CVSOs can collect the proper information for the 
veterans.
    The CVSO will then work with the veterans and any other 
established power of attorney to fully develop the claims and 
that is working with other entities, too, as well. Once the 
claim is fully developed, it will be returned to the VA ready 
for evaluation and that is all of us working to help veterans. 
And that is the important thing, all of us working jointly 
together.
    At the end of the pilot program, the Secretary will submit 
the report to Congress showing how many claims each State 
started and ended with as well as how many were successfully 
processed so that we can see if the program actually worked.
    I am still waiting on a cost estimate from the 
Congressional Budget Office. However, I believe that this is a 
cost-effective bill because the program is using existing 
county employees to help reduce the VA claims backlog, that is 
using existing county employees.
    House Resolution 35 also addresses some of the past 
concerns. For instance, this bill will bring Veteran Service 
Organizations such as the VFW and DAV into the process and 
clearly direct the CVSOs to work with any veterans' group with 
the establishment of power of attorney in development of 
claims. We want the CVSOs and veterans and the power of 
attorneys to work as a team, as I stated before, to work as a 
team.
    Second, we made this into a pilot program so that we can 
try the ideas first and see if they really work to reduce the 
backlog.
    Third, House Resolution 35 supports the VA's mission to 
increase the number of claims evaluators. And I know that that 
is very important to a lot of us because I visited Walter Reed 
not too long ago and it is important that we have true 
evaluators and people that can actually write the claims.
    The pilot program provides the Department with VA 
accreditation to help provide the claims while the Department 
focuses on increasing staff that can evaluate the claims once 
they are submitted. To me, House Resolution 35 seems to be a 
common-sense approach that will reduce the backlog and utilize 
qualified government employees who already work on our veterans 
in 37 States across the country.
    Once again, I would like to thank Chairman Hall and Ranking 
Member Lamborn and members of the Subcommittee for giving me 
the opportunity to speak on this legislation. Thank you very 
much, and I know that my time has run out.
    [The statement of Congressman Baca appears on p. 45.]
    Mr. Hall. Thank you, Congressman. You used it well.
    Congressman Donnelly.

                 STATEMENT OF HON. JOE DONNELLY

    Mr. Donnelly. Thank you, Chairman Hall and Ranking Member 
Lamborn and other members of the Committee. Thank you for 
calling this hearing today and for the opportunity to speak on 
House Resolution 1490 introduced by Congressman Upton and 
myself and the need for new approaches to address the claims 
backlog and to also help America's vets cope with what is 
frequently a months-long process to get the benefits they 
deserve.
    The problem is well documented. We have a benefit system in 
place that is struggling to keep up with the growing load of 
disability claims cases. Right now a veteran filing a new claim 
can expect an almost 6-month wait until they find out whether 
that claim is approved. If they appeal, they can expect their 
case to drag on for nearly two more years.
    Unfortunately, this is a problem that is likely to get 
worse before better. As you know, in Iraq and Afghanistan, the 
ratio of soldiers wounded to killed is sixteen to one, the 
highest of any war in our Nation's history. With so many new 
and future veterans serving in Iraq and Afghanistan, we have a 
wave of new claims we must prepare for in addition to the 
180,000 Iraq and Afghanistan veterans who have already applied 
for disability benefits.
    Estimates are that over the next 5 years, OEF and OIF 
veterans could file 638,000 new claims for benefits. I believe 
the VA is trying to do the very best it can under the current 
system. Claims workers are dedicated individuals working hard 
to see that our vets are able to get the proper service and 
benefits deserving their service and sacrifice.
    I look forward to working with my fellow colleagues on the 
Veterans' Affairs Committee to make sure that VBA has the 
resources and staff in place to provide for accurate and timely 
claims adjudication.
    I also look forward to working with the VA and the 
Department of Defense to provide for a seamless transition from 
active duty to veteran status. However, I believe we must also 
explore more innovative approaches to address the fundamental 
shortcomings of the current claims process.
    New veterans often leave the service to an uncertain 
future. Sometimes just weeks from the battlefield they must 
find a job, a place to live, and find medical care. Many older 
veterans are on fixed incomes. For many disabled veterans, 
their benefits and disability compensation are a critical part 
of their ability to meet the needs of their families and make 
ends meet.
    It is our veterans who pay the price both emotional and 
financial for the long time that it takes to process a claim. I 
know there are a number of factors to explain in part why 
claims approval times are long and why the backlog has 
increased.
    However, we must do something to get veterans some 
assistance on the front end while they wait for the VA to make 
a determination. Just explaining the delay does not help our 
veterans to pay the bills and put food on the table. We need to 
expedite benefits to help veterans get by while their claims 
are considered.
    Currently approximately 88 percent of veterans' claims are 
ultimately approved by the VA. This would suggest that the vast 
majority of claims filed by veterans are done so accurately and 
truthfully by men and women who are seeking compensation and 
benefits for very real conditions. They have already sacrificed 
for their country.
    I believe our veterans have earned the benefit of the doubt 
when it comes to their claims on disability benefits. 
Congressman Upton and I introduced House Resolution 1490 to 
provide veterans that benefit of the doubt when it comes to 
their claims.
    This bill would approve new disability claims up front 
through an expedited process and direct the VA to audit a 
percentage of those claims to ensure accuracy and to deter and 
detect fraud. Those claims that have already been denied or are 
currently in the appeal process would not be included in this 
new process.
    Essentially a vet who can provide proof of service and 
minimal supporting evidence for their claim would meet with a 
VA claims worker to identify the proper disability and benefit 
they are filing for. Unless the VA or claims worker determines 
there is sufficient evidence to the contrary, the VA would 
approve the veteran's claim at a median benefit for that type 
of disability and the veteran would immediately become eligible 
for benefits.
    Benefits awarded through this benefit of the doubt approach 
could be changed by the VA once a more appropriate level of 
benefits is determined. However, until that happens, veterans 
would still be able to get a benefit for a claim which they are 
requesting.
    House Resolution 1490 would direct the VA to ensure that an 
adequate number of claims workers are assigned to assist in 
carrying this out. The burden of proof will be shifted from the 
disabled veteran to the VA.
    I have a little bit more written testimony, but I would 
like to sum up by this.
    Our veterans have served and served heroically. When they 
come home, they and their families should not have to suffer 
because we are not able to process our claims more quickly. We 
are doing everything we can to process them more quickly, but 
that does not help to feed families and to take care of their 
needs.
    We are asking that House Resolution 1490 be considered to 
help meet that goal and to help take care of our veterans and 
give them the benefit of the doubt they have earned through 
their service.
    Thank you, Mr. Chairman, Ranking Member Lamborn, and 
Members of the Committee.
    [The statement of Congressman Donnelly appears on p. 47.]
    Mr. Hall. Thank you, Congressman Donnelly.
    And we will now recognize Congressman Upton for his 
testimony.

                  STATEMENT OF HON. FRED UPTON

    Mr. Upton. Thank you, Mr. Chairman. And I have a full 
statement for the record, which I will submit, and I will not 
use the full 5 minutes granted to me.
    I just want to thank Congressman Joe Donnelly. He has been 
a friend. And House Resolution 1490, which we jointly 
introduced, with Joe being the prime sponsor, indeed is 
bipartisan. And if you look at the list of cosponsors, you will 
see also that is bipartisan.
    Let us face it. The current system is broken. In fact, it 
is more than broken, it is shameful. I frankly cannot imagine 
the nightmare that is shared by so many of our vets coming back 
from Iraq and Afghanistan. Many of them have a spouse. That 
spouse perhaps has worked one, two, maybe even three jobs. 
Chances are they have kids. He or she has a job maybe that they 
cannot return to. They have a mortgage and pending bills. And 
to think that they have to wait 6 months to have that claim 
processed on average or 2 years, as it has been indicated, for 
an appeal is just outrageous.
    Last month, Newsweek documented exactly what our veterans 
are going through. And I have to say it sent shock waves across 
the country. More than 400,000 cases are backlogged. A Harvard 
study was cited in that story that I was able to get and read.
    And as Joe indicated today, we have sixteen injured vets 
for every one that is killed. In Vietnam and Korea, it was two 
and a half, primarily because we have much better medical care 
than we had 20, 30 years ago.
    But it is an interesting fact, 43 percent, 43 percent of 
the vets coming home from Iraq and Afghanistan file for 
disability. Ninety percent of those are ultimately approved. So 
what our bill does is two things.
    One, it provides the median benefit for that disability 
level on day one. Now, the second thing that it does, it allows 
the Veterans Administration to go back and audit to make sure 
that there is not fraud and abuse, to make sure that there is 
not false claims by having a check and balance to make sure 
that not everybody files when in fact it may be not necessary 
or right.
    We allow the Veterans Administration to pick whatever 
percentage they want. It can be a hundred percent. It can be 10 
percent. It is whatever they deem correct to make sure that, in 
fact, the claims are appropriate and are correct.
    I would conclude by saying this. America now knows the 
problems suffered by our vets when they come back with service-
connected injuries. This Committee knows what those problems 
are. They have been aptly identified.
    This Committee and this Congress has a responsibility to 
the families as well as to the service men and women that 
return that have a service-connected injury. The current system 
has got to change and you all have a task to try and bring it 
before the full House where we can support it on a bipartisan 
basis.
    I support my colleague and neighbor, Mr. Donnelly, whose 
district adjoins mine, in this venture. I am delighted that he 
serves on the Veterans' Affairs Committee. And I look forward 
to working with all of you to shepherd the right changes so 
that our men and women are served correctly by the U.S. 
Government.
    I yield back my time.
    [The statement of Congressman Upton appears on p. 49.]
    Mr. Hall. Thank you, Congressman.
    I will just ask a brief question or two and then yield to 
the Ranking Member and we will try to get around the rest of 
the Subcommittee.
    Regarding House Resolution 67, Congressman McIntyre, do you 
anticipate that the legislation might cause State legislatures 
to reduce their current funding authorizations for veterans' 
programs?
    Mr. McIntyre. I did not hear part of your question. Do I 
anticipate that what?
    Mr. Hall. That House Resolution 67----
    Mr. McIntyre. Yes, sir.
    Mr. Hall. --may cause State legislators or legislatures to 
reduce their funding authorizations?
    Mr. McIntyre. Oh, no, not at all. If anything, this 
supplements and enhances what they have to offer because this 
is an additional way to say from the Federal level we are 
trying to help the county and State organizations do their 
outreach.
    And at the rate of a dollar per veteran, as I mentioned 
earlier, I would not foresee any State legislature using that 
as an excuse not to reach out or to fund what they need to do 
by virtue of their own veterans. In fact, I think that would 
have backfire ramifications if any State legislature attempted 
to do that.
    Mr. Hall. I would hope so, too, but I also know having just 
come back from my district, as we all have, that there is some 
financial problems at the State and local levels.
    And I guess another way of putting it would be do you think 
it would be productive or would you consider the idea of 
including in the bill a requirement that the States in question 
not reduce their funding to veterans' programs?
    Mr. McIntyre. We would be open to that type of amendment, 
yes, sir.
    Mr. Hall. Thank you.
    And regarding H.R. 1435, Congressman Baca, have you heard 
from the States and the CVSOs their position on this bill?
    Mr. Baca. The National Association of County Veteran 
Organizations fully endorse and support this bill, and the U.S. 
Department of Veterans Affairs and the State understand that 
CVSOs are already helping veterans prepare their claims every 
day. And the added benefit of the pilot program will not only 
help tackle this backlog, but it will also allow the CVOs to do 
a better job by providing them with the information they need.
    Mr. Hall. Thank you, Congressman.
    And last I want to ask Mr. Donnelly and Mr. Upton, have you 
seen anything in your research in the process of putting this 
legislation together which would predict a number for 
fraudulent claims and what steps are either taken in the bill 
or do you foresee taking to make sure that does not happen?
    Mr. Upton. I just want to say the way we wrote it, you 
know, they have got a better hand. I do not know what that 
percentage ought to be and we left it purely at their 
discretion. So they could review 5 percent of the cases. If 
they think that there ought to be more than that, you know, 25.
    We wrote the legislation so that the folks actually 
watching these claims, who knows, you know, whatever the 
situation, and we leave that fully in their hands to decide 
what that percentage ought to be.
    And I think, frankly, as not an expert on veterans' care 
issues, I think until you have a better idea, and perhaps you 
do, that we ought to start with the VA deciding what that 
percentage ought to be.
    Mr. Donnelly. And, Mr. Chairman, at the present time, 
approximately 88 percent of the veterans' claims are ultimately 
approved. So that is nine out of ten. And I guess I have faith 
in the integrity of our veterans that after serving our 
country, they will conduct themselves----
    Mr. Hall. I do too. I am just playing devil's advocate for 
a minute.
    Mr. Donnelly. Oh, absolutely, sir.
    Mr. Hall. And I support the intention of the legislation. 
Human nature being what it is, once it is----
    Mr. Donnelly. Right.
    Mr. Hall. --advertised that a claim will be, you know, that 
a median amount, if this legislation were to become law, would 
be paid, one can imagine that perhaps there would be more 
claims filed. But I am just curious whether----
    Mr. Donnelly. And that is why we included the auditing 
process----
    Mr. Hall. Right.
    Mr. Donnelly. --and the VA's ability to that.
    Mr. Hall. Which I support.
    Okay. Thank you, and I yield to our Ranking Member.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Congressman Baca, in connection with House Resolution 1435, 
would you support adding State Veteran Service Officers or 
other qualified government entities such as Municipal Service 
Officers to the pilot program described in your legislation?
    Mr. Baca. I think that is something that we have got to 
consider because it is a team effort to make sure that we do 
take care of our veterans. And that is the bottom line is that 
we need to make sure that the benefits that they are entitled 
to, that they receive those. If there are other entities that 
we can work together to assure that they receive the service in 
a timely fashion, we have got to do that.
    Mr. Lamborn. Okay. Thank you.
    And, Congressman Donnelly, in connection with House 
Resolution 1490, you stated in your testimony that benefits 
awarded through this benefit of the doubt approach could be 
changed by the VA once a more appropriate level of benefits is 
determined.
    Can you explain what you mean by determined? And the reason 
I ask that is because after a monetary award is given, I am 
wondering is the claim then sent through the regular claims 
process and, if so, I cannot help drawing the conclusion but 
that we might have a need for more VA adjudicators because we 
are adding one step to the whole process? Could you explain 
mechanically how that would work?
    Mr. Upton. Yeah. We asked the legislative counsel to draft 
this based on the Harvard study that was out and I think that 
perhaps relates to the--you know, right now the VA is being 
swamped and perhaps if legislation like this moves through the 
process that they would not have the backlog, certainly the 
claims process would be expedited in a major way.
    And the way that the folks at legislative counsel suggest 
by providing I think what you are asking is the median level of 
benefit, that is so that in essence it can start off for that 
wounded soldier returning and ultimately it is decided through 
the process whether it perhaps should be above the median level 
or below.
    But we allow the VA to make that determination. I think 
that stays with the legislation that we have and it was through 
the council looking at the Harvard study that actually came up 
with the language.
    Does that answer your question?
    Mr. Lamborn. Yeah. Thank you. That certainly helps.
    And for either one of you, once again on 1490, my last 
question, you say that there would be some level of fraud, 
hopefully minimal, but do you have any idea on what the dollar 
amount connected with that would be?
    Mr. Upton. I do not know what it is. And for me, you know, 
I once worked at the Office of Management and Budget and I once 
chaired the Oversight Investigation Subcommittee at Energy and 
Commerce. There is fraud and abuse that is out there, in every 
Federal program period. And we need to make sure that the tools 
are present to go after it and to let people know that when 
they defraud the government, try and rip it off, in fact there 
is a good chance that they will get caught and that there will 
be redress made.
    And the reason why I feel that it is very important to have 
the provision to allow the VA to audit those cases is because 
we know some people will try to cheat. And by having this 
safety valve there, I think it diminishes that and protects the 
taxpayers' rights at the same time, that the veterans that 
clearly are deserving do not have to wait 6 months before they 
get a benefit or 2 years if it is in appeal.
    Mr. Lamborn. Thank you.
    Mr. Hall. Thank you, Mr. Lamborn.
    Congressman Rodriguez.
    Mr. Rodriguez. Thank you, Mr. Chairman.
    On House Resolution 67 and House Resolution 1435, let me 
first of all congratulate both of you on those efforts. And I 
will mention a little bit on the others because I know that in 
that particular area we are having difficulty in terms of the 
need for the outreach that is required and needed.
    And I remember joining with the Vietnam Veterans of 
America, with a letter to Secretary Principi on the VA's 
stance. That we should not educate our veterans or not reach 
out to our veterans to let them know about the services that 
were available.
    Let me ask you, Congressman McIntyre, regarding my 
understanding of the budget estimate on House Resolution 67, 
that it is about $25 million?
    Mr. McIntyre. Twenty-five million annually over the next 
three fiscal years.
    Mr. Rodriguez. Okay. And, Congressman Baca, on yours, do 
you know what the estimated cost is?
    Mr. Baca. At this point, we do not know what the estimated 
cost is going to be because, remember, we are incorporating the 
bill with what is currently in existence right now. So it would 
actually be a cost effectiveness because this would be taking 
in the county employees that would already be there. And if we 
took into consideration the State and municipality, these are 
already employees that would already be in place.
    It is just allowing someone to provide a service to our 
veterans to handle the backlog of casework that needs to be 
done so we would be able to expedite the process because the 
applications sometimes where there is a question that is not 
answered that needs to be answered, we would have someone that 
would be able to provide that information, get it back to the 
VA, process that application in time to ensure that that 
individual then received his or her benefit.
    So we need that person to provide that information. It 
would be a team effort versus if it just waits for the VA 
because right now the VA lacks the amount of staff that they 
need and hopefully that they can create the additional staff.
    But, meanwhile, we would use another entity to make sure 
that we would be able to provide the kind of information and 
make sure that that veteran receives the benefit that he or she 
needs by doing this. So it would use existing staff that is 
already currently there by the county government.
    Mr. Rodriguez. Thank you.
    And I notice the language there authorized such sums as 
necessary to conduct the pilot programs, although I think the 
VA has indicated that that might cost up to $69 million. I 
guess they are high-balling it or I am not sure exactly what 
that is based on. I guess on how big that particular project is 
in your proposal.
    On House Resolution 1444 and 1490, I also feel the same way 
you do. I am just frustrated and the benefit of the doubt in 
this case ought to go to the veteran. The veteran, I think, 
should have received it and they passed away and never got it, 
you know.
    Let me ask you. Do we know if the VA, because I do not know 
and I guess we will have a chance to ask them later on, if they 
do get the benefits, if it is retroactive from the time they 
made the application or not?
    Mr. Donnelly. I do not know the answer to that, Congressman 
Rodriguez.
    Mr. Rodriguez. Okay.
    Mr. Upton. But I would just note, though, you have got 
cases documented, suicidal, I mean all those different things. 
I've talked to a number of wounded veterans and they are just 
beside themselves that they have to figure out how to maintain 
themselves without the benefit, you know, maybe they are still 
in care, they are not able to go back to their job, I mean all 
those different things, and not really know if their claim may 
or may not be approved.
    So this relieves that from the very onset, in essence, on 
average 6 months before they normally would see a check.
    Mr. Donnelly. And what this does, Congressman, is when you 
are looking at your two or three children and you are trying to 
figure out how you are going to be able to meet the needs after 
you have been disabled, this helps to solve that problem a 
little bit. And it is a position that the veteran should not be 
placed in, is placed in this position through no fault of his 
or her own. And so it is an attempt to try to make the 
situation right.
    Mr. Rodriguez. Let me thank you for your proposal and if VA 
does not come up with any other that sounds more reasonable 
than what we have now, it sounds like a good idea to do. So 
thank you very much.
    Thank you, sir.
    Mr. Upton. We would love to put you down as a cosponsor.
    Mr. Rodriguez. Okay. Thank you very much.
    Mr. Hall. Thank you, Congressman.
    The Chair will now recognize Congressman Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Mr. Hall. Hit your microphone button there, please.
    Mr. Bilirakis. Congressman Baca, my staff has discussed 
your legislation with some of the County Service Officers in my 
district. Based on these conversations, it's our understanding 
that the County Service Officers--you alluded to this 
somewhat--the officers in Florida go through a certification 
process and are already developing veterans' claims.
    How many States have County Service officers who are 
processing claims at this particular time?
    Mr. Baca. There are 37 States that currently operate right 
now. And what we are doing is asking for five States to use it 
as the pilot project right now to determine the effects of how 
we would be able to handle the claims during that period of 
time. And then we would also look at the possibility of 
amending the legislation if, in fact, it took in State and 
municipalities, too, as well in that claims process.
    But there are 37 States, so we are looking at just looking 
at veterans that need to process the application because there 
is a backlog that needs to be handled. There is over a million 
and some backlog right now.
    As I stated before, we have not even dealt with those that 
are going to be returning back from Iraq and Afghanistan, too, 
as well, and a life that is lost on someone that should have 
received their benefit because that claim was not processed in 
a timely fashion.
    Mr. Bilirakis. Yeah. They had questions. Thank you very 
much. The service officers want to know what the pilot program 
will do as opposed to what they are already doing. Can you 
elaborate on that a little bit? I know you touched on it.
    Mr. Baca. Well, the pilot program in those States will 
determine the accuracy of determining how we will handle the 
claims. We will get back in a timely fashion and report back to 
Congress how many claims we are able to handle, we are able to 
process those claims, because currently right now under the 
current process that we do have is some of the information that 
is inaccurate.
    The CVSOs will be able to get accurate information, gather 
that data, gather that information, submit it back, and say we 
were able to process it in a timely fashion because right now 
it would take anywhere between 6 months to 2 years to process 
that claim. So we would reduce that.
    So the study would indicate that in the claims, we reduce 
the amount of claims that it takes to handle a claim, so that 
study will determine a claim that was processed to say we 
handled it in less than 6 months to 2 years in a service that 
was accurate and benefit to the individual. So this way, we do 
not have to read in the paper like we did in the Washington 
Post saying that someone died because we failed to answer their 
response. We would then be able to get accurate information to 
say we responded to that claim within a period of time by 
utilizing another entity whether it was the county, the State, 
or municipality in getting the information because sometimes 
all it does is just take one information that is not there and 
by the time you get to the VA, it is impossible to get that 
information.
    Now you have got a county entity that is local in your area 
that can get the information directly about what is missing in 
the application and then you file that to the VA. Then they 
process that application. Now we have something on record.
    Mr. Bilirakis. Okay. Thank you very much. Appreciate it.
    Thank you, Mr. Chairman.
    Mr. Hall. Thank you, Congressman.
    Congressman Hare.
    Mr. Hare. Thank you very much, Mr. Chairman, and thank you 
for holding this hearing today.
    Let me thank all of my colleagues for the legislation that 
you have introduced. I share with my colleague, Mr. Upton, I 
saw the Newsweek article, too, and we started this process, you 
know, behind and we are falling farther behind. I do not think 
we have any time anymore. And I just want to commend all of you 
for introducing legislation. And if am not on it, I will get on 
it really quickly. I can tell you that.
    I just want to say a couple of things. I do not know why it 
seems the burden has to be on our veterans to prove that there 
is a problem with 88 percent, almost nine out of ten. I think 
we have an obligation to err on the side of our veterans. I 
know people will take advantage, as you said. I know there a 
few that might. But the vast majority of people are not going 
to do it.
    I just did a Marine Corps League State meeting in my 
district and that was the first question asked by these folks, 
why in heaven's name is it taking so long, to even get the 
claim and then to get the claim on the appeal process, 
sometimes upward, I think someone said 3 years, which is--2 
years, which is unconscionable to me that we are doing this to 
our veterans. So I just want to commend you all for it.
    And let me just say to my colleagues on House Resolution 
67, that the funding of this, just to put this all in 
perspective, we can fund this, if my math is correct, at $11 
million an hour that we are spending on the current war, we 
could fund each year at 2 hours and fifteen minutes of what we 
are spending. And I clearly think that that is not a bad deal 
in terms of where we can put our priorities.
    I wanted to ask you, if I might, Mr. McIntyre, you talked 
about in your bill, and I have a rural district, too, with a 
lot of veterans, and I am interested if you maybe would expand 
a little bit on what your bill will do to help transportation 
for veterans of rural communities because a lot of them simply 
do not have access to getting the kind of help that they need.
    Mr. McIntyre. Well, that is part of the flexibility in 
coordinating with State and local Veteran Service Offices and 
organizations where the need is greatest and they could use 
that to target their funding in terms of outreach.
    And I know that between the military bases I have of Fort 
Bragg and Camp Lejeune that even though those two bases which 
are on either side of my district, we have vast rural areas and 
swamp land and tobacco fields and pine trees, and it is very 
difficult for many of our veterans to get the transportation 
they need.
    And that is one of the first foci by the Area Council on 
Aging when they are dealing generally with senior citizens, but 
the veterans too often have gotten left in the gap. And that is 
why if they are given the flexibility to realize that the most 
critical part of outreach in that situation may be the 
transportation, then that is where they would be able to target 
their money.
    So that is why it is important to have that flexibility 
with the local agencies on the ground being able to best 
determine how to use that.
    Mr. Hare. Yes.
    Mr. Baca. Mr. Hare, if I may just add something. In my trip 
that I took to Walter Reed not too long ago when we went down 
there, and I think that is why it is so important when we look 
at accurate assessment and evaluation before our veterans are 
discharged, I mean, that is why we actually have a lot of the 
backlog because it is poor documentation.
    And because of the poor documentation and assessment and 
evaluation that a lot of the information is inaccurate so, 
therefore, a lot of the claims that are filed right now, a lot 
of the appeal, the process, everything that needs to be done 
has to go through some entity whether it is the VA, whether it 
is through our Congressional Office, or whether it is through 
the entities such as the CVSOs, VFWs, all of these other 
organizations, and begin to help a lot of our veterans.
    That is why it is important that when we look at any one of 
our veterans is it is appropriate assessment and evaluation 
during that period of time. If it is done, then the process 
would be a lot easier in terms of handling that veteran's claim 
because we would have accurate information. Then it is just a 
matter of processing it would be a lot easier because we are 
not doing a good job in the assessment and evaluation in the 
discharge of that veteran.
    Mr. Hare. Well, let me just say to all four of you I thank 
you for having the courage to introduce this legislation. 
Hopefully we get this to the floor and get this process started 
moving and be proactive for veterans instead of reactive. I 
think that is kind of the mindset we have been in and the mold 
we have been in.
    And, Representative Donnelly, thank you very much for your 
piece of legislation. I think it has a great deal of push 
behind it and I would be very honored to help any way I can 
with you on it.
    Mr. Donnelly. Thank you, Congressman. We certainly 
appreciate that. And Congressman Upton and I are going to be 
working the floor for cosponsors and we'd be proud to have your 
name on it.
    Mr. Hare. Not a problem. Thank you very much.
    I yield back.
    Mr. Hall. Thank you, Mr. Hare.
    I, too, want to thank all four of you for your work and I 
neglected to mention, Congressman McIntyre, in terms of the 
outreach component.
    One of the things I heard about this over the last 2 weeks 
when we were at home in our districts, and my district where we 
have the 105th Airlift Wing, we have a Marine and National 
Guard detachment and we have West Point and the veterans 
community who lives there, and 77,000 veterans approximately 
being served by Castle Point and Montrose VA facilities as well 
as a number of outpatient clinics, I heard repeated complaints 
from veterans about the eleven cents a mile that they are 
reimbursed to drive to a facility to be treated. In some cases, 
they are driving a considerable distance, you know, a hundred 
miles or more round trip.
    And the IRS last year, I think they allowed 48 cents a mile 
for tax purposes. It is clear to anybody buying gasoline 
nowadays that you have got to have an awfully good, efficient 
car. If you can get there on eleven cents a mile, I want to 
know what you are driving.
    But maybe that is something else that----
    Mr. Baca. That is why, Mr. Chair, we probably need my 
legislation to make sure they do not have to drive all over the 
place and then incorporate the Ranking Member's idea, too, as 
well so this way they can get there. The gas prices are so 
high.
    Mr. Hall. You are right about that, Congressman.
    We will incorporate as many of these ideas as we can. I 
thank you all for your hard work and for coming here today to 
talk about the legislation.
    Mr. Baca. Thank you, Mr. Chairman.
    Mr. McIntyre. Thank you, Mr. Chairman.
    Mr. Hall. Our first panel is excused.
    And our second panel, F. Douglas LeValley, the former 
President of the National Association of County Veteran Service 
Officers; Carl Blake, National Legislative Director of the 
Paralyzed Veterans of America; Gerald T. Manar--is that the 
correct pronunciation?
    Mr. Manar. Yes, sir.
    Mr. Hall. Thank you.
    Deputy Director of the Veterans of Foreign Wars; Craig M. 
Kabatchnick--did I get that right?
    Mr. Kabatchnick. You got that right.
    Mr. Hall. Thank you.
    Clinical Legal Instructor for North Carolina Central 
University School of Law; and Robert Chisholm, President of the 
National Organization of Veterans Advocates.
    Thank you all for joining us.
    And I would like to ask Mr. LeValley to begin our 
proceedings. Thank you.

  STATEMENTS OF F. DOUGLAS LeVALLEY, PAST PRESIDENT, NATIONAL 
  ASSOCIATION OF COUNTY VETERAN SERVICE OFFICERS; CARL BLAKE, 
 NATIONAL LEGISLATIVE DIRECTOR, PARALYZED VETERANS OF AMERICA; 
 GERALD T. MANAR, DEPUTY DIRECTOR, NATIONAL VETERANS SERVICE, 
    VETERANS OF FOREIGN WARS OF THE UNITED STATES; CRAIG M. 
 KABATCHNICK, ADJUNCT LAW PROFESSOR, AND SUPERVISING ATTORNEY 
   AND DIRECTOR FOR THE VETERANS LAW PROJECT, NORTH CAROLINA 
CENTRAL UNIVERSITY SCHOOL OF LAW; ROBERT VINCENT CHISHOLM, PAST 
     PRESIDENT, NATIONAL ORGANIZATION OF VETERANS ADVOCATES

                STATEMENT OF F. DOUGLAS LeVALLEY

    Mr. LeValley. Okay. Thank you, sir.
    Chairman Hall, Members of the Subcommittee, it is truly my 
honor to be able to present this testimony before you.
    As Past President of the National Association of County 
Veteran Service Officers, I am commenting on our views on House 
Resolution 67, House Resolution 1435, House Resolution 1444, 
and House Resolution 1490.
    The National Association of County Veteran Service Officers 
is an organization made up of local government employees. Our 
Members are tasked with assisting veterans in developing and 
processing their claims.
    Between 75 and 90 percent of the claims presented to the 
Veterans Administration each year originate in a County 
Veteran's Office. Our association focuses on outreach, 
standardized training, claims development, and advocacy.
    On House Resolution 67, the VA has a responsibility to 
reach out and make veterans and their dependents aware of their 
entitlements. One of the ways is for the County Veteran Service 
Officer to spread the word, to go into the communities with the 
message that veterans and their dependents have benefits due 
them.
    While many counties do fund the County Veteran Service 
Office, the vast majority do not provide funding for outreach 
or other informational services.
    The VA's own report from late 2004 recommended that the 
Agency improve its outreach efforts with public service 
announcements and other pilot programs.
    It is obvious there is great need for outreach in the 
veterans' community and the local CVSO is an advocate closest 
to the veteran and a widow and with minimal funding could reach 
the maximum number of eligible veterans and widows.
    Therefore, NACVSO is supporting House Resolution 67 
introduced by Congressman McIntyre of North Carolina that would 
allow Secretary Nicholson to provide Federal, State, and local 
grants and assistance to State and County Veteran Service 
Officers to enhance outreach to veterans and their dependents.
    We are already present in most communities and stand ready 
to assist the Department of Veterans Affairs with this 
monumental task.
    On House Resolution 1435, the Monday morning report for 7 
April 2007, showed 674,000 cases pending in WIPP. The week 
ending 9 July 1999, showed 378,000. In eight years, the backlog 
in WIPP has increased by more than 269,000 or about nine 
percent per year. This trend must be reversed and the time is 
now.
    The Veterans Benefits Administration did not create this 
sizeable backlog by themselves; they had considerable help. 
They cannot be expected to solve the problem alone. It will 
take this Congress, the VA, the Veteran Service Organizations, 
and the State and County Veteran Service Officers to join 
together to conquer this problem.
    Our Members, County Veteran Service Officers, are present 
in 37 of the 50 States and located in over 700 local 
communities. This readily available work force represents 
approximately 2,400 full-time employees who are available to 
partner with the Department of Veterans Affairs. Over 700 of 
these CVSOs are accredited with the Department of Veterans 
Affairs with many holding accreditations with multiple 
organizations.
    House Resolution 1435 sponsored by Congressman Baca of 
California provides a way for the Department of Veterans 
Affairs to enlist the aid of these CVSOs in a pilot program 
beginning in five States.
    CVSOs through the claimant's power of attorney would fully 
develop as many as possible claims passed from the local VA 
Regional Office, thereby assisting in reducing the claims 
backlog by returning fully developed, ready to rate claims.
    The availability of approximately 2,400 trained full-time 
CVSOs available to work at the local level developing claims 
will free up VA personnel for other tasks. NACVSO supports the 
pilot program of House Resolution 1435 and believe that its 
success will cause the Secretary of Veterans Affairs to expand 
the program in other States.
    House Resolution 1444, the backlog of remanded claims 
continues to be a problem for the veteran and House Resolution 
1444 sponsored by Congressman Hall will address that problem 
and we support the discussion of the benefit.
    House Resolution 1490, NACVSO supports discussion of House 
Resolution 1490 sponsored by Congressman Donnelly that provides 
for a presumption of service connected under some certain 
claims.
    This concludes my comments, and I will be happy to answer 
any questions that the Committee may have.
    [The statement of Mr. LeValley appears on p. 50.]
    Mr. Hall. Thank you, Mr. LeValley.
    The Chair will recognize Carl Blake, please.

                    STATEMENT OF CARL BLAKE

    Mr. Blake. Chairman Hall, Ranking Member Lamborn, and 
Members of the Subcommittee, on behalf of Paralyzed Veterans of 
America, I would like to thank you for the opportunity to 
testify today.
    Since you already have a copy of my written statement, I 
will limit my remarks to House Resolution 1490 and House 
Resolution 1444.
    PVA does not support the idea of the presumption of service 
connectedness for submitting claims proposed by House 
Resolution 1490. It will require the VA to adjudicate a new 
benefit, the interim award, rather than focusing their 
resources on properly completing the initial claim.
    If the service connection is reasonably allowable, 
regulations provide for a prestabilization rating under 38 CFR, 
section 4.28 at a 50- or 100-percent rate for recently returned 
veterans. One year later, the veteran is examined and further 
evaluated. Unfortunately, this regulation is rarely used.
    Even if a veteran thought that they may be asked to pay the 
money back to the VA in three or 4 years, some veterans may 
still file an unsubstantiated claim. The long and frustrating 
process of filing claims for compensation does not discourage 
some veterans from filing fraudulent claims. We believe that if 
Congress lowers this threshold as this bill would do, the 
results would be an overwhelming number of claims filed for 
compensation.
    I would also like to address two other ideas that are 
contained within the bill. The first is that the bill makes a 
distinction between veterans who would have served in conflict 
and veterans who would not have, thereby creating a class of 
service-connected veterans.
    The bill outlines that a veteran has to prove some service 
in a conflict and I would argue that there are at least as many 
if not more veterans who incur a service-connected disability 
who never served in a conflict of any kind. So there you are 
making a distinction between classes of veterans.
    I would also suggest that this bill does not actually do 
anything to reduce the backlog of claims. Once a median level 
of benefit is awarded, the claim is just set aside. It is not 
actually then finalized and put off the table and said it is 
done. It is just set aside to be finally and properly 
adjudicated at a later date. I would argue that that does not 
provide an example of reducing the backlog of claims. That just 
perhaps inflates it further.
    PVA also opposes House Resolution 1444 because we believe 
this legislation would simply add to the workload. The bill 
states that if the final decision is not to award benefits, the 
amounts paid as interim benefits shall not be considered to be 
overpayment for any purpose.
    This policy would encourage veterans to once again file 
frivolous claims. Furthermore, this would create a potential 
enormous cost to the VA if it is forced to pay for claims that 
ultimately will be denied.
    I would argue that resources can be better used by 
improving the system rather than offering free money to 
everyone filing a claim regardless of its legitimacy. The 
problems in VBA are systemic, they are cultural. There are 
numbers of problems. And I do not see this as being the fix.
    In the end, we believe that many of the problems in the 
Veterans Benefits Administration are centered on proper 
training and accountability. Without uniform training across 
all of VBA on the standards established in regulations, 
problems will continue to arise and the claims backlog will 
continue to grow.
    Furthermore, it is absolutely essential that VBA personnel 
at all levels be held accountable not only for their own 
actions but for the actions of their subordinates. Although we 
continue to advocate for adequate resources and additional 
staff, these steps will not go far enough if training and 
accountability are not a major component.
    Similarly, we recognize that Veteran Service Organizations, 
our own personal staff, have a commensurate obligation to 
properly train and supervise.
    PVA certainly looks forward to working with the 
Subcommittee and all of Congress to find workable solutions to 
what has become a national problem for current veterans and new 
veterans returning from Iraq and Afghanistan. However, we must 
ensure that a short-term fix does not become a longer term 
problem in VBA.
    Thank you again for allowing me to testify, and I would be 
happy to answer any questions that you might have.
    [The statement of Mr. Blake appears on p. 52.]
    Mr. Hall. Thank you very much, Mr. Blake.
    Mr. Manar.

                  STATEMENT OF GERALD T. MANAR

    Mr. Manar. Good afternoon. Mr. Chairman, Ranking Member, 
and Members of the Subcommittee, on behalf of the 2.4 million 
Members of the Veterans of Foreign Wars of the United States 
and our auxiliaries, I would like to thank you for the 
opportunity to present our views on today's legislation.
    Mr. Chairman, I ask that my written testimony be entered 
into the record.
    These bills have a common resounding theme, that those who 
authored and sponsored this legislation care deeply for 
veterans, understanding that the current systems are not 
serving them well, and want to do something to make it right 
for those who have served our Nation in both peace and war.
    We share your concerns and frustrations. While we support 
House Resolution 67, we cannot support House Resolution 1435, 
1444, and 1490 because it is our belief that each of these 
bills contains serious flaws which would, if enacted, harm 
veterans and the VA compensation program which has served them 
and our Nation exceedingly well over most of the past 75 years.
    House Resolution 1435 directs the Secretary to conduct an 
experiment that would shift most of the claims development 
burden from VA to County Veteran Service Officers in five 
States. Problems with this bill extend through almost every 
section and subsection, and it is outlined in our written 
testimony.
    However, there are two things about this bill we would like 
to emphasize. This bill elevates County Veteran Service 
Officers to a superior status by conferring on them the legal 
right to develop any claim they receive from VA or directly 
from a claimant regardless of whether the claimant has selected 
them as their power of attorney. This puts every other service 
organization at a disadvantage to CVSOs and not subtly tells 
veterans that representation by the American Legion, the 
Disabled American Veterans, the Paralyzed Veterans of America, 
the Veterans of Foreign Wars and others is not as good as that 
provided by CVSOs.
    From 1986 to 1996, I ran the Claims Adjudication Division 
in the VA's Los Angeles Regional Office. I managed over 150 
employees whose responsibility it was to process the nearly 
100,000 claims we received annually from the 1.3 million 
veterans and their dependents in the Los Angeles area. We 
routinely provided training to the California CVSOs.
    I can state without reservation that the best of those 
CVSOs were very good indeed. However, I can also state that 
those accredited service officers of the DAV the American 
Legion, the PVA, and the VFW who worked in the LA Regional 
Office were just as good and often better in their 
understanding of what VA needed in order to process a claim.
    Further, transferring claims to the CVSOs for development 
would in our opinion extend the time it takes to complete 
development, cause the VA extraordinary problems in tracking 
its workload, reduce the control VA has over effecting timely 
development, and offer VA managers an excuse for failing to 
timely process claims.
    House Resolution 1444 directs the Secretary to make interim 
payments to those who have had remands pending longer than 6 
months. In fiscal year 2006, the Board of Veterans Appeals 
remanded 32 percent of its workload to the VA's Appeals 
Management Center for additional development. While it is true 
that additional development sometimes produces the evidence 
necessary to grant the benefit sought on appeal, in reality VA 
grants service connection or additional benefits in only 17 
percent of the cases it processes through the Appeals 
Management Center.
    This means that under this bill, 83 percent of the people 
who would receive a $500 monthly payment for an average of 18 
months are those whose claims are going to be legally and 
finally denied anyway.
    Further, the availability of a $500 monthly benefit will 
cause everyone who appeals to the Board of Veterans Appeals to 
seek a remand rather than a decision. This is usually 
accomplished simply by suggesting that the claimant's 
disability has worsened or a medical opinion is required. If 
this bill is enacted, appeals will skyrocket and the VA 
backlogs will grow even larger.
    We believe this money would be much better utilized by 
creating a second Appeals Management Center away from 
Washington to help process these remands more timely and reduce 
the backlog.
    Finally, House Resolution 1490 would provide a presumption 
of service connection for certain claims. We believe that this 
legislation is based on a false premise that VA approves 87 
percent of the claims submitted by veterans.
    Unlike Social Security disability insurance which requires 
a single up or down decision, VA must decide every claimed 
condition. The average original application now lists eight or 
nine conditions and it is not unusual for veterans to claim 
service connection for 15 or 20.
    In 2005, 49 percent of the 160,352 veterans found by VA to 
be entitled to service connection for something were awarded a 
combined evaluation of zero, ten, or twenty percent. What this 
means is that 49 percent of veterans who received favorable 
decisions from VA received $225 or less each month.
    Yet, this legislation, if enacted, would grant service 
connection for virtually any condition claimed by a veteran and 
grant him or her a median level of compensation. And the only 
quality check would be a random sampling to deter fraud.
    Further, it would not be surprising that 80 to 90 percent 
of the 200,000 men and women discharged from active duty each 
year would apply for compensation. And with no significant 
criteria governing the grant of service connection, most would 
receive a median level of compensation.
    Mr. Chairman, the VFW does not support these three bills. 
While well intended, each would aggravate the backlog of claims 
pending at VA.
    It is our belief that the compensation program administered 
by VA is basically sound. It is our belief that budgets passed 
on time with adequate funding, accountability of VA managers 
and congressional oversight will resolve the problems at VA.
    Congress needs to recognize that this backlog problem took 
years to create and it will take years to resolve.
    Thank you for this opportunity to testify. I will be happy 
to respond to any questions you may have.
    [The statement of Mr. Manar appears on p. 54.]
    Mr. Hall. Thank you, Mr. Manar.
    The Chair will now recognize Mr. Kabatchnick.

               STATEMENT OF CRAIG M. KABATCHNICK

    Mr. Kabatchnick. Good afternoon, Chairman Hall, 
distinguished panel Members, honored guests. I am Craig 
Kabatchnick. I'm the supervising attorney, law professor at the 
Veterans Law Project, the Prototype Clinic operating at North 
Carolina Central University School of Law in Durham, North 
Carolina.
    I am really honored to have this opportunity to offer input 
today to the Subcommittee members on the proposed legislation 
being considered.
    As to House Resolution 1435, while the VA says that the 
backlog is due to the increased complexity of claims, it is my 
opinion that the primary cause of the backlog of cases at the 
VA Regional Office level is due to hiring of inexperienced 
employees without the requisite medical and legal backgrounds, 
heavy caseloads, inefficient structure and operations at the 
VA, including the hiring and training of personnel, especially 
at the rating board level, as well as a heavy reliance on 
quantity at the expense of quality.
    As it stands today, the bill 1435 will not be effective to 
reduce the backlog it seeks to address. The bill states that 
there are 2,400 County Veteran Service Officers nationwide in 
37 of 50 States. Dividing up the backlog places an average of 
300 to 400 cases on each County Veteran Service Officer who may 
not be equipped or willing to handle a fraction of that load.
    Furthermore, the bill's reliance on County Veteran Service 
Officers would be ineffective in resolving the burden of 
backlog where County Veteran Service Officers are generally not 
trained in legal or medical issues. Sometimes they are not even 
veterans.
    We recommend the bill be modified as follows: One, increase 
funding to provide adequate resources and train personnel for 
the Department of Veterans Affairs at the Regional Office 
level, particularly at the rating board level.
    Two, place officials with VA legal experience or otherwise 
in ranking positions in each of the 54 Regional Offices almost 
like Inspector Generals who could sense the gridlock and 
allocate resource appropriately.
    Regarding House Resolution 67, we agree all levels of 
government and VSOs share responsibility to reach out to 
military families and make them aware of their entitlements. 
However, there is the inherent risk funds would be diverted 
from existing outreach programs.
    States already funding outreach programs will be tempted to 
discontinue funding them because of the new source of Federal 
funding. Most important we do not need to do outreach which 
simply sends people to a system that is currently in gridlock.
    As to House Resolution 1490, we fully support this proposed 
legislation. We favor the presumption of service connection for 
certain claims because it shifts the burden of proof away from 
the veteran and onto the government.
    Currently it takes three to 5 years at a minimum to 
adjudicate a claim from filing of initial claim to a final 
decision by the Board of Veterans Appeals, up to 9 years if 
there is an appeal to the Court of Appeals for Veterans Claims.
    The Department is often hostile and adversarial to 
veterans' claims and routinely ignores evidence favorable to 
the veteran including statements from physicians who have 
treated the veteran over a long period of time, instead giving 
greater weight to the statements of their own in-house doctors 
who have only performed a cursory examination of the veterans 
or who have done just a brief review of the medical records.
    Placing the burden of proof on the government rather than 
the veteran is fair and equitable because of the disparity in 
resources between the veteran who is usually under-represented 
and the Department of Veterans Affairs, a situation analogous 
to David and Goliath.
    We also fully support House Resolution 1444. The provision 
for interim benefits payment, it is fully needed and 
appropriate. It will force the Department of Veterans Affairs 
to expedite action when there is a remand from either the Board 
of Veterans Appeals or the Court of Appeals for Veterans 
Claims.
    We like the proposed provision that interim benefits are 
considered to be an advanced payment of benefits owed for any 
period before the date of a favorable final decision. However, 
we feel that the period of time, 180 days proposed for the VA 
to make a decision on the matter prior to paying is too long 
and it is going to lead to further delay. We feel that 30 days 
is more appropriate. We also support the provision for 
automatic forgiveness.
    I really appreciate the opportunity to appear before you 
today, and I would be happy to respond to any questions. Thank 
you.
    [The statement of Mr. Kabatchnick appears on p. 58.]
    Mr. Hall. Thank you, Mr. Kabatchnick.
    The Chair will now recognize Mr. Chisholm.

              STATEMENT OF ROBERT VINCENT CHISHOLM

    Mr. Chisholm. Thank you, Mr. Chairman and Members of the 
Subcommittee.
    I just wanted to make one correction for the record. I'm 
the past President of NOVA, I am not the current President of 
NOVA.
    I would like to focus my attention on House Resolution 
1444, sort of giving an outline of why this bill is necessary. 
This is clearly an idea whose time has come, the need for a 
remedy for delay.
    As Mr. Kabatchnick just told you, and it is true, that if 
you file a claim, it takes anywhere from three to 5 years to 
get a final board decision. That is the last step in the 
administrative process before one goes to court.
    The following statistics show the number of cases actually 
remanded by the board annually. Forty-two percent were remanded 
in 2003, 56 percent in 2004, 38 percent in 2005, and 32 
percent.
    When a veteran receives a final decision from the board, 
they have the right to appeal to the United States Court of 
Appeals for Veterans Claims. Since 1988 when the court was 
created, an average of 60 to 65 percent of those veterans get 
remands back to the board because of some error committed by 
the agency. And that takes another two to 3 years to run the 
claim through the court system.
    In 1994, Congress passed the ``Veterans Benefit Improvement 
Act.'' In section 302 of that Act, entitled veterans who 
received remands from court to the board or from board to the 
Regional Office to expeditious treatment.
    Unfortunately, expeditious treatment has been effectively 
rendered meaningless because there is no enforcement mechanism 
for this expeditious treatment. What most veterans receive is 
delay at two critical junctures, first when the case is 
remanded from the court to the board and second when the board 
remands the case back either to the Appeals Management Center 
or the RO. And it is really in the latter situation on remands 
from the board to the AMC or to the Regional Office where there 
is a lot of delay.
    Under this system as it currently exists, the only people 
who have deadlines are the veterans. The Secretary has no 
deadline to do anything in this system. This bill, 1444, would 
put the onus on the Secretary for the first time to do within a 
required timeframe or would have to start paying the veteran 
interim benefits. And NOVA fully supports that.
    We raise two concerns. The first concern is that for some 
disabilities, like tinnitus, the maximum rating under the VA 
schedule is 10 percent, which equals presently $115 per month. 
If a veteran files a claim for disability benefits for a 
condition where the maximum rating is under the $500 per month, 
this could have some iunintended negative consequences. And I 
think you should look at that specific issue.
    The other issue is what if multiple conditions are filed by 
the veteran and, let us say, service connection for 
posttraumatic stress disorder and someone has cancer that they 
are alleging is caused by their service, is it $500 per claim 
or is it $500 per veteran? I think that is an issue that the 
Committee should also explore.
    Finally, someone suggested that the practical effect of 
this bill would be for the VA just to deny the claims outright 
as the 180-day time limit approaches. To prevent this from 
happening, Congress should define final decision as finally 
decided as the point in time when the veteran has exhausted 
appeals.
    As for House Resolution 1490, the presumption of service 
connectedness, this bill, if enacted, would represent a 
fundamental change in the way VA does business and we fully 
support the ideas behind this bill because the delays being 
caused by the VA right now are terrible for these veterans 
returning from the wars.
    I see my time is running out. And the last thing I would 
like to just say is on House Resolution 67. Outreach is 
critical to veterans. I receive calls all the time from 
veterans that are asking for my representation. They say, Mr. 
Chisholm, why can't my claim go back to the date of discharge 
from service.
    A veteran called me recently, a Vietnam discharged veteran, 
whose claim was only effective when he first filed in 2002, his 
claim for psychiatric disability, notwithstanding the fact that 
he was discharged from the service for psychiatric disability. 
He said why can't my claim go all the way.
    We need to reach out to these veterans like this, inform 
them of the benefits that are available for them. And NOVA 
fully supports House Resolution 67.
    Thank you for letting me testify here today, and if you 
have any questions, I would be glad to answer them.
    [The statement of Mr. Chisholm appears on p. 63.]
    Mr. Hall. Thank you, Mr. Chisholm.
    I do have a question for you and Mr. Kabatchnick based on 
one or both of your remarks here, which has to do with, under 
the House Resolution 1445, the legislation of which I am the 
sponsor, with the 180-day period after remanding a claim, do 
you think that time should be shortened? I mean, if this were 
to become law.
    Mr. Kabatchnick. Are you asking me?
    Mr. Hall. Yes.
    Mr. Kabatchnick. Thank you, Chairman Hall.
    It is my feeling that the time needs to be shortened. I 
have had experience working at the VA both in their general 
counsel's office and now I have been on the other side 
representing veterans.
    And the time that it takes to remand a case is way too 
long, and I think that 180 days is too much time to give the VA 
for a remand that needs to be shortened. I said 30 days, but 
any time would be time well spent for the veteran.
    Mr. Hall. Thank you.
    And, Mr. Chisholm, you made a comment on H.R. 1444. One of 
your comments was relating to a disability rating such as 
tinnitus which would bring in, if it is approved, $115 per 
month presently.
    So would you recommend then that the language be changed so 
that rather than a median for those disabilities that are 
applied which carry a lower compensation that we give in the 
case of tinnitus, for instance, the maximum per month or should 
we give, you know----
    Mr. Chisholm. I think that would be fair, yes, under that 
circumstance, so the most that veteran could get for that 
specific claim. That would be a concern.
    And I would also like to address the question about the 180 
days, if I could, as well.
    Mr. Hall. Please.
    Mr. Chisholm. The practical reality is when the court 
remands a case to the board, the first thing the board is 
required to do on the remanded case from court is give the 
veteran 90 days to submit further evidence at that point. So 
that time line is already built into the system. So in my 
opinion, the 180 days gives the veteran the time to submit 
additional evidence and time for the VA to adjudicate it. So I 
would recommend keeping the 180-day time, at least for cases 
remanded from court to the board.
    And the other issue is when cases are remanded from board 
to the Regional Office, there are specific instructions given 
to the Regional Office to get further evidence and request 
Social Security records, request medical records, and that can 
be time consuming for the VA to get those records back in. And 
so the 180-day timeframe seems to me to be a reasonable amount 
for that reason.
    Mr. Hall. Thank you.
    And, Mr. Blake, would you please expand upon your written 
testimony, on page six, regarding a prestabilization rating? 
Have you seen that used and how do you think we can encourage 
the VA to use that prestabilization rating more often?
    Mr. Blake. Well, I will be the first to admit that I am not 
the subject matter expert. I kind of took a lot of this 
information from dealing with our general counsel's office and 
our benefit staff.
    I probably could not offer any more on that suggestion than 
to say that from the perspective of our people in the field, it 
is something that rarely if ever gets used and, yet, it is in 
regulations. I think it is a case of there are lot of things 
that are in the VA regulations with regards to the claims 
process that get overlooked or just never get used.
    I would be happy to take that question as a written 
question for the record and probably provide a lot more 
feedback on it.
    Mr. Hall. That would be great. And if any of our other 
panelists, Mr. Manar, do you have a comment on that?
    Mr. Manar. I have not read his statement. However, if you 
are referring to a prestabilization range for servicemembers 
who are being discharged from service or new veterans who have 
just been discharged from service, VA regulations allow under 
4.28 of regulations, Title 38, that VA may award either a 50 
percent or a 100 percent evaluation for up to a year if the 
review of the veteran's injuries or disabilities indicate that 
they are not stabilized yet. They have not settled down so that 
you can assign a more permanent evaluation to them.
    Some offices use this paragraph fairly liberally. Others do 
not. I think it is a question of training and education of VA 
rating specialists to ensure that they are aware of it and 
encouraged to utilize it.
    Mr. Hall. Thank you.
    Mr. LeValley, you looked like you wanted to say something.
    Mr. LeValley. Oh, no. I was just listening intently there.
    Mr. Hall. Okay. Great.
    My time is expired. I would like to recognize my Ranking 
Member, Congressman Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Several short questions. Mr. Blake, do you believe that the 
percent of cases that are either fraudulent or just unjustified 
for whatever reason would go up if there is a presumed 
eligibility for what would be a lifetime benefit?
    Mr. Blake. I would think that is a reasonable expectation. 
I mean, just as kind of an anecdote, when we reviewed this 
legislation, a number of people in the office came to me and 
said it would be a great opportunity for me to file a claim who 
had never filed a claim.
    You know, and to go to the question about shifting the 
burden of proof, I think these bills are a case of we are 
encouraging fraudulent claims further and, yet, now we are 
going to shift the burden onto the VA to prove that this 
greater number of veterans who would likely file a fraudulent 
claim have to now decide if they were doing it for the wrong 
reason.
    And I think that you would find that the burden of proof 
for fraud is extremely high. So the VA would have a very 
difficult time ever proving that any of these cases are 
fraudulent and, yet, I think this is the perfect way to promote 
that.
    Mr. Lamborn. Okay. Thank you.
    Mr. Manar, doesn't the current system allow for a 
retroactive payment to be made back to the time that the claim 
is filed which, although not completely, alleviating the 
hardship of the long waiting periods, but at least doesn't that 
make up for some of the hardship?
    Mr. Manar. Absolutely. If a claim is filed within a year of 
discharge, the initial evaluations will almost always go back 
to the day after discharge from service. There are occasions 
when a disability does not appear in service, but it is a 
presumptive condition and appears within the presumption 
period, usually a year after service, where the effective date 
might be less than the full retroactive period because benefits 
would be awarded from the date that the disability was first 
diagnosed or first appeared which would be sometime after 
discharge. But generally speaking it is always back to either 
the date of claim or if it is filed within the first year, the 
day after discharge from service.
    Mr. Lamborn. Okay. Thank you.
    Mr. Blake. Mr. Lamborn, I would also remind the 
Subcommittee that just, I believe, two years ago, Congress 
enacted legislation recognizing that there is a significant 
financial burden placed on particularly the new OIF and OEF 
veterans and for the severely disabled enacted legislation that 
provides an additional monetary benefit, at least for the most 
severely injured, to offset their hardships that they 
experience.
    Now, that does not necessarily address the problems of 
veterans with lesser disability. I think we all recognize the 
problem, but the solutions are not as simple as what appears to 
be here in black and white.
    Mr. Lamborn. Thank you.
    And my last question, Mr. LeValley----
    Mr. LeValley. Yes, sir.
    Mr. Lamborn. --in your experience, could properly trained 
State and municipal government Veteran Service Officers also 
fully develop claims if they had full access to the veteran's 
records?
    Mr. LeValley. Well, I believe so, sir. That is their job is 
to assist veterans in filing claims. I have been doing this for 
18 years. Most of us develop the claim to the best of our 
ability in the short period of time we have. We sit across the 
desk from a veteran every day.
    I may see six veterans today. I may see a dozen and a half 
tomorrow assisting them in their claims. We gather the medical 
evidence to the best of our ability from the local doctors and 
hospitals. It is submitted to the VA. And our intent with this 
legislation, and we have been talking about the backlog and 
development of these claims for several years, as the VA is 
reviewing the claim, if they find something in there that maybe 
we did not provide or they see something else that they need, 
it would be quicker for us to be able to go get this evidence 
by going through the power of attorney to us, to the veteran to 
us and let us get with the veteran and go to that doctor or to 
that hospital to get that evidence to get it to the VA instead 
of sending out another release to the veteran to sign, to send 
back to the VA, to send to the doctor or the hospital and get 
the information back.
    We can provide that information quicker. State and County 
Veteran Service Officers, there are some municipal service--as 
long as they are trained, accredited, and meet the requirements 
of the VA to do this, yes, I do not see why they could not do 
that.
    Mr. Lamborn. Okay. Thank you.
    And, Mr. Chairman, I yield back.
    Mr. Hall. Thank you, Mr. Lamborn.
    It is interesting because we are all here looking for the 
same result and, as we have heard, opinions differ about how to 
get there, but that is why we are having hearings.
    The Chair will now recognize Congressman Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    Mr. Hall. Your microphone is not working either.
    Mr. Hare. How about that?
    Mr. Hall. No. We will do some work on the sound system 
before the next hearing.
    Mr. Hare. How about this one?
    Mr. Hall. No.
    Mr. Hare. How about this? Thank you, Mr. Chairman.
    Let me just say first of all before I ask a question, I 
want to ask it of the whole panel, I really commend all of you 
and the organizations for what you do to help our veterans out.
    Let me just grab my note though. I believe I am 
paraphrasing Mr. Manar when he said that this problem took 
years to develop and is going to take years to solve.
    I would suggest that I do not know that we have years for a 
lot of folks. As you probably heard before, we have a lot of 
veterans that are dying before they get the help that they were 
entitled. And that is very troublesome to me.
    And I know we all, as the Chairman said, want to solve this 
problem as quickly as we can. And just from a matter of 
fairness to our veterans, and maybe this is for just everybody 
here, and it is too bad we only have 5 minutes to talk about 
this, shouldn't the burden really be on the VA?
    I mean, the presumption when we say that this is going to 
lead to more fraudulent claims is saying that we perhaps do not 
trust our veterans to do the right thing when, in essence, I 
know that every Federal program there are people that will try 
to take advantage of something, but when you look at the 
sacrifices these men and women have made, it would seem to me 
that legislation that we enact, we want to get these claims 
processed as quickly as we can and get those folks the help 
that they so desperately need. Shouldn't the burden of proof be 
on the VA and are we maybe looking at this that the passage of 
these bills may lead to more fraudulent claims being filed? And 
while that may happen, I do not know that it will or would not, 
you know, if we do not do this, what are we going to do to 
alleviate this backlog that has taken years to develop because 
for many of our veterans, with all due respect, they do not 
have years left to solve it?
    I would be interested in your perspective why shouldn't we 
expect the Department of Veterans Affairs to play a larger role 
in this and the veterans are having enough problems as it is?
    And I am not one that subscribes to the fact, with all due 
respect, Mr. Blake, that this legislation will cause more 
people to try to pick up a quick buck. I trust our veterans to 
do what is right. Now, granted, not everybody on this planet is 
honest, I understand. But, you know, I think we want more 
people if they have claims to not be discouraged and to file 
them.
    So I would be interested to get from the panel your 
perspective on shouldn't we err on the side of the veterans and 
not so much be worried about what the VA thinks or does not 
think?
    Mr. Manar. Sir, since you started off by mentioning some of 
my testimony, I would like to address some of these issues.
    First of all, the idea that the veterans are waiting years 
and years and years for decisions from the VA is flatly 
erroneous. The initial decision on average on an original claim 
we are told is about 6 months. They have a decision. They may 
be unsatisfied with certain parts of the decision and so they 
appeal, but they have a decision.
    In fact, the routine case that gets all the way to the 
Board of Veterans Appeals may have four, five, six, or ten 
decisions along the way from a qualified rating specialist 
looking at them before it gets to the Board of Veterans 
Appeals.
    Mr. Hare. Well, reclaiming my time for just a second, does 
that appeal then if they are denied--I mean, as I said earlier, 
I was at a Marine Corps League and I heard a lot of the people 
there saying this takes two to 3 years to get through this 
process. And I mean, that sounds to me like it is more than 
just a few months.
    Mr. Manar. It does take a long time to get through the 
process if you are appealing decisions. Many veterans who 
receive decisions from the VA who walk away at that point, feel 
either fully satisfied or accepting at least of what the VA 
decisions are.
    Many others appeal, as we know, and the appeal process can 
take quite a long time. Unlike the civilian appellate process, 
veterans can submit and continue submitting evidence throughout 
the entire process. New examinations are requested either by 
the claimant or the appellant or by the VA. Medical opinions 
are solicited. There are lots of additional development that 
takes place through the entire process.
    This is what extends the delays in all of this. Why is a 
case remanded? Because either the VA did not dot all the 
``I's'' and cross all the ``T's'' of development or the 
veterans alleges there is an additional piece of evidence out 
there.
    The system that Congress created bends over backward in 
favor of veterans. But a lot of people do not understand just 
how complex and complicated it is because of this very nature. 
The appeals process does not finally end until either the 120-
day period after a board decision passes and the veteran can no 
longer appeal to the Court of Appeals for Veterans Claims.
    The burden, shifting the burden to the government. Right 
now the standard of proof that a veterans has to provide in 
order to win his case to get service connection or increased 
evaluation is not a preponderance of the evidence. It is a 
balance of the evidence. The evidence has to be in relative 
equipoise. The tie goes to the runner as a judge said in a 
decision early in the history of the Court of Appeals for 
Veterans Claims. So the burden already is a lot lessened on 
veterans than it would be if they were suing in a court of law.
    There are other things here, but I should let my fellow 
panelists take some of the time.
    Mr. Hall. There is no more time. But thank you all. We are 
going to actually allow Congressman Rodriguez to have 5 minutes 
before we let you go.
    Congressman Rodriguez.
    Mr. Rodriguez. Thank you very much. And is this on?
    Mr. Hall. That does not work either. After we get the 
backlog reduced, we will get our microphones fixed.
    Mr. Rodriguez. Thank you very much.
    I just went through my district, and had some meetings with 
veterans in Fort Stockton, and San Antonio and everywhere I go, 
I not only sense, but I hear the frustration.
    Mr. Manar, I heard you say that the system was, and correct 
me I do not want to misquote you, but I thought you said that 
the system was basically sound; is that correct?
    Mr. Manar. I said the underlying system is sound. If I may 
have a moment. I worked for the Veterans Administration, the 
Department of Veterans Affairs from 1974 to 2004. When I 
started in 1974, I believe that there were 19 or 20,000 
employees in what is now the Veterans Benefits Administration 
handling claims in the Regional Office.
    I am not sure of the exact number today, but I believe it 
is around 14,000. We are looking at five or six thousand fewer 
employees when the workload, to the best of my knowledge, has 
never been higher.
    Mr. Rodriguez. So we have come down on the number. And what 
about the claims in terms of the fact that we might not have 
the qualified staff and then we continue to send to people that 
are not doing a good job or not doing the job? Do you just feel 
that we just increase the number of staff that that will 
correct itself?
    Mr. Manar. When I said that is has taken years for VA to 
get into this position, it is going to take years to get out, 
what the rest of my testimony was except for time limitations 
would have been is that the Congress and the various 
administrations for the last 20 years, Republican and Democrat, 
it does not matter, have effectively held down the budget for 
the VA.
    Mr. Rodriguez. Yes. And I agree.
    Mr. Manar. And as a consequence, the staffing in the 
Regional Offices fell over many years. Now, it has been growing 
in the last 6 years. We certainly have to give the Congresses 
before us, before this one and the current Administration kudos 
for increasing the VA budget effectively each year.
    But more than that, it is not enough because we are playing 
catch-up. What the VA needs to do is to get additional staffing 
in place to----
    Mr. Rodriguez. And I agree totally with what you said, but 
I spent 8 years on this Committee and I left, I came back. 
Things are worse.
    Mr. Manar. Yes, they are.
    Mr. Rodriguez. And, at this point in time, just like they 
are, we are fed up. And so somehow we have to jumpstart the 
thing. And if it requires some of those efforts at educating, 
and nothing was more frustrating than to hear people out there 
telling and sending out letters from the previous Secretary 
Principi where the Vietnam veterans had to sue, and not to 
educate veterans about the benefits and services that are out 
there. I mean, I do not know who in his right mind does that 
kind of stuff.
    And so the only thing I see is that we have to jumpstart 
this thing and unless we pressure, you know, I do not see any 
other way; otherwise, it will be 8 years, and I will not be 
here that long for sure, and we will be still talking about the 
same thing.
    Mr. Manar. I do not believe that we will be talking about 
the same things in four, five, or 6 years. Right now there are 
a lot of people being trained, that have been hired in the last 
couple of years that are being trained. It takes years to 
effectively train these rating specialists and claims 
examiners. But a lot of people are in the pipeline and they are 
beginning to be effective in their positions.
    What the VA needs to do on its own is to do its very best 
to retain the more senior staff that it has. They have done 
some of this by bringing some back as rehired annuitants, but 
they need to keep the people they have however they can do it 
and focus on this.
    Any quick fix in our view, any quick fix that Congress 
proposes here will either create additional backlogs, 
bottlenecks in other places, or essentially break this program 
which until very recently has been----
    Mr. Rodriguez. You do not see that as a jumpstart in terms 
of assistance, because I see that right now the system has the 
backlog, they need a jumpstart, and they need all the help they 
can get from outside groups, including maybe the possibility of 
getting all the veterans' organizations from the VFW through 
the American Legions to possibly participate in those programs 
in terms of providing that information and that access to some 
of our veterans out there, especially those areas that are 
rural and I have probably one of the districts that is the most 
rural and one of the biggest in the country, that a lot of my 
veterans do not have access to.
    And I notice that I ran out of time. Thank you.
    Mr. Blake. Mr. Rodriguez, if I may real quick, I would just 
say that I do not see the last two bills in particular as 
jumpstarting the fix for the problem of VBA. It certainly 
addresses the frustrations and concerns of the veterans and 
trying to meet their needs. But it does not in any way begin to 
address the actual problems that exist within the systemic 
structure, the culture of VBA itself. We are just providing a 
benefit to veterans to appease veterans without actually fixing 
the problem. So we just continue to let this problem, the 
problem itself with VBA go on and on and on with this band-aid 
that is now on a sucking chest wound holding this problem back 
until at such time we decide to create another quick fix.
    Mr. Hall. Thank you, Congressman.
    And thank you to our panel.
    I would just say before you go that we may be seeing only a 
small part of the picture at home. I know that I just recently 
had a veteran in my district come to our office with a 
diagnosis that was originally done in 2002 for, he is a Vietnam 
vet, prostate cancer diagnosed in 2002.
    He fortunately had, he and his wife had, the financial 
resources to undergo chemo and radiation and whatever treatment 
was necessary, but it was not until last month that--
fortunately I am blessed with a caseworker who got on the stick 
and he had already been doing all these things and trying, you 
know, not an unintelligent man, and he and his wife had been 
trying to work the system.
    I do not know all the details of the story except that 
within a few weeks of our office getting involved, we got him 
$19,000 of back compensation and quadrupled his monthly living 
subsidy. So maybe that is just a rare example.
    But I am hearing, as are a number of other Members, I am 
hearing from people who contend that it is more widespread and 
that that sort of delay, however we do it, I mean, maybe some 
of this legislation is well intentioned and misguided, but I 
think that there is a strong feeling on the Subcommittee and I 
think the full Committee as well that we want to try to do 
something so it is not going to be years to get out of this 
six-digit backlog.
    And I also think we are just beginning to see the leading 
edge of the OIF/OEF returnees and they have not yet en masse 
left DoD and entered the purview of the VA. And when that 
happens, I think we better be ready for it.
    So thank you again, all of you, and we really appreciate 
your testimony and your work and service on behalf of our 
veterans. Thank you for your testimony.
    And we will call our third panel, Mr. Ronald R. Aument, 
Deputy Under Secretary for Benefits of the Department of 
Veterans Affairs, and Deputy General Counsel, John H. Thompson, 
from the Department of Veterans Affairs. Thank you both for 
joining us.
    Mr. Aument, do I have the correct pronunciation of your 
name?
    Mr. Aument. Yes.
    Mr. Hall. Okay. Well, in that case, you are first.
    Mr. Aument. Is this on?
    Mr. Hall. Would you like to start us off, please.

   STATEMENT OF RONALD R. AUMENT, DEPUTY UNDER SECRETARY FOR 
BENEFITS, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
   VETERANS AFFAIRS; ACCOMPANIED BY JOHN H. THOMPSON, DEPUTY 
          COUNSEL, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Aument. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Lamborn, and Members of the 
Subcommittee, thank you for the opportunity to testify on the 
four bills under consideration today.
    I am pleased to be accompanied today by Mr. Jack Thompson, 
Deputy General Counsel for VA.
    House Resolution 67, the ``Veterans Outreach Improvement 
Act of 2007,'' would authorize VA to make grants to State 
veterans' agencies for the purposes of carrying out and 
improving VA benefits, outreach, and assistance.
    Although VA supports the goal of improving outreach, we 
believe that in light of legislative changes made by the 
Congress last year and recent VA initiated changes in outreach 
coordination, Congress should allow VA to implement and assess 
these changes before taking additional measures.
    We also believe that while this legislation is well 
intended, the requirement to condition grants to State 
veterans' agencies in locations with large or growing veterans' 
populations would not provide VA sufficient flexibility to 
reach other deserving veterans' populations such as in rural or 
smaller communities where we are less well represented.
    We understand the impatience and frustrations of the 
Congress with our inability to make more rapid improvements in 
claims processing timeliness. However, we do not believe that 
the other three bills, House Resolution 1435, House Resolution 
1444, and House Resolution 1490, accomplish their intended 
purposes of improving decision timeliness. In fact, these bills 
could result in unintended consequences that would have the 
opposite effect on our system.
    While we attempted to cost each of these bills in good 
faith, we had difficulty in developing valid and reliable cost 
estimates because of the uncertainty of some of the provisions.
    House Resolution 1435, the ``Department of Veterans Affairs 
Claims Backlog Reduction Act of 2007,'' would require VA to 
conduct a 3-year pilot program in California, Florida, Ohio, 
South Carolina, and Texas. Claims identified by VA as needing 
further development would be referred to a County Veteran 
Service Officer for further development and transmitted back to 
VA in ready to rate condition.
    As you are aware, veteran service representatives at the 
county, State, and national levels today perform a vital role 
in assisting veterans in preparing and submitting their claims. 
In fact, developing evidence to the point that claims are ready 
to be rated by VA is already one of the main responsibilities 
of these claims representatives. However, we believe this bill 
goes too far in turning county representatives into paid agents 
of VA.
    We are also concerned that the pilot program may adversely 
affect VBA's workload. Currently nearly 20 percent of VBA's 
adjudication workload is from the five States chosen in the 
bill to participate in the pilot program. If unforeseen 
problems arise during the course of the pilot programs, claims 
processing could be significantly disrupted.
    We are also concerned that the bill may conflict with 
representation agreements entered into between claimants and 
their duly appointed claims representatives including 
attorneys, agents, or Veteran Service Organization 
representatives.
    House Resolution 1444 would require VA to pay an interim 
benefit of $500 per month if a claim for benefits has been 
remanded by the U.S. Court of Appeals for Veterans Claims or 
the Board of Veterans Appeals if VA does not decide the matter 
within 180 days of the date of the remand.
    House Resolution 1444's requirement that VA pay interim 
benefits and allow claimants to keep them regardless of whether 
they are ultimately found to be entitled to the amounts already 
paid would create a strong financial inducement to making the 
development time last as long as possible.
    We believe this bill would also create an incentive to 
submit claims of dubious merit, obtain a remand and extend the 
claim development process by piecemeal submission of evidence 
and multiple requests for extension of deadlines to maximize 
the amount of interim benefits payable. It is unlikely to 
improve the adjudication timeliness because it does not 
alleviate the causes of adjudication delay.
    House Resolution 1490 would require VA to presume that a 
claimant presenting a claim for benefits with respect to 
service-connected disability or death has presented a valid 
claim of service connectedness provided that the claimant 
supports the claim with proof of service in a conflict and a 
description of the nature of the disability, including the 
connection to a veteran's service.
    House Resolution 1490 would also require VA immediately 
upon processing the claim to award benefits at a median level 
for the type of disability described in the claim until 
appropriate level of benefits is determined. VA would audit a 
percentage of claims to uncover and deter fraud.
    While VA supports getting benefits into the hands of 
deserving claimants as soon as possible, we are concerned that 
the presumption of service connection creates an incentive to 
file invalid claims, especially when benefits would be paid 
without appropriate development.
    If the intent is for VA to presume any current disability 
of service connection based upon a veteran's statement without 
any supporting documentation or verification, then the system 
would be ripe for fraud or abuse. The potential for increased 
benefit cost is enormous.
    In addition, this bill would have major consequences for 
the veterans' healthcare system. Any veterans whose disability 
compensation claim is presumed valid and who is awarded a 
median rating under this provision would be eligible for VA 
healthcare. Subject to the existence of an employment handicap, 
veterans awarded compensation under the provisions of this bill 
may also become eligible for vocational rehabilitation and 
employment benefits.
    This concludes my statement, Mr. Chairman. I would be happy 
to entertain any questions from you or the other Members of the 
Subcommittee.
    [The statement of Mr. Aument appears on p. 66.]
    Mr. Hall. Thank you, sir.
    I guess my question would be if you were sitting on this 
side of the table what your suggestion would be. I understand 
the concerns that you have, that the VA has, and I presume, Mr. 
Thompson, you share them.
    But, you know, we are looking at whether we need to just 
hire X number more processors or what is the answer here to 
bringing this number down, because I think there is a consensus 
in the House and on this Committee and the public that these 
numbers are unacceptable?
    I talk to people, not just veterans and their families, but 
citizens of my district who have been hearing about this and 
reading about it in the paper and they have become aware of the 
degree of delay that seems to be systemic right now. They feel 
that it is not fair and that it is not what our veterans 
deserve. So if not this, what?
    Mr. Aument. Well, I believe the central and key strategy 
that we are looking at, Mr. Chairman, is developing sufficient 
rating capacity to manage the workload that we have today and 
what we predict for tomorrow.
    The Congress has been, I believe, very supportive and 
generous in that regard. As of January 2007 compared to the 
January of the year before, we had added 580 additional staff. 
And between March and the end of June, we plan on adding 400 
more staff to our claims processing staff.
    We believe that is the central answer to being able to 
provide timely determinations on VA disability claims. Of 
course it does require that they be well trained and we do not 
do that in a matter of weeks or months. It takes roughly two to 
three years to train a claims processor to a journeyman level.
    But we have invested substantial resources in developing 
those training programs and we believe that is the central 
answer to the question.
    Mr. Hall. Thank you for that answer.
    And I wanted to ask you for your comment on PVA's 
testimony. In their written testimony they talk about the 
prestabilization rating, 38 CFR, 4.28. Can you explain or 
define this term and tell us about how often it is used by the 
VA?
    Mr. Aument. Yes, I can, sir.
    The prestabilization rating is meant, as I believe was 
pretty well described here, to apply to those veterans who come 
to us seeking compensation, who have disabilities that have not 
yet fully stabilized or not yet fully healed.
    Today we use that in practice quite often as we are working 
with the severely injured servicemembers when we are doing the 
case management work for those that are coming through Walter 
Reed and the other military treatment facilities to be able to 
make sure that we have a rating in place for them as of the day 
that they are discharged from the military services.
    In that instance, we are able to provide some sort of 
rating that addresses their primary, most noticeable 
disabilities while we go through further development for those 
additional disabilities that they may be claiming subsequent to 
their release from military service.
    In my view, it is an authority we have under-utilized. If 
we are looking backward over the past year, we see that we 
probably applied that principal fewer than 500 times. We have 
been looking carefully at that and we plan to do some training 
to try and encourage greater use of that authority throughout 
the field.
    Mr. Hall. Thank you.
    I recognize Ranking Member Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And, Mr. Aument, although I share your sense that some of 
this legislation has some flaws, I also want to say I share the 
frustration of my colleagues on the panel here that this 
backlog is too large and it is even building. The numbers I 
just have seen today show that it is now up to 647,00 and that 
has grown since the last report.
    And I know you addressed this with the Chairman's question 
of a moment ago, but what else can you tell us specifically 
that you are doing including dates and time lines and goals?
    You say that we are hiring more people. That is good. But 
beyond that, what are we doing and then what specifics do you 
have in place. What matrix are there so that we can see that 
this is working?
    Mr. Aument. Some of those steps that we have taken, 
Congressman Lamborn, include increasing the amount of overtime 
money that we have for fiscal 2007. We shifted resources to add 
$4 million overtime funding and we have been giving Regional 
Offices a green light as to how they use that work.
    We have brought on some rehired annuitants as was suggested 
here at the table in the previous panel. We have hired between 
50 and 100 rehired annuitants and we have open offers out in 
the field to bring those individuals back in to help augment 
our rating capacity.
    We have put in place some steps to try and encourage 
stations to exercise and encourage veterans to waive certain 
types of due process, reporting requirements, when we believe 
it is unlikely they will produce additional evidence.
    We have even encouraged some of our claims developers to 
use telephone waiver procedures, to ask veterans who have no 
additional information to offer us if we could proceed to 
finalize the claim.
    We have been working very carefully with the Veterans 
Health Administration to increase the use of templated 
compensation and pension exam processes.
    We found that, if we ask them to use the templates that we 
have worked very hard over the last 2 years to develop, we are 
going to receive higher quality medical exams, requiring us to 
go back for repeat medical exams less frequently.
    We have been working with the Reserve components and the 
National Guard to put in place more effective agreements to 
give us more rapid access to the medical records, particularly 
of National Guard and Reservists. We have a better track record 
of getting that type of information directly from the active 
military services, but we know we have to work much harder with 
the Guard and Reserve components.
    We have also put in place certain types of resource centers 
that serve as safety nets, if you will, for some of our more 
challenged stations that are experiencing extreme workload 
problems where we cannot staff up quickly enough to help in 
that location.
    We have two Regional Offices that we call Development 
Resource Centers to assist some stations with particular 
backlogs and in developing claims. We have in place nine 
resource centers throughout the system to help in rating 
backlog work.
    We have also been trying to work together closely with the 
Department's CIO now that some of the responsibility for IT 
development has shifted, you know, to the Department's CIO, 
trying to put together some placeholders on investments and 
future IT investments that are going to result in enhanced 
productivity and shorten cycle times for veterans' claims.
    Mr. Lamborn. Okay. Thank you.
    And those are some good things and I am glad to hear that. 
But to be even more specific on your goal to reduce the 180-day 
current average to 125 days, how long is it going to take us to 
get there?
    Mr. Aument. Well, you are probably aware that our 2008 
budget includes our projection of bringing down the average 
processing time to 145 days. We have not budgeted beyond 2008, 
but I would say it is going to be at least another year beyond 
2008 before we could be approaching that strategic goal of 125 
days.
    Mr. Lamborn. Thank you.
    Mr. Hall. Thank you, Mr. Lamborn.
    Mr. Hare.
    Mr. Hare. Just a quick question or two.
    You were saying it takes two to 3 years to train the claims 
people to get them up to speed. So in that interim you have 
more and more people filing for disability and their workload 
gets more backed up as you go.
    In a perfect world, to solve this problem or to get it up 
to speed in terms of the claims people which you said, in your 
testimony, I believe, you thought that would be the key thing 
to fix this.
    How many people does the VA need? How many claims people do 
we need to get this done and since it takes that long to get 
them up to speed and train them, what do we do in the interim, 
in that 2- or 3-year period because it seems to me with the two 
theaters that we have going now this is going to get a lot 
worse before it is ever going to get better? We are going to 
get a lot more people into the system.
    So how many people do we really need if, on your Christmas 
list, you can say to Congress this is what we need and what do 
we do in the meantime during that 2- and 3-year period of time 
to be able to help?
    I said to the panel before and I meant this in a very nice 
way, I did not mean to imply that, they do not trust our 
veterans, but it seems to me that after somebody gives every 
measure that they have, you know, I am a veteran myself, but, 
again, going back to the people in my district and the vets I 
talk to, they keep saying why is the proof on us, I mean, why 
do we have to go jump through all the hoops, I mean, we are the 
ones that gave everything we had for this country and now we 
are backlogged up here.
    So I am just interested from your perspective on two 
things. How many people do we really need to solve this problem 
because the numbers are going to get bigger and what do we do 
in the interim?
    Mr. Aument. I am happy to speak to that, Congressman.
    I believe that the budget that we have requested for 2008, 
which includes around 450 additional claims processors over and 
above the staffing figure for fiscal 2007, when these 
individuals were fully trained, represents a work force 
sufficient for us to address both pending and projected 
workload.
    Now, the dilemma is that we do not bring them on instantly 
and make them fully productive. And that is part of the reason 
why we are over-hiring right now. We are going to be supported 
resource-wise by the Department to over-hire this fiscal year 
to try and get jumpstarted so that, even though they will not 
be fully trained, we will not be bringing on a totally new 
staff in the next fiscal year. So I believe that that is 
probably a good figure once those people are fully productive.
    As to the other issue of what are we doing in the interim, 
I do believe, as you suggested, we have got to be looking for 
challenging alternatives.
    I think, though, that the issue of just paying the claims 
as they come in with a presumption that they are service 
connected is fraught with a lot of problems. I have heard a lot 
of discussion about fraud and I do not really believe that 
fraud is the key issue here at all.
    I mean, it is my belief that most veterans who bring a 
claim to us file that claim in good faith and that there are a 
number of issues there without fraudulent intent, that the idea 
of actually establishing entitlement is a very difficult thing 
to accomplish in all instances.
    We have heard the figures thrown out that we approve 88 
percent of the claims we receive. That is looking at a very 
limited window of cases. Those numbers were extracted from some 
of the statistics we reported on the Global War on Terrorism, 
veterans whose claims we have processed since 2001.
    As was suggested here, that does not mean that everything 
that they claimed was approved. That only means that at least 
something within each of those veteran's claims was awarded 
positively on behalf of the veteran.
    And, again, today the average veteran coming through our 
benefits delivery at discharge program, new veterans coming 
into the system are claiming on average ten disabilities per 
claim. And the approval rate is nowhere near that.
    So there are many of them that believe they have 
disabilities that are being claimed in good faith, not 
fraudulently, but service-connection will not be ultimately 
established.
    Mr. Hare. I was just glad to hear your comment about your 
belief that most veterans, the vast numbers of veterans that 
file for disability, are filing with the best of intent and 
that they truly believe that they have a claim. So I am glad to 
hear you say that.
    Thank you.
    Mr. Hall. Thank you, gentlemen, for taking your time and 
being so patient. Thank you to everybody who came here. Thanks 
to the Members of the Committee, Mr. Lamborn, Mr. Hare, Mr. 
Rodriguez, and our wonderful staff, and this hearing is now 
adjourned.
    [Whereupon, at 2:47 p.m., the Subcommittee was adjourned.]











                            A P P E N D I X

                              ----------                              

      Prepared Statement of the Honorable John J. Hall, Chairman,
       Subcommittee on Disability Assistance and Memorial Affairs
    As most know, there are problems with the VA claims process. And, I 
want to say at the onset that some of the problems associated with the 
process are beyond the control of the VA and the product of our on-
going wars in Iraq and Afghanistan.
    Having said that, I must acknowledge that there is a growing claims 
backlog that has gone from 465,623 in 2004 to 525,270 in 2005 to 
604,380 in 2006 to 647,857 in 2007. Not surprisingly, this backlog has 
resulted in increased waiting periods for claims to be processed. At 
last count, the VA took an average of 177 days to process an original 
claim and an average of 657 days to process an appeal.
    Just last week, the Washington Post printed an article entitled 
Delayed Benefits Frustrate Veterans, which I will be submitting for the 
record, detailing instances of veterans who literally have died while 
waiting for their claims to be processed.
    To me, this is evidence of a broken system. Whether you are one of 
the few remaining WW I veterans or recently back from OIF/OEF, you 
should not have to suffer through extended waiting periods to receive 
the benefits you earned by serving our country.
    I view today's hearing as an initial step in improving the VA 
claims process. In the first panel, we will hear from Members 
testifying about their individual bills. Next, we will hear from VSOs 
and practitioners in the field about how these bills might work in 
practice. Finally, we will receive the opinions from the VA about their 
views on the legislation before us today. I look forward to having a 
constructive conversation with all of our witnesses.
    Before the first panel starts, I want to take a few moments to talk 
about H.R. 1444, a bill that I introduced and which is under 
consideration at today's hearing.
    H.R. 1444, in its simplest terms, requires VA to provide a monthly 
stipend to certain veterans who have to wait longer than 180 days for a 
decision from the VA on a remanded claim.
    To be more precise, if a veterans' benefits appeal is remanded by 
the U.S. Court of Appeals for Veterans Claims or the Board of Veterans 
Appeals and a decision is not made within 180 days of the remand, the 
VA will pay the veteran a monthly stipend until a decision is made. 
This stipend will be $500 per month for each person under the claim.
    If a final decision is favorable, the amount paid will be 
considered part of the back payment due the veteran. If a decision is 
unfavorable, the interim benefits shall not be considered an 
overpayment of benefits.
    Of course, I understand that there may be disagreements with this 
bill; however, I believe that the principles behind it, creating 
benchmarks, are sound and will go a long way in improving claims 
processing.
    I believe that as the veterans population continues to age and 
disabled veterans return home from Iraq and Afghanistan, we must look 
for solutions that go beyond merely adding more claims representatives.
    I look forward to hearing what others have to say about H.R. 1444 
and the other 3 bills before this Subcommittee.

                                 <F-dash>
 Prepared Statement of the Honorable Doug Lamborn, Ranking Republican 
   Member, Subcommittee on Disability Assistance and Memorial Affairs
    Thank you Mr. Chairman for recognizing me, and for holding this 
hearing.
    I am here today to learn about the legislation before us. I look 
forward to hearing from our witnesses and my colleagues in the 
Subcommittee.
    Our first bill, H.R. 67, the Veterans Outreach Improvement Act of 
2007 has my full support.
    One of the most persistent challenges we face is communicating to 
veterans and their families the existence of benefits they may have 
earned.
    This bill funds outreach by state and local governments, which have 
proven capable incubators for effective public policy. Perhaps some of 
their innovations could be useful at the Federal level.
    This legislation also sends VA a signal that Congress expects 
strong and effective outreach to our veterans.
    Our second bill, H.R. 1435, the Department of Veterans Affairs 
Claims Reduction Act of 2007, could make a big difference in reducing 
claims backlog.
    This bill would fund a pilot program to allow properly trained 
county veteran service officers to develop claims. This 
intergovernmental partnering could speed up the adjudication process, 
improve accuracy and enhance the linkages between governmental layers 
as they serve veterans.
    I believe this is good policy. In fact, Mr. Chairman, I would 
support including in this pilot state and municipal veteran service 
officers.
    To ensure that veterans get quality results, I also suggest that 
service officers are certified by VA.
    This approach has already been tried with considerable success. A 
2002 pilot program between the New York State Division of Veterans 
Affairs and the Buffalo, New York, VA regional office showed that this 
concept could reduce claim development time and improve accuracy; the 
concept is sound.
    Mr. Chairman, I look forward to hearing more about H.R. 1444 and 
1490. I am concerned these bills would create unfortunate and 
unintentional consequences but fail to solve the fundamental problems 
they ostensibly address.
    H.R. 1444 would provide veterans $500 per month if their 
compensation and pension claim was remanded by the U.S Court of Appeals 
for Veterans Claims or by the Board for Veterans Appeals and it has 
been over 180 since the date of the remand.
    There is no recoup mechanism for this money if it is determined the 
veteran does not qualify to receive it.
    H.R. 1490 would give veterans the median amount of compensation for 
a claim based on a brief statement of evidence until their claim has 
been adjudicated. The bill also directs the Secretary to audit a 
percentage of these claims for accuracy and fraud.
    Mr. Chairman, I understand that the intent of these bills is to 
reduce the backlog. It seems to me that both bills are what could be 
called ``frustration legislation,'' written out of sheer and justified 
frustration with a broken system.
    I suggest it is better to concentrate instead on fixing VBA's 
systemic problems within the claims processing system. I believe it is 
within our power, working with VA, to do that without making payments 
to people who may not have earned them and potentially creating an 
incentive for fraud.
    Mr. Chairman, part of the problem is one of access for veterans to 
VA expertise. Some veterans are simply unaware that they may have 
grounds for a claim.
    That is why I am proud to announce that today I introduced H.R. 
1863.
    This bill would require VA to conduct a pilot project that would 
provide mobile claims processing stations that would travel within a 
given VA regional office's area of responsibility, providing veterans 
with outreach, help on their claims, and also collecting feedback for 
use in systemic improvements.
    Today, I also introduced H.R. 1864.
    This is another piece of legislation that could have a significant 
impact on the claims backlog. H.R. 0000 authorizes a pilot program for 
an automated rules-based system that could improve decisionmaking on 
simpler claims issues, freeing up highly trained claims developers and 
adjudicators to work tougher issues.
    The bill authorizes $5 million per year for 4 years for the 
project. It would permit VA to contract for development and implement 
the system in not less than two regional offices.
    Such a system would address the three major flaws in the current 
system: timeliness, consistency, and accuracy. It would not call for 
changing the current rating system, but would make decisions with that 
system more efficient.
    A rating produced in this manner will be less likely to be appealed 
and will thus contribute significantly to reducing the backlog.
    And that, I think, is what all of us here are truly after.
    Mr. Chairman, I yield back.

                                 <F-dash>
Statement of the Honorable Mike McIntyre, a Representative in Congress 
                    from the State of North Carolina
    Chairman Hall, Ranking Member Lamborn, Members of the Subcommittee, 
I am honored and privileged to have the opportunity to testify before 
you today about the Veterans Outreach Improvement Act of 2007, H.R. 67. 
I have been a long-time supporter of our veterans who have selflessly 
served our Nation in the armed forces, and I have introduced this bill 
to provide the assistance that veterans, in my district and yours, need 
and deserve. This bill was written with the help of the National 
Association of Country Veterans Service Officers and enjoys that 
organization's support.
    The Veterans Outreach Improvement Act would address three important 
outreach issues: coordination, local grants, and funding. The bill 
would require the Secretary of the Department of Veterans Affairs to 
establish a plan to coordinate outreach activities throughout the 
department. It would also authorize $25 million annually for 3 years 
that would be used to provide grants to state and local governments for 
outreach purposes. By empowering veterans service offices on the local 
level, we will get more bang for our buck to locate veterans and assist 
them in receiving the benefits they deserve.
Coordination
    The Veterans Outreach Improvement Act would require the Secretary 
of the VA to establish, and annually review, a plan to coordinate 
outreach activities within the Department; specifically among the 
Office of the Secretary, Office of Public Affairs, Veterans Health 
Administration, Veterans Benefit Administration, and National Cemetery 
Administration.
    Currently, different accredited organizations have trouble 
accessing veterans' records. A veterans service office may be unable to 
access a veteran's records if that veteran granted Power of Attorney to 
another organization even if both organizations are accredited by the 
VA. These organizations have begun to establish their own Memorandums 
of Understanding in order to share access to records, but this solution 
is only a temporary patch for a more substantial problem.
    Under this bill, the VA Secretary would create a more fluid system 
that would address the access problem. Increased access to records 
would benefit veterans directly. Veterans should not have to cross any 
additional red tape in order to receive the benefits they have earned.
Outreach Grants
    Many veterans, spouses, and surviving spouses are unaware of 
benefits to which they are entitled through the VA. According to a 
Knight Ridder report, as many as two million poor veterans or their 
widows might not be receiving up to $22 billion annually in pensions to 
which they are entitled. Other estimates suggest that only 30% of 
veterans receive the benefits for which they are eligible. Widows are 
at an even greater risk for not receiving potential benefits. Of the 
survivors of deceased soldiers who could qualify for pension benefits, 
only one out of seven actually receives a monthly check according to 
the VA's own reporting.
    One issue that has received increased attention after the recent 
publicity of the problems at Walter Reed Army Medical Center is the 
need for seamless transition. Unfortunately, too many of our military 
personnel come back from overseas and get lost in the shuffle when they 
leave the Department of Defense health care system and enter the 
Veterans Administration's system. Our nation makes a commitment to care 
for these brave men and women even after they leave the armed services. 
While there are currently increased efforts to improve seamless 
transition, many veterans have already fallen through the cracks. It is 
important that our government reaches out to these veterans to inform 
them of the benefits they have earned through their service.
    There is clearly a need for greater outreach to our Nation's 
veterans. This bill defines outreach as ``the act or process of taking 
steps in a systematic manner to provide information, services, and 
benefits counseling to veterans, and the survivors of veterans, who may 
be eligible to receive benefits under the laws administered by the 
Secretary to ensure that those individuals are fully informed about, 
and assisted in applying for, any benefits and programs under such laws 
for which they may be eligible.'' America's veterans have earned these 
benefits, and it is our responsibility to inform them of what they have 
earned.
    H.R. 67 would establish a program for the VA Secretary to provide 
grants to states for outreach activities, establishing cooperative 
relationships, and assisting in the development of veterans' benefits 
claims. States may award portions to local governments. If no local 
veterans service program is available in a certain community, states 
may use funds from grants to operate in place of a local agency or to 
establish a local veterans service program. Funds from the grants will 
not be used to supplant existing state or local funds and will not 
constitute more than half of the cost of outreach activities for state 
or local governments.
    In order to allocate these grants most efficiently, the Secretary 
would be required to direct assistance to areas with large and growing 
veteran populations. Service organizations in these areas will face 
greater difficulty in reaching out to veterans and helping them obtain 
the benefits which they deserve. Federal funding will be most effective 
in these areas.
Funding
    H.R. 67 authorizes $25 million annually for Fiscal Years 2007, 
2008, and 2009. That sum is one dollar for each veteran in the United 
States. Also, this bill would establish a separate account in the 
Department's budget for the outreach program. This funding would have 
to be re-authorized after 3 years and could be adjusted according to 
the success of the program.
    The bill's funding allocation could be used by state or local 
governments for various purposes, such as establishing education and 
training for state and local government employees for accreditation to 
provide outreach services. Funding from the grants could also be used 
to improve existing offices by hiring additional staff or improving 
their technological capabilities. In addition, these funds could be 
used to purchase advertising space or establish transportation programs 
for veterans to travel to health care facilities.
Conclusion
    The United States makes a commitment to take care of each man and 
woman that serves our country in uniform. Our veterans deserve the 
benefits they have earned, and it is our obligation to make sure they 
know what those benefits are and have assistance in developing their 
claims. These benefits are important not only to our current veterans 
but to those who are entering the armed services today. Ensuring that 
these brave individuals will receive benefits after they leave the 
service will improve recruitment and retention which will enhance 
military readiness.
    Providing resources at the local level will greatly improve 
outreach capability. County Veteran Service Officers are already doing 
great work in outreach and claims development. With more resources and 
better coordination within the VA, they can do even more to assist our 
veterans.
    It is clear that we need to improve outreach to our veterans. That 
is why I encourage this Subcommittee to give the Veterans Outreach 
Improvement Act of 2007 its full consideration, and I look forward to 
working with each of you in furthering the cause of our Nation's 
veterans.

                                 <F-dash>
Statement of the Honorable Joe Baca, a Representative in Congress from 
                        the State of California
    Thank you Chairman Hall, Ranking Member Lamborn and the Members of 
this distinguished Subcommittee for holding this important hearing and 
for giving me the opportunity to come speak on H.R. 1435. This is 
legislation that I introduced earlier this year to help address the 
veterans' claims backlog, which is an issue I have been concerned about 
for many years. While I have carried backlog-related bills in the past, 
H.R. 1435 is new for the 110<SUP>th</SUP> Congress and I am excited to 
talk to you about this bill today.
    As you may already know, there are currently an estimated 600,000 
to 800,000 backlogged claims pending at the Veterans' Administration. 
The average claim currently takes about 6 months to process and the 
average appeal takes almost 2 years!
    What's also important to keep in mind is that the majority of these 
pending claims are for older veterans--many in their sixties and 
seventies, who depend on their veterans benefits to assist them in the 
latter years of their life. These men and women served our country 
honorably in conflicts like Korea and Vietnam and deserve to live the 
rest of their lives with dignity and respect! Instead, many of them are 
spending the last years of their life filling out redundant paperwork, 
calling the Department of Veterans Affairs, and waiting for the 
benefits they deserve. Many of these veterans need medical care for 
conditions like diabetes, post-traumatic stress disorder, and other 
serious medical conditions that can't wait 6-12 months for treatment.
    An article in last week's Washington Post described World War II 
veteran Seymour D. Lewis, a former Army private who waited for the 
mailman at his front door every day for 5 years for a letter from the 
VA about his disability claim. He had lost the hearing in his right ear 
due to a grenade explosion in 1944 and it wasn't until 2001 when he 
started to receive $200 a month from the VA for his disability. He felt 
that he deserved more and appealed his claim. So Seymour Lewis filed an 
appeal and waited for his mailman to bring a response. Unfortunately, 
the response never came. His claim was still pending when he died last 
year at the age of 80.
    This tragedy is not an isolated incident. It is happening all 
across the country. Its shameful and alarming and what's worse is that 
the current backlog figures do not include the hundreds and thousands 
of veterans that will be returning home from Iraq and Afghanistan over 
the next few years. According to a report by the government 
Accountability Office there will be 400,000 new claims by the end of 
2009 alone.
    All of these facts make it clear to me that we need to come up with 
new solutions now. We need a system to eliminate the current backlog 
and expand our existing Federal infrastructure to accommodate the 
638,000 new claims that GAO expects to be filed in the next 5 years 
from the Iraq War alone.
    I am extremely proud of H.R. 1435 because I believe it is a 
creative, common-sense idea that takes a positive step toward reducing 
the backlog. H.R. 1435 is based on legislation I carried in the 
109<SUP>th</SUP> Congress, H.R. 616, the Veterans Claims Backlog 
Reduction Act of 2005. However, H.R. 1435 is a completely new bill that 
incorporates new ideas and addresses some past concerns and I truly 
believe it will make difference in the lives of our veterans.
    H.R. 1435 is a leaner, meaner bill that that has built-in 
accountability, incorporates fiscal discipline, and provides a much-
needed service to our veterans and their families. This legislation 
would establish a 3-year pilot program at the Department of Veterans 
Affairs (VA) to reduce the backlog by partnering with County Veterans 
Service Officers in five states to develop pending claims.
    The five states--California, Florida, Ohio, South Carolina and 
Texas--were picked based on the extent of their County Veterans Service 
Officer networks, the veteran population in those states, and because 
we wanted a good sample of both large and small states in different 
regions of the country.
    Under the pilot program, the VA will be required to identify the 
pending claims in those five states that need further development in 
order to be considered ``ready to be rated.'' The VA will then refer 
those claims and any relevant information to the veteran's nearest 
County Veterans Service Officer (CVSO). The CVSO will then contact the 
veteran or their family and work with them and any veteran service 
organization that has established a power of attorney to fully develop 
the claim. Once the claim is fully developed, it will be returned to 
the VA ready for approval.
    At the end of the pilot, the Secretary will then submit a report to 
Congress that will give an accurate ``before'' and ``after'' snapshot 
of the claims backlog in those states. It will show how many claims 
each state started with, how many are left, and how many were 
successfully processed during the pilot. Congress, the VA, the states, 
and the American public will be able to see in black and white whether 
or not this program was effective.
    If it is successful, the VA will have a proven program that can be 
expanded to other states. If it is unsuccessful, then at least we made 
an honest attempt to address an urgent problem without wasting the 
taxpayers' money.
    We are still waiting on a cost estimate for this pilot from the 
Congressional Budget Office, but because this pilot uses an existing 
network of county employees, the cost to the taxpayers will be 
relatively minimal. The only costs related to this program will be 
administrative. For instance, the VA will have to identify the pending 
claims, transfer them to the CVSOs and then compile a final report at 
the end of the pilot.
    H.R. 1435 is vastly improved to H.R. 616 for many reasons. First, 
it addresses a concern that since County Veterans Service Officers 
aren't available in every state, any nationwide program utilizing CVSOs 
would unfairly punish those veterans who reside in states that don't. 
Most states--37 to be exact--utilize a network of CVSOs to provide the 
majority of its veterans' services, in conjunction with various 
veterans groups. By creating a 3-year pilot in a diverse sample of 
states, we will be able to see if the CVSO system is truly effective 
and thereby provide the remaining 13 states with important information 
on which systems work and which don't.
    Second, H.R. 1435 improves upon H.R. 616 by bringing veterans 
service organizations into the process. We clearly provide language in 
the bill that acknowledges the role of veteran service organizations in 
the claims process and directs the CVSO to work with any VSO with an 
established power of attorney. Our veterans groups play a vital and 
irreplaceable role in the veterans claim process and we welcome any 
assistance and guidance that will enhance the pilot program and help 
the CVSO and VA to quickly and effectively develop the claims.
    Third, H.R. 1435 gives us an opportunity to try a program to see if 
it really works. After all, the goal of this legislation is to create a 
reliable and effective means of reducing our veterans' claims backlog. 
To authorize any Federal program that doesn't actually accomplish this 
goal would not only be useless, but it would be doing our veterans a 
huge disservice. They have already sacrificed enormously for this 
country and have waited too long to receive the benefits they deserve. 
We need a system that works.
    Finally, H.R. 1435 helps to address the argument that the backlog 
isn't just caused by a lack of developed claims. Some argue that the 
part of the problem has to do with a shortage of staff at the VA to 
evaluate the claims once they are submitted. By allowing the County 
Veterans Service Officers to take some of the claims development burden 
off the Department, the VA can then take the next 3 years to hire and 
train more staff to evaluate claims and fight this battle on both 
fronts.
    Deputy VA Undersecretary Robert Aument testified before this 
Subcommittee a month ago and said that the VA plans to add 400 
employees by the end of June. If the backlog problem is really being 
caused by a lack of staff who can evaluate these claims, then let's 
direct this new manpower toward that part of the process. In the 
meantime, why not harness the collective expertise of 2,400 VA-
Accredited County Veterans Service Officers who already assist veterans 
in submitting their claims to work on the development side of the 
equation?
    CVSOs are often so effective at their jobs that many states rely on 
them to provide the bulk of their veterans' claims services. For 
instance, in my home state of California, there are approximately 160 
highly qualified CVSOs while the CA Department of Veterans Affairs 
(CDVA) only has 14 veterans claim representatives. In a recent report 
by the CA Department of Veterans Affairs, it was recommended that the 
best way to improve claims services for veterans in California was to 
increase state funding to CVSOs.
    Once again, I would like to thank Chairman Hall, Ranking Member 
Lamborn and the Members of this Subcommittee for giving me the 
opportunity to speak on this legislation and hope that you will lend 
your support to it. H.R. 1435 is a good common-sense bill and I think 
it will be a good first step toward reducing our backlog and giving our 
veterans the benefits and services they so deserve.
    I would like to thank our veterans who have served our country so 
courageously. I'm sure that I speak for every Member on this panel 
today when I say that we want to make sure our government is doing 
everything it can to provide our men and women in uniform with the best 
resources before, during, and after their service to this country.
    I thank you for this opportunity and would be happy to respond to 
any questions you may have at this time.

                                 <F-dash>
 Statement of the Honorable Joe Donnelly, a Representative in Congress 
                       from the State of Indiana
    Chairman Hall and Ranking Member Lamborn, thank you for calling 
this legislative hearing today, and I thank you for this opportunity to 
speak on the need for new approaches to both address the claims backlog 
and also help America's veterans cope with what is frequently a months-
long process to get the benefits they deserve.
    The problem is well documented. We have a benefits system in place 
that is struggling to keep up with a growing load of disability claims 
cases. Right now, a veteran filing a new claim can expect an almost 6 
month wait until they find out whether their claim is approved by the 
VA. If they appeal the VA's determination, they can expect their case 
to drag on for nearly two more years.
    Unfortunately, this is a problem that is likely to get worse before 
it gets better. As you know, in the Iraq and Afghanistan conflicts, the 
ratio of soldiers wounded to killed is 16 to 1, the highest of any war 
in our nation's history. With so many new and future veterans serving 
in Iraq and Afghanistan, we have a bow wave of new claims we must 
prepare for, in addition to the 180,000 Iraq and Afghanistan veterans 
who have already applied for disability benefits. Harvard University 
professor Linda Bilmes, who testified before this Subcommittee last 
month, estimates that over the next 5 years OEF and OIF veterans could 
file 638,000 new claims for benefits.
    I genuinely believe that the VA is trying to do the best it can 
under the current system. VBA claims workers are dedicated individuals 
who are working hard to see that our veterans are able to get the 
proper service and benefits deserving their service and sacrifice to 
our Nation. I look forward to working with my fellow colleagues on the 
Veterans' Affairs Committee to make sure the VBA has the resources and 
staff in place to provide for accurate and timely claims adjudication. 
I also look forward to working with the VA and the Department of 
Defense to provide for a seamless transition from active duty to 
veteran status.
    However, I also believe we must explore more innovative approaches 
to address the fundamental shortcomings of the current claims process.
    Mr. Chairman, as you know, new veterans often leave the service to 
an uncertain future. Sometimes, just weeks removed from the 
battlefield, they must find a job, a place to live and identify how 
they will get the medical care they need. Many older veterans are on 
fixed incomes. For many disabled veterans, their benefits and 
disability compensation are an important part of their ability to meet 
the needs of their families and make ends meet. It is our veterans who 
pay the price--both emotional and financial--for the long time it takes 
to process a claim.
    I know there are a number of factors to explain in part why claims 
approval times are long and why the backlog has increased. However, I 
believe we must do something to get veterans some assistance on the 
front end while they wait for the VA to make a determination. Just 
explaining the delay doesn't help our veterans pay the bills. We need 
to expedite benefits to help veterans get by while their claims are 
considered.
    Currently, approximately 88 percent of veterans' claims are 
ultimately approved by the VA. This would suggest that the vast 
majority of claims filed by veterans are done so accurately and 
truthfully by men and women who are seeking compensation and benefits 
for very real conditions. I believe that our veterans have earned the 
benefit of the doubt when it comes to their claims on disability 
benefits.
    Congressman Fred Upton and I introduced H.R. 1490 to provide 
veterans the benefit of the doubt when it comes to their claims. Based 
on an idea Professor Bilmes first put forth earlier this year, this 
bill would approve new disability claims up front through an expedited 
process, and direct the VA to audit a percentage of these claims to 
ensure accuracy and to deter and detect fraud. Those claims that have 
already been denied or are currently in the appeal process would not be 
included in this new process.
    Essentially, a veteran who can provide proof of service and minimal 
supporting evidence for their claim would meet with a VA claims worker 
to identify the proper disability and benefit they are filing for. 
Unless the VA or the claims worker determines there is sufficient 
evidence to the contrary, the VA would approve the veteran's claim at a 
median benefit for that type of disability and the veteran would 
immediately become eligible for benefits.
    Benefits awarded through this ``benefit of the doubt'' approach 
could be changed by the VA once a more appropriate level of benefits is 
determined. However, until that happens, veterans would still be able 
to get a benefit for a claim for which they are requesting. H.R. 1490 
would direct the VA to ensure that an adequate number of claims workers 
are assigned to assist in carrying this out.
    The burden of proof would be shifted from the disabled veteran to 
the VA. As Professor Bilmes has pointed out, a similar approach of 
approve and audit is successfully used by the IRS for tax returns and 
by the SEC for filings. There are already models in place.
    By giving our veterans the benefit of the doubt up front and 
providing some kind of disability benefits at the beginning, we would 
also provide an incentive for the government to implement methods to 
reduce the wait time on processing the claims if it is the government 
bearing the cost of delay instead of the veteran.
    Further, by approving more new claims up front, more VBA personnel 
could be freed up to work on reducing the current backlog of claims and 
appeals.
    It is going to take a considerable amount of time to hire and train 
the number of new claims workers who will be needed to deal with the 
continued high rate of new claims as a result of returning veterans 
from OEF and OIF. However, by implementing a benefit of the doubt 
approach up front with veterans, we would get benefits to veterans much 
faster than we currently do.
    We are aware that this is an unorthodox approach. However, it is an 
idea that I feel strongly deserves more consideration by this 
Subcommittee.
    Mr. Chairman, I view H.R. 1490 as a starting point to allow 
Congress the opportunity to consider different approaches to expediting 
benefits for disabled veterans by giving them the benefit of the doubt. 
I know it is not a perfect proposal, but I look forward to continuing 
to work with this Committee, the VA, and veterans service organizations 
to move this idea forward.
    Thank you very much for this chance to address the Subcommittee on 
this very important subject, and I am pleased to answer any questions 
you may have.

                                 <F-dash>
  Statement of the Honorable Fred Upton, a Representative in Congress 
                       from the State of Michigan
    I thank the chairman and Ranking Member for convening today's 
hearing on this very important and pressing issue and for giving Joe 
and I an opportunity to testify on the need for innovative methods to 
solve the VA's disability claims backlog and deliver benefits to 
disabled veterans as quickly and efficiently as possible.
    Recent headlines have brought an unprecedented amount of attention 
to the care given to our brave sons and daughters wounded as a result 
of actions related to the Global War on Terror. The situation at Walter 
Reed Army Medical Center has opened the door to scrutiny of many facets 
of service-member and veteran care in issues ranging from quality of 
care and accommodations in both DoD and VA medical facilities to the 
apparent lack of parity between DoD and VA disability ratings, to the 
unbelievably daunting backlog of pending VA disability claims. It is 
becoming increasingly evident that major reforms must take place in 
many areas in order for care to meet the standards that our veterans 
deserve.
    Among the many issues that need to be remedied, the elephant in the 
room is the enormous backlog of disability claims, which is the subject 
of today's hearing. I was struck by a recent report compiled by Linda 
Bilmes, a faculty Member at Harvard University's John F. Kennedy School 
of government, that detailed an enormous and growing backlog that our 
troops are enduring when seeking disability benefits. The report paints 
a bleak picture of the future if the status quo is maintained.
    The statistics are startling. As of December 9, 2006, the Veteran 
Benefits Administration had a backlog of almost 400,000 claims. As a 
result, the VBA takes an average of 177 days to process an original 
claim and 657 days to process an appeal. This delay deprives many 
veterans of Iraq and Afghanistan of much-needed income at a time in 
their lives when they are not only learning to cope with a disability, 
but also transitioning into civilian life.
    This problem not only needs to be addressed with a deep, systemic 
look at how claims are processed, it needs to be dealt with as swiftly 
as possible. The backlog is expected to grow exponentially as waves of 
troops continue to return from operations in Iraq and Afghanistan. It 
is difficult to predict the exact demand and strain that the newest 
veterans will place on the system, but there is one statistic that is 
particularly alarming. The ratio of soldiers wounded for every soldier 
killed in OIF and OEF is almost 8 to 1, as compared to 2.8 to 1 in 
Vietnam and 2.6 to 1 in Korea. The 8 to 1 ratio is according to DoD 
statistics, which only take into account service-members wounded in 
battle. If VA statistics are used, in which a wounded service-member is 
defined as any soldier who is medically evacuated from theater, than 
that ratio rises to 16 to 1.
    It is easy to recognize the conclusion of the Harvard research: the 
problem is only going to get worse, the backlog is only going to get 
larger, and the amount of time it takes for a veteran to receive 
disability benefits will become increasingly unacceptable.
    The cause of the backlog does not lie in apathy or incompetence of 
VA workers. In fact, I believe that just the opposite is true. Many VA 
workers are veterans themselves, and I believe all of them to be true 
patriots who want to help vets in any way they can. I have heard more 
than one story about claims processors working through the weekend in 
order to resolve their caseloads. It is obvious that the VA's manpower 
is stretched to the limit, and I believe it is imperative that congress 
works to ensure that they have the resources and manpower in place to 
quickly and accurately process claims.
    While adding staff and resources will go a long way to addressing 
the backlog, I believe that an innovative approach is needed to truly 
address the problems inherent in the current system.
    Congressman Donnelly and I have introduced a bill, H.R. 1490, that 
approaches the problem from a unique angle. Based on an idea put forth 
in the Harvard report, HR 1490 will provide the veteran with the 
benefit of the doubt by directing the VA to approve new claims up front 
through an expedited process, and allowing the VA to reach back and 
audit a percentage of them to detect and deter fraud. According to VA 
statistics, close to 90% of these claims are approved under the current 
system.
    Veterans would simply need to prove their service and provide 
minimal supporting evidence for their claim. They would provide that 
information to a VA claims worker to identify the proper disability and 
appropriate benefit. Unless the claims worker determines that the 
original information is not sufficient, the veteran is allotted the 
median level of benefit for that type of disability. Their claim will 
then be reviewed by the VA, and when it is resolved, the veteran will 
receive a permanent rating and the benefit amount appropriate to it. 
The initial ``median-level'' benefit simply gives disabled veterans 
some money right out of the gate so they can better deal with their 
transition.
    This bill essentially shifts the burden of proof from the veteran 
to the government. This method is not unlike the one used by the IRS 
and other government agencies with large caseloads.
    Mr. Chairman, we must think outside the box when confronting a 
problem of this magnitude. We must do what is necessary on behalf of 
those who have sacrificed for our country.
    I believe that HR 1490 is a good starting point in the legislative 
conversation revolving around the benefits backlog. I am aware that 
this proposal is not perfect, but I look forward to working with Joe 
and my other friends and colleagues on the Veterans Affairs Committee 
in moving this idea forward and finding a solution to ensure that our 
courageous servicemen and women seeking disability benefits receive 
prompt attention.
    Thank you once again for allowing me the opportunity to testify on 
this very important issue. I am pleased to answer any questions you 
might have.April 17, 2007, F. Douglas LeValley, Past-President, 
National Association of County Veterans Service Officers

                                 <F-dash>
Statement of F. Douglas LeValley, Past-President, National Association 
                  of County Veterans Service Officers
Introduction
    Chairman Hall, Members of the Subcommittee, it is truly my honor to 
be able to present this testimony before you. As Past-President of the 
National Association of County Veterans Service Officers, I am 
commenting on:

    <bullet>  National Association of County Veterans Service Officers 
(NACVSO) views on H.R. 67, Veterans Outreach Improvement Act of 2007.
    <bullet>  NACVSO views on H.R. 1435, Department of Veterans affairs 
Claims Backlog Reduction Act of 2007. NACVSO views on H.R. 1444, To 
direct the Secretary of Veterans affairs to make interim benefit 
payments under certain remanded claims, and for other purposes.
    <bullet>  NACVSO views on H.R. 1490, To provide for presumption of 
service-connectedness for certain claims for benefits under laws 
administered by the Secretary of Veterans Affairs, and for other 
purposes.

    The National Association of County Veterans Service Officers is an 
organization made up of local government employees. Our Members are 
tasked with assisting veterans in developing and processing their 
claims. Between 75 and 90% of the claims presented to the Veterans 
Administration each year originate in a county veterans office. Our 
Members sit across from those men and women who wish to file a claim 
each day. They are our friends and neighbors Members of our communities 
whom we see often daily. We exist to serve veterans and partner with 
the National Service Organizations and the Department of Veterans 
Affairs to serve veterans. Our Association focuses on outreach, 
standardized quality training, and claims development and advocacy. We 
are extension or arm of government, not unlike the VA itself in service 
to the nation's veterans and their dependents.
H.R. 67, Veterans Outreach Improvement Act of 2007:
    The outreach that I will address is the hands on approach. Across 
our nation there are veterans that do not think they are a veteran 
because they did not lose a limb or get injured in anyway. They came 
home and started to work to support their families. They have never 
looked for any help from the government. When the veteran dies their 
families still do not know they are entitled to benefits just because 
their husband or father served his country. These are the people that 
need outreach. They are mostly lower income and have never reached out 
to the VA and therefore they don't think they are entitled to this 
help.
    I look at rural and urban America and see the great need to make 
these veterans aware of the benefits that they deserve, that are earned 
entitlement not welfare. These veterans have never made use of the 
VAMC's, the GI Bill, Home Loan, Pension or Compensation Benefits. They 
just served their country and came home. It is so rewarding when you 
meet one of these veterans and tell them what they may be entitled to 
and see the hope on their face. It sometimes means the difference in 
eating or buying medicine. I am sure if a study was completed you would 
see a large number of rural veterans have never used the VA for any 
service and did not know they could. The VA has a responsibility to 
reach out and make everyone aware of their entitlement. One of the ways 
is for the County Veterans Service Officer to spread the word. To go 
into the communities with the message those veterans and their 
dependents have benefits due them. While many counties do fund a County 
Veteran Service Officer, the vast majority do not provide funding for 
outreach and other informational services.
    Outreach efforts must be expanded in order to reach those veterans, 
dependents and survivors that are unaware of their benefits and to 
bring them into the system. Nearly 2 million poor Veterans or their 
impoverished widows are likely missing out on as much as $22 billion a 
year in pensions from the U.S. Government, but the Department of 
Veterans Affairs has had only limited success in finding them, 
according to the North Carolina Charlotte Observer.
    Widows are hardest hit. According to the VA's own estimate, only 
one in seven of the survivors of the nation's deceased Soldiers, 
Sailors, Airmen and Marines who likely could qualify for the pension 
actually get the monthly checks. What's more, participation in the 
program is falling. Veterans and widows are unaware that the program 
exists. They simply don't know about it and the VA knows that many are 
missing out on the benefit ``We obviously are here for any veteran or 
survivor who qualifies,'' said a VA Pension official. ``But so many of 
these people--we don't know who they are, where they are.'' The VA's 
own report from late 2004 recommended that the agency ``improve its 
outreach efforts'' with public service announcements and other pilot 
programs. While it made limited efforts to reach veterans or their 
widows through existing channels, it is difficult to determine whether 
such efforts have been successful.
    Of all those likely eligible, only 27 percent of veterans and 14 
percent of widows receive the money. It is obvious that there is a 
great need for outreach to into the veteran's community and the local 
CVSO is the advocate closest to the veterans and widows and with 
minimal funding could reach the maximum number of eligible veterans and 
widows. Therefore, NACVSO is supporting H.R.67, introduced by 
Congressman Mike McIntyre of North Carolina, that would allow Secretary 
Nicholson to provide Federal--state--local grants and assistance to 
state and county veteran's service officers to enhance outreach to 
veterans and their dependents. We are already present in most 
communities and stand ready to assist the Department of Veterans 
affairs with this monumental task.
H.R. 1435, Department of Veterans Affairs Claims Backlog Reduction Act 
        of 2007:
    In June of 2002 the National Association of County Veterans Service 
Officers (NACVSO) offered testimony before the House Veterans Affairs 
Subcommittee on Benefits. The testimony was centered on the backlog or 
inventory of veteran's claims for their earned benefits. At that time 
the NACVSO testified, the inventory of veteran's claims was 
approximately 525,000 claims. Currently the inventory continues to grow 
and now stands more than 851,000 claims. This inventory causes a wait, 
in some cases, of more than one year. During the testimony of 2002, 
President George Hunt stated that many veterans have died while waiting 
for their claims to be adjudicated. He went on to state; ``Dying while 
Waiting'' is not acceptable for the men and women who placed themselves 
in harm's way for our great nation.'' Nearly 5 years later, the 
inventory problem is worse and it is still not acceptable for our 
veterans to die while waiting for their ``earned'' benefits.
    As we prepare this testimony there are approximately 25 million 
honorably discharged veterans of the armed forces of the United States. 
These men and women served honorably and expect a grateful nation to 
keep the promises that were made to them upon their entry onto active 
duty. A large percentage of those veterans are over the age of 70. It 
is the responsibility of the U.S. Government to live up to its promises 
that were made and accepted in good faith. Those promises that include 
medical care and compensation for illnesses and wounds sustained in the 
defense of freedom. A mechanism must be developed so that we have the 
means and the ability to serve these most deserving of our citizens--
those that have safeguarded our rights and freedoms that so many take 
for granted.
    Our Members, County Veteran Service Officers (CVSO), are present in 
37 of our 50 states and located in over 700 local communities. This 
readily available work force represents approximately 2,400 full time 
employees who are available to partner with Department of Veterans 
Affairs, Department of Defense and the Department of Labor to help 
speed the process of claims development and transition of our military 
personnel to civilian life. H.R. 1435, sponsored by Congressman Baca of 
California, provides a way for the Department of Veterans affairs to 
enlist the aid of these CVSO's in a pilot program, beginning in five 
states. CVSO's, through the claimants powers of attorney, would fully 
develop, as many as possible, claims passed from the local VA Regional 
Office. Thereby assisting in reducing the claims backlog by returning 
fully developed ready to rate claims. The availability of approximately 
2,400 trained, full time CVSO's available to work at the local level 
developing claims will free up VA personnel for other task. NACVSO 
supports the pilot program of H.R. 1435 and believe that its success 
will cause the Secretary of Veterans affairs to expand the program into 
other states.
H.R. 1444, To direct the Secretary of Veterans Affairs to make interim 
        benefits payments under certain remanded claims, and for other 
        purposes:
    The backlog of remanded claims continues to be a problem for the 
veteran and H.R. 1444, sponsored by Congressman Hall of New York 
provides relief for any veteran having a claim remanded for more than 
180 days with out a decision. While some remands continue for over a 
year the financial burden upon the veteran becomes unbearable. NACVSO 
supports the payment of interim benefits of $500.00 per month to each 
claimant as a temporary solution to the remand backlog until the 
Secretary of Veterans Affairs can provide suitable measures to process 
remands in a timely manor.
H.R. 1490, To provide for a presumption of service-connection for 
        certain claims for benefits under the laws administered by the 
        Secretary of Veterans Affairs, and for other purposes:
    NACVSO supports H.R. 1490, sponsored by Congressman Donnelly that 
provides for presumption of service-connection for claims filed by 
combat veterans.
    Under this proposal processing of claims would become simpler and 
the addition of online application could reduce the present 177 day for 
an initial claim to a manageable period thus allowing combat veterans 
to be better served.
CONCLUSION:
    This concludes my comments. I am ready to answer any questions the 
Committee may have. Thank you.

                                 <F-dash>
   Statement of Carl Blake, National Legislative Director, Paralyzed 
                          Veterans of America
    Chairman Hall, Ranking Member Lamborn, members of the Subcommittee, 
Paralyzed Veterans of America (PVA) would like to thank you for the 
opportunity to testify today on H.R. 67, the ``Veterans Outreach 
Improvement Act of 2007,'' H.R. 1435, the ``Department of Veterans 
Affairs Claims Backlog Reduction Act of 2007,'' H.R. 1444, a bill 
authorizing the Secretary of Veterans Affairs to make interim benefit 
payments under certain remanded claims, and H.R. 1490, a bill 
authorizing the Secretary of Veterans Affairs to provide for a 
presumption of service-connection for certain claims for benefits. PVA 
is extremely supportive of your effort to address the ever-growing 
problem of the backlog of claims for benefits.

       H.R. 67, the ``Veterans Outreach Improvement Act of 2007''

    PVA supports the Committee's effort to inform more veterans about 
the benefits that are available to them and their families. With this 
financial assistance from the VA in the form of grants, states can 
review their outreach programs and enhance or update those efforts that 
have been neglected through the years.
    Many states have used the Internet to list general information 
about their respective departments of veterans' affairs. However, tight 
budgets have kept states from constantly updating information and 
keeping it fresh. These sites could be enhanced to become a better 
resource for today's veteran. Many younger veterans understand this 
type of media better and are much more likely to use it, as opposed to 
standard print information. State websites could interact with the 
divisions of employment to list current employment opportunities for 
veterans. Veteran could also access information about benefits. 
Internet access in conjunction with CD's and DVD's offers states an 
inexpensive method to distribute a large amount of information to the 
veterans. VA grants could also be used to produce videos describing 
veterans programs and how to contact the local state office. 
Informational public service announcements could likewise be circulated 
to community cable providers.
    Production of current brochures that summarize veterans' benefits 
provided by a state would also be a positive use of additional funding. 
This could include the locations and phone numbers for that state's 
service offices. The updated informational brochures could be made 
available at some Federal offices, state offices, including the 
employment office, and county offices. This would represent 
constructive use of a grant from the VA. Some states have reduced the 
budget for this type of outreach as their departments of veterans' 
affairs are a lower priority than state mandatory programs.
    The VA's Readjustment Counseling Service has operated community-
based facilities, called Vets Centers, since 1979. Currently the VA 
maintains 209 Vets Centers in all 50 states, and the District of 
Columbia. These centers provide psychological counseling for war-
related trauma, community outreach, case management and referral 
activities. In 2007 and 2008, the VA will open 23 more Vets Centers 
across the nation. PVA supports the expansion of this program with the 
hope that the program will be integrated into the support network for 
veterans, thereby enhancing outreach at the local level.
    Successful outreach has also been achieved in several states that 
have sponsored a program called the ``Supermarket of Veterans 
Benefits.'' This program started in Georgia more that 20 years ago and 
has been duplicated in Wisconsin and Missouri. The goal is to bring all 
resources that can help veterans together in one location for 1 day. 
The participants include all veterans' service organizations, state and 
county veterans service officers, state employment personnel, and VA 
benefits and health care personnel. The program is organized through 
the state's veteran's affairs office. The announcement of the event is 
sent to veterans' service organizations, Federal government offices, 
state and county government offices, including employment offices, 
National Guard and Reserve locations and newspapers. Georgia has used 
National Guard facilities for the event, which has been successful in 
attracting current and retired Guard and Reserve Members. The 
convenience for a veteran to receive information on the full range of 
available programs including healthcare, home loans, educational 
benefits, or other supports, has proven successful.

    H.R. 1435, the ``Department of Veterans Affairs Claims Backlog 
                        Reduction Act of 2007''

    PVA supports the intention of the bill to help the VA further 
address the unprecedented backlog of claims for benefits. This pilot 
program would allow six states to use their county service officers to 
develop the claim for the veteran and submit it to the VA. The county 
veterans' service officer can currently gather the information, develop 
the claim, and present it to the VA for submission. This program will 
enhance their ability to play a vital role in helping the VA prepare a 
claim for rating. They are uniquely positioned to obtain evidence from 
local sources. However, the VA is better able to obtain such evidence 
as service medical records (SMRs) and Social Security records. VA 
employees are provided clear instructions on how to electronically 
obtain such records, and only with experience can one develop the 
skills necessary to become effective in developing that type of 
evidence. In some situations county service officers may need more 
training to properly complete a claim.
    PVA currently has 66 veterans' service offices staffed by 135 
personnel in the field. These are full time employees of the national 
organization. PVA invests 18 months of training to develop its service 
officers. The program involves successful completion of training 
manuals, tests that accompany the manuals, and working with a senior 
service officer. PVA conducts ongoing regional training as well as 
participation in VA training at the local level. This allows PVA 
service officers to be familiar with the training of VA personnel and 
also permits valuable interaction with VA claims processors and other 
staff to identify issues they are seeing from outside of the VA. This 
pilot program proposed by this legislation could be a component to help 
alleviate the backlog. However, success will be determined by continued 
training and commitment of the county service officers, similar to the 
time and energy that PVA puts into its own service officer program.
    Additionally, Congress should focus its attention on fully 
implementing ``Virtual VA.'' This would allow raters, adjudicators, and 
all service officers (for the cases with Power-Of-Attorney on file and 
for personnel trained and certified in privacy and security of 
records), to have electronic access to the electronic VA file, VA 
medical center records, and SMRs. This will help alleviate the paper 
chase that currently takes place.

             H.R. 1490 (Presumption of Service-Connection)

    PVA does not support the idea of presumption of service-
connectedness for submitted claims. It would require the VA to 
adjudicate a new benefit, the ``interim award'', rather than focusing 
their resources on properly completing the initial claim. If the 
service connection is reasonably allowable, the regulations provide for 
a prestablization rating (38 C.F.R.  4.28) at a 50% or 100% rate for 
recently returned veterans. One year later the veteran is examined and 
evaluated. Unfortunately, this regulation is rarely used.
    Even if the veteran thought that they may be asked to pay the money 
back to the VA in three or 4 years, some veterans may still file an 
unsubstantiated claim. The long and frustrating process of filing a 
claim for compensation does not discourage some veterans from filing 
fraudulent claims. We believe that if Congress lowers this initial 
threshold, the results will be an overwhelming number of claims filed 
for compensation.

             H.R. 1444 (Interim Payments Following Remand)

    Although this is an effort to address the tremendous backlog of 
claims, this legislation would simply add to the workload. The bill, 
states that if the final decision is not to award benefits, the amounts 
paid as interim benefits shall not be considered to be overpayment for 
any purpose. This policy would encourage veterans to file frivolous 
claims--inflated claims that would further slow the process down. 
Furthermore, this would create a potential enormous cost to the VA if 
it is forced to pay for claims that ultimately will be denied. 
Resources can be better used by improving the system rather than 
offering free money to everyone filing a claim, regardless of its 
legitimacy.
    PVA believes that a major reason for the current delay is caused by 
the regional office not producing the proper documentation in the 
beginning. There is no incentive for the VA regional office to 
completely develop a claim prior to denial and certification to the 
Board of Veterans Appeal. It has been documented by a quality review 
team that 30% of the remanded appeals were caused by the regional 
office not complying with existing instructions regarding development 
of the evidence. Some claims are returned two or three times before 
being accepted. In developing the claim, VA regional offices do not 
follow the instructions for development of evidence as explained in the 
VA instruction manual for adjudication procedure.
    In the end, we believe that many of the problems in the Veterans 
Benefits Administration are centered on proper training and 
accountability. Without uniform training across all of VBA on the 
standards established in regulations, problems will continue to arise 
and the claims backlog will continue to grow. Furthermore, it is 
absolutely essential that VBA personnel at all levels be held 
accountable for their own actions and the actions of their 
subordinates. Although we continue to advocate for adequate resources 
and additional staff, these steps will not go far enough if training 
and accountability are not a major component. Similarly, we recognize 
that veterans' service organizations have a commensurate obligation to 
properly train and supervise their personnel.
    Mr. Chairman, PVA recognizes that the challenge that this 
Subcommittee faces in trying to properly address the claims backlog is 
enormous. We look forward to working with the Subcommittee and all of 
Congress to find workable solutions for what has become a national 
problem for current veterans and new veterans returning from Iraq and 
Afghanistan. However, we must ensure that short-term fixes do not lead 
to long-term problems.
    Thank you for again for allowing us to testify. I would be happy to 
answer any questions that you might have.

                                 <F-dash>
   Statement of Gerald T. Manar, Deputy Director, National Veterans 
         Service, Veterans of Foreign Wars of the United States
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    On behalf of the 2.4 million Members of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I would like to 
thank you for the opportunity to present our views on the following 
legislation.
    The first bill under discussion today is H.R. 67, The Veterans 
Outreach Improvement Act of 2007. This bill aims to improve outreach 
activities within the Department of Veterans Affairs (VA) by 
coordinating the efforts among the offices of the Secretary, Public 
Affairs, Veterans Health Administration, Veterans Benefits 
Administration and the National Cemetery Administration.
    In order to increase effectiveness of VA outreach, it directs the 
Secretary to establish a grant program for state veteran agencies by 
providing $25 million in funding annually for 3 years for state and 
local outreach services available to veterans. It targets assistance to 
those locations with large and growing veteran populations.
    The VFW has always encouraged and supported increased awareness of 
benefits and services provided by VA to veterans. We believe that all 
veterans and their survivors should have access to up-to-date 
information about services and benefits for which they may be eligible, 
therefore we support H.R. 67. However, since success of this initiative 
will result in increased claims submissions to VA, we urge that funding 
for VBA adjudication keep pace with increases in the number of claims 
filed as a result of greater outreach at the local level. We also 
encourage that substantial outreach at the local and state level be 
made on behalf of National Guard and Reserve Members and would like to 
see additional language which specifies oversight by Congress regarding 
use of funds granted to state and local governments who perform 
outreach services, to ensure that these funds are being spent properly. 
Finally, we urge Congress to fund this initiative with new money since 
it otherwise would result in a reduction of existing services or 
programs.
    The VFW strongly opposes H.R. 1435, The Department of Veterans 
Affairs Claims Reduction Act of 2007, a bill that directs the Secretary 
to conduct a pilot program intended to reduce the backlog of claims for 
benefits pending with VA. We believe that there are serious flaws in 
the legislation's approach, as well as unclear legal parameters 
concerning representation of a claimant by County Veterans Service 
Officers (CVSOs).
    In section 2, the bill states that there are 2,400 full time and 
numerous part-time employees in the nationwide system of CVSOs of which 
a majority of them are accredited (accreditation is necessary for 
access to information concerning veterans contained in VA record 
systems). However, section 3, subsection 2, defines a CVSO as ``any 
person employed or funded by any county, parish, borough, or territory 
whose job it is to assist veterans and eligible dependents in the 
application for, administration of, or receipt of benefits under any 
Federal, State or county veterans benefit program.'' This would allow 
anyone, accredited or not, access to a veteran's highly sensitive and 
personal information without any safeguards or controls.
    The bill also redefines ``claim'' in Section 3, subsections 3, 4 & 
5 without regard or reference to long established laws, regulations or 
judicial decisions. This will certainly cause difficulties for VA 
regulation writers and significant confusion within the veteran and 
legal communities resulting in increased appeals and litigation. It 
also redefines ``presumptive claim'' to create a whole new category of 
presumptive disabilities.
    This redefinition of terms shows the inherent flaw in the 
legislation. It is written without a clear understanding of existing 
law. For example, an ``injury or illness claim'' is defined as a 
``claim for benefits that is documented as being service connected''. 
What exactly does that mean? An original claim filed for service 
connection? Does it mean a claim for an increased evaluation of a 
condition already service connected? The terms ``claim'', ``service 
connection'', ``presumption'' and others found throughout this 
legislation are clearly defined in existing law and regulation. This 
bill fails to suggest a reason why changes are necessary.
    This ``rewriting of terms'' will force VA to alter its claims-
tracking program to conform to the new definitions and then determine 
which cases are not ready to rate. This legislation requires VA to 
screen its entire backlog to determine what additional evidence is 
still needed, then prepare a transmittal document describing the 
required development before sending it to a CVSO. This is exactly the 
same review process that VA currently does to decide what evidence is 
needed in order to prepare a development letter under the Veterans 
Claims Assistance Act. Instead of preparing that letter to the 
claimant, this bill would require the preparation of a transmittal or 
instruction letter to the CVSO who would, weeks later, attempt to 
contact the claimant by phone or letter seeking the same information. 
The workload for VA would increase, not be reduced. And the development 
of the claim would be significantly extended while the claim goes 
through additional hand-offs before the veteran is contacted.
    We also question section 4, subsection 1, ``referral of claims to 
CVSOs'' and the validity of distributing claims to those officers who 
are ``geographically closest to the claimant.'' What about the 
organization which holds the Power of Attorney? Who decides where the 
claim is referred and when the claim is shifted from VA to CVSOs? Who 
will track the workload? Further, since this bill would allow CVSOs to 
not only take new claims but also keep them until they are fully 
``ready to rate'', VA won't even know that it has that pending work in 
the pipeline. This legislation would increase the workload tracking 
burden on VA and hide significant portions of the backlog from view 
which will, over time, give the appearance of workload reduction at VA 
when, in fact, the work has merely been shifted elsewhere. It offers VA 
managers a new excuse for poor timeliness.
    Since VA doesn't tell the CVSOs what to develop in claims it has 
never reviewed, can anyone be certain that the claims they take will be 
ready to rate when VA receives them?
    Section 4, subsection 5 states that CVSOs are supposed to fully 
develop claims. Does that include developing Service Medical Records, 
Military Personnel Records, VA exams or expert medical opinions? Do 
they submit requests to DOD to verify stressors in claims for service 
connection of PTSD?
    The net effect is that VA will still have to screen claims exactly 
as it does now under the ``Duty to Assist'' law when it instructs the 
CVSOs what to do.
    Finally, and not the least important, the money for this program 
will come out of VA's budget, reducing the number of FTE available to 
develop and process claims, thereby aggravating , not solving the 
problem of the backlog. The VFW believes the only way to truly solve 
the current situation is to provide appropriate funding and the 
resources to enable VBA to hire more qualified employees who can reduce 
waiting times, improve error rates and set and meet goals. The current 
claims processing system can work, if Congress dedicates the proper 
level of resources, and if this body uses its oversight power to ensure 
that VA is living up to its obligations.
    The VFW opposes H.R. 1444, legislation to direct the Secretary of 
Veterans Affairs to make interim benefits payments under certain 
remanded claims. The proposed legislation requires VA to pay an interim 
benefit of $500 per month when a claim for veterans' benefits is 
remanded by either the U.S. Court of Appeals for Veterans Claims or the 
Board of Veterans' Appeals (BVA), and when a decision is not made 
within 180 days of the date of the remand.
    The VFW recognizes that this bill is intended to offer interim 
relief to those veterans who have waited extraordinarily long periods 
for a final decision on their claims. However, when the Appeals 
Management Center of the VBA grants entitlement to service connection 
or increased benefits in only 17 percent of the remands it works, we 
wonder why Congress would choose to award an interim benefit of $500 
per month to 100 percent of those waiting over 180 days for a decision. 
Further, this bill would only serve to increase the backlog and prolong 
the time it takes to get a case rated properly because it will require 
additional time to adjust the award following completion of the remand.
    We also believe that it will lead to a higher remand rate 
inherently corrupting and further complicating the current claims 
process. For the month of March 2007 alone, the total number of cases 
in remand status was 16,577. Generally, the average remanded case 
remains undecided--without a final decision by the BVA--for about 2 
years. It should be noted that in the first 5 months of the current 
Fiscal Year (FY 2007) the Board rendered 18,500 decisions, of which 20% 
were granted, 42% were denied and 34% were remanded back to the Appeals 
Management Center or Regional Office.
    The development and adjudication of a veterans' claim under the VBA 
system is more than just awarding compensation for an injury or illness 
incurred while in service, it is designed to make an individual 
socially and economically whole. In the end we believe that resources 
would be better spent at the beginning of the claims process, by hiring 
and training more claims adjudicators thereby ensuring the veteran a 
fair and accurate assessment of their needs.
    The VFW also opposes the final bill under consideration today. H.R. 
1490 would provide for a presumption of service-connectedness for 
certain claims for benefits under the laws administered by the 
Secretary of Veterans Affairs.
    We believe that this legislation is based on a false premise: that 
87 percent of the claims submitted by veterans are approved by VA.\1\ 
VA compensation is unlike any other program administered by any agency 
or department in the Federal government. Entitlement to Social Security 
Disability payments requires simply a determination as to whether the 
claimant is unable to work due to disability. It is a yes or no 
decision. Entitlement to workers compensation is slightly more 
complicated in that it must be determined that the disability making 
someone unemployable is related to or caused by his or her job.
---------------------------------------------------------------------------
    \1\ Soldiers Returning from Iraq and Afghanistan: The Long-term 
Costs of Providing Veterans Medical Care and Disability Benefits; 
Bilmes, Linda, Faculty Research Working Papers Series, January, 2007
---------------------------------------------------------------------------
    A determination of entitlement to veterans' disability 
compensation, on the other hand, requires first a decision that the 
disability either arose coincident with service or, if it preexisted 
service, was aggravated during service beyond natural progress. 
Decisions by the Court of Appeals for Veterans Claims allows the grant 
of service connection for non-service connected disabilities which have 
been aggravated by service connected disabilities. So the first 
decision is whether a disability is service connected. The next 
question is how disabling is it. By law, evaluations are assigned in 
gradations of 10 percent from zero to 100 percent. Finally, VA must 
decide the effective date from which benefits can be paid.
    While it appears to be true that 87 percent of recently discharged 
veterans are granted service connection for one or more disabilities, 
what is categorically untrue is that 87 percent of veterans ``claims'' 
are approved. Original claims for compensation almost always allege 
that more than one disability is related to service. Currently the 
average number of disabilities claimed is 8 or 9 and it is not uncommon 
for new veterans to claim 20 or more conditions. However, these claimed 
conditions are a mixture of actually diagnosed disabilities and 
symptoms, which may or may not be related to diagnosed disabilities. 
Many of these ``disabilities'' are symptoms, such as pain, which are 
related to a real disability. Further, many claimed conditions are 
either acute problems, like colds or sprained ankles, which resolved in 
service and are no longer symptomatic at the time the claim is filed or 
are disabilities which have not been diagnosed and, on examination, 
remain undiagnosed.
    While 87 percent of veterans receive service connection for some 
claimed condition, the evaluations assigned may be zero percent 
disabling or 10 or 20 percent. In 2005, VA found 160,352 veterans 
entitled to service connection. However, fully 49 percent were awarded 
combined compensation awards of 20 percent or less.\2\ We believe that 
this bill, if enacted into law, would bastardize a program designed to 
compensate veterans for service connected disabilities and encourage 
veterans to file increasing, spurious and sometimes fraudulent claims.
---------------------------------------------------------------------------
    \2\ Annual Benefits Report, Fiscal Year 2005; Veterans Benefits 
Administration; September 2006
---------------------------------------------------------------------------
    While the intent of this legislation is admirable we believe that 
it forces VA into an adversarial relationship with the veteran filing 
for a service-connected disability claim.
    It asks the VA to validate all claims simply by ``proof of service 
in a conflict'' and awards those claimants at a median level until 
``such time as the appropriate level of benefits is determined.'' There 
is no definition given for what the median level is based upon. What 
about claims that cover multiple injuries or illnesses?
    The legislation fails to address the complexity of the VBA ratings 
system and in fact would seem to create a duplication of effort in 
adjudicating claims during a time when VA is experiencing record 
backlogs.
    It also calls for an audit of a percentage of claims, to ``uncover 
and deter fraudulent claims.'' This could prove to be substantial, if 
in fact the award is based solely upon ``proof of conflict.''Again, 
this would require additional workload for adjudicators to weed out the 
good from the bad. Wouldn't resources be better utilized in 
adjudicating claims on the front end so that all veteran's claims are 
processed correctly the first time?
    The bill also takes under consideration only those veterans filing 
new claims or claims pending at the time the law takes effect. What 
about those veterans who have been denied and/or await a decision on an 
appeal? The VFW believes that there is a danger of creating a two-
tiered system of veterans.
    The last section reassigns employees who previously worked on 
claims processing to Vet Centers to assist veterans with readjustment 
counseling and mental health services or to other locations deemed 
necessary by the Secretary. Those individuals who processed claims may 
not necessarily be qualified to assist veterans with readjustment or 
mental health counseling. VA employees who are asked to undertake this 
task will have to be trained which takes time not to mention takes them 
away from adjudicating any new claims already in the system.
    The authors of this bill are clearly concerned with the extended 
period of time that it takes VA to resolve compensation claims and the 
effect that delayed decisionmaking may have on new veterans 
transitioning, with disabilities, from active duty to civilian life. 
Congress may wish to consider enacting a temporary benefit stretching 
for up to 2 years after discharge to ease the transition for all new 
veterans. A transition program, rather than this bill, would be simpler 
to administer and would leave the VA compensation program intact to 
help replace lost earnings and address quality of life issues caused by 
service connected disabilities.
    We attest that although the system is not perfect, when it is 
consistently funded on time and provided adequate staffing levels, with 
strong leadership by VA and oversight by Congress, it works. VFW 
believes that there is no more deserving population of beneficiaries of 
a strong VA system than the current generation of veterans, who are 
returning from Iraq, Afghanistan and elsewhere in the Global War on 
Terrorism.
    Mr. Chairman and Members of the Subcommittee, this concludes the 
VFW's testimony, I would be happy to answer any questions you may have. 
Thank you

                                 <F-dash>
 Statement of Craig M. Kabatchnick, Adjunct Law Professor, Supervising 
   Attorney and Director of the Veterans Law Project, North Carolina 
                         Central School of Law
    Chairman Hall, Members of the House Subcommittee on Disability 
Assistance & Memorial Affairs, and honored guests:
    On behalf of myself and those others involved in the Veterans Law 
Project, which I direct, I wish to express our great appreciation for 
the Subcommittee's holding today's important hearing on House Bills 
H.R. 67, H.R. 1435, H.R. 1444, and H.R. 1490. We truly value this 
opportunity to present our position on these proposed pieces of 
legislation that are intended to provide appropriate benefits to the 
millions of veterans who have served our great nation.
    I want to thank Chairman Hall for introducing H.R.1444, his 
proposed legislation to ``Direct the Secretary of Veterans Affairs to 
make interim benefit payments to veteran claimants under certain 
remanded claims''; Representative McIntyre for introducing H.R. 67, the 
proposed ``Veterans Outreach Improvement Act of 2007''; Representatives 
Donnelly and Upton for introduction of H.R. 1490, their proposed 
legislation to ``Provide for a presumption of service-connectedness for 
certain claims for benefits under the laws administered by the 
Secretary of Veterans Affairs''; and Representative Baca for 
introducing H.R. 1435, his proposed legislation to ``Direct the 
Secretary of Veterans Affairs to conduct a pilot program to reduce the 
backlog of claims for benefits pending with the Department of Veterans 
Affairs''. These legislative initiatives are great examples of keeping 
faith with the millions of veterans to whom the Nation has a sacred 
obligation.
    The Veterans Law Project does not receive any grants, or contracts 
from the federal government.
OVERVIEW OF THE VETERANS LAW PROJECT AT NORTH CAROLINA CENTRAL SCHOOL 
        OF LAW
    The Veterans Law Project, which has not received any grant or 
contract from the Federal government, is a follow-up to a 1991 American 
Bar Association study. That study showed that veterans who had 
disability claims and whose income was less than $50,000 were more 
likely to represent themselves in the Court of Veterans Appeals once 
they had received an adverse ruling by the Board of Veterans' Appeals 
(BVA). That study also made the point that about 80% of self-
represented litigants reported that they could not afford an attorney. 
These results were especially ominous because although it was the 
original intent of the Congress to create a statutory scheme that would 
be non-adversarial, pro-claimant and veteran friendly, the reality is 
that a confusing, complex, bureaucracy has evolved to handle the 
adjudication of veterans' benefits. In fact, the adjudication of 
veterans' benefits claims has in many circumstances become such an 
antagonistic adversarial process that as a consequence, the need for 
representation by competent veterans' law practitioner's has become 
nearly unavoidable.
    The unfortunate facts are that the adjudication of veterans' claims 
and its administrative appeal process can take three to 5 years in the 
best of circumstances, and 10 years or more in the worst. Congress now 
allows a veteran to retain and compensate an attorney or qualified 
agent to represent the veteran before the Department of Veterans 
Affairs, the BVA or the United States Court of Appeals for Veterans 
Claims. However, current law does not allow a veteran to compensate an 
attorney until the administrative appeal process is final and adverse 
through the issuance of a final BVA decision and denial of the 
veteran's claim. This means a veteran cannot pay his or her attorney 
until after the Board of Veterans' Appeals has issued a final adverse 
decision.
    The Congress in November 1988 passed the Veterans' Judicial Review 
Act. This legislation allowed--for the first time in the Nation's 
history--judicial review of decisions involving veterans' benefits. 
This law allows a veteran to appeal to a court the denial of any 
veteran's benefits by the Department of Veterans Affairs. The veteran 
may represent him or herself, pro se before the court. From the 
creation of the United States Court of Appeals for Veterans Claims, the 
pro se filing rate, meaning the veterans who filed without an attorney, 
has been consistently 70%. This means that seven out of ten veterans go 
to court without a legal representative.
    Going to court without competent legal representation is like going 
to war unarmed. It is an unfair fight. At court for the first time the 
government is openly adversarial. At court the Department of Veterans 
Affairs is represented by the VA's General Counsel. The VA General 
Counsel's job is to defend the Agency and its denial of benefits in 
Court. The General Counsel's Office employs trained legal 
professionals, whose job it is to persuade the Court that the decision 
of the Agency was correct and should be affirmed. The General Counsel's 
Office will aggressively work toward that goal. A veteran, who is 
unrepresented before the court, is simply at a completely and totally 
unfair disadvantage. This is also true of the interactive processes 
between the VA and the veteran during the claims processing that goes 
on prior to the VBA activity-level has been reached.
    The only way to even the playingfield, and to better assure that 
complete, fully developed claims cases are being presented to the VA, 
is to afford veteran claimants with competent legal assistance early on 
in the claims process. The Veterans Law Project at the North Carolina 
Central University School of Law provides a prototype for meeting the 
great need, in the manner in which those much needed legal assistance 
services should be made delivered.
    The prototype Veterans Law Project that is now in operation in the 
state of North Carolina operates as a legal clinic in conjunction with 
the North Carolina Central University School of Law to provide legal 
assistance to veterans and their dependents with respect to VA claims 
of various types. The Veterans Law Project believes that by making 
legal assistance available early on in the claims process, it 
significantly reduces the VA's caseload by reducing the front-end 
effort needed to process a claim to reviewing and developing the 
evidence, considering legal and factual arguments and analysis, and 
rendering a decision. Also, by improving the completeness and quality 
of the veterans original claim submission, it will significantly reduce 
the number of remanded cases.
    The Veterans Law Project does not seek to displace the VSOs 
(County-level or those Veteran's Service Organizations like the VFW) in 
providing representation to veterans. The veterans claims process 
system within the VA would be best served if veterans had the freedom 
to--and a readily available resource from which to--seek legal 
assistance at no cost to themselves.
    As to the argument that veterans should be protected from unethical 
or inexperienced attorneys, the practice of law is now regulated in 
terms of ethics, fees and professional responsibilities. Currently, the 
VA has capped attorney fees in all post-BVA decision cases at 20% of 
recovered benefits. Veterans Law Project personnel who assist VA 
claimants at an earlier stage of the proceedings are prohibited from 
charging fees and are not entitled to any portion of recovered 
benefits.
    The prototype Veterans Law Project operates as a legal clinic under 
the supervision and mentorship of a Director, who has experience in 
dealing with the VA. This Director is the Supervising Attorney and also 
an Adjunct Law Professor who teaches veterans law. In addition to the 
Supervising Attorney, law students from the North Carolina Central 
School of Law and the University of North Carolina, Chapel Hill perform 
many services in support of the Veterans Law Project.
    The Veterans Law Project fills an existing need for legal 
assistance to help veterans get their initial claims developed in such 
way that they have an increased probability of favorable adjudication, 
and also to assure that, the claims are properly constituted if 
eventual judicial review at the United States Court of Appeals for 
Veterans Claims level, or at United States Court of Appeals for the 
Federal Circuit is needed.
    Participating law students assist with the screening of files and 
sorting incoming claims and documents necessary for claims development, 
interview veterans as to the validity of their claims, assist veterans 
with the technical aspects of filing their claims, perform legal 
research, prepare supporting legal briefs, help a claimant file all 
applicable forms, assure that the initial development of a claim is 
completed within the time limits imposed by the VA, and perform 
whatever other tasks are required to successfully move the veterans' 
claims through the related adjudication process. The level of legal 
training necessary to render this assistance is reached by law students 
with a modest amount of legal training that is presented through weekly 
classes at the Law School. These participating students receive credit 
for clinical study under arrangements between the clinic and the 
University's School of Law.
    In addition to helping veterans to develop their claims, the law 
students also assist in ordering further medical examinations, when 
needed, and in assuring that the VA performs its broadened duty to 
assist veterans in the development of their claim required both by the 
Veterans Claims Assistance Act of 2000, and case law.
    Prior to filing an appeal with the Board of Veterans Appeals, which 
is staffed solely by VA attorneys, the students assist with the filing 
of a Notice of Disagreement with an adverse VA rating decision, after 
which a statement of the case is issued by the VA explaining the 
rationale for the VA rating decision. Thereupon an appeal to the Board 
of Veterans Appeals can be properly filed with the assistance of the 
law students under the guidance of the Veterans Law Project.
HR 1436--PROPOSED LEGISLATION FOR A PILOT PROGRAM TO REDUCE THE BACKLOG 
        OF CLAIMS FOR BENEFITS PENDING WITH THE DEPARTMENT OF VETERANS 
        AFFAIRS
    The VA has seen over 200,000 veterans from Operation Enduring 
Freedom/Operation Iraqi Freedom, which is less than half of the total 
number of the veterans who have been separated from active duty. This 
number can only increase, especially with the numbers of those serving 
overseas increasing. Over the course of time a very large percentage of 
these veterans will, at some point, become claimants for service-
connected disabilities associated with causes for which they are now 
only receiving medical care and or treatment. Claims for disability 
filed with the VA will only increase over the course of the next two 
decades--even if there is not another similar major military engagement 
during that period.
    We who are involved with the Veterans Law Project feel that we must 
do everything we can to assure that these men and women are properly 
cared for and that their claims for service-connected disability 
compensation are quickly and fairly evaluated and processed. The cost 
of providing responsive claims evaluation and processing is part of the 
ongoing costs of the Global War on Terrorism. The costs associated with 
fulfillment of the national obligation to veterans for their service is 
any as aspect of this mission of which the Committee and this 
Subcommittee is a part. The Veterans Law Project believes that ultimate 
passage of HR 1435 is consistent with that responsibility.
    Reports indicate that around 60,000 recently separated service-
members have been diagnosed with some form of mental problems by the 
VA, and almost 40,000 of these men and women have been diagnosed with 
PTSD. It's true: nobody goes to war and returns the same person. 
Veterans' claims for service-connected disability related to brain 
trauma, a relatively new basis for claims, mental health problems, and 
the forecast increase in PTSD diagnoses is an area of claims processing 
in which the VA is relatively inexperienced. The caseload in these 
areas will greatly increase over the next 10 years. While the VA is 
making substantial progress in these areas, improvements must be made; 
and additional capacity to handle claims of this specialized nature 
must be added.
    The last time we looked into it, the VA had over 800,000 individual 
claims and appeals for compensation, pension, and education benefits. 
This is a massive backlog of claims, which has resulted in 6-month 
waits for initial ratings decisions on compensation claims. We at the 
Veteran's Law Project initiative feel that this is unacceptable.
    About 600,000 of those claims are for disability compensation. Any 
delay in providing benefits to these wounded service-members makes it 
difficult for them to provide for themselves and their families. 
Further, because access to the VA health care system is curtailed for 
many veterans without compensable service connections, delays in 
compensation decisions deny these veterans the health care and 
treatments they need to lead productive lives.
    Despite the best efforts and intents of VA managers, the backlog 
continues to grow, and with increasing numbers of returning veterans, 
it can only go up. As the number of cases on the backlog grows, the 
difficulty of managing the backlog and finding solutions to the 
systematic problems will only get worse.
    The VA claims that much of the problem with the backlog has to do 
with the complexity of the cases. While we would acknowledge that the 
complexity of claims has increased, the Veterans Law Project views this 
as a problem of resources--both in terms of numbers and requisite 
skills. We feel that by enacting the ``Pilot Program to Reduce the 
Backlog of Claims for Benefits Pending with the Department of Veterans 
Affairs'' and embracing the Veterans Law Project concept in the states 
where the Pilot Program is implemented a significant, measurable, 
reduction in remanded claims cases will result. Veterans Service 
Officers from both County-level Veterans Service Offices and the Major 
Veterans Service Organizations, such as the Veterans of Foreign Wars 
(VFW), can acquire the assistance of third and 4-year law students, 
working within the Veteran's Law Project, who have already acquired 
``Paralegal'' skills in assembling case files in conformance with 
applicable regulations and laws. With legal assistance made available 
to veterans early in the claims process, the VA's task would be reduced 
in reviewing and developing the evidence, analyzing legal and factual 
arguments, and rendering decisions.
    While funding new VA positions and redeploying resources freed up 
under the Pilot Programs could certainly direct more manpower force 
onto the task of reducing backlogs, working in cooperation with the 
various service officers and the Veterans Law Project could help the VA 
to do even more.
    The VA's staffing needs to be adequate to meet the demands placed 
upon its system. The only way that a meaningful dent in the backlog can 
be made to reduce the current delays is by employing more, and 
qualified, resources to the backlog problem--a problem that will only 
be exacerbated by the large influx of Operation Iraqi Freedom and 
Operation Enduring Freedom veterans. The size of the backlog is proof 
positive that this is not being done and we at the Veterans Law Project 
look forward to being part of the solution.
    For a veteran on his or her own, trying to navigate the highly 
bureaucratic VA claims process can be a nightmare, and a number of 
veterans just give up in their efforts to prosecute their claims for 
service-connected disability. Denying them their earned benefits, 
necessary compensation, and/or access to health care for their 
disabilities, is not how a nation should treat its heroes.
    The Veterans Law Project and its offspring can augment the programs 
envisioned by the ``Proposed Legislation for a Pilot Program to Reduce 
the Backlog of Claims for Benefits Pending with the Department of 
Veterans Affairs'' byworking with various service officers and using 
participating law students to assist with the screening of files, 
sorting incoming claims and documents necessary for claims development, 
interviewing veterans as to the validity of their claims, assisting 
veterans with the technical aspects of filing their claims, performing 
legal research, preparing supporting legal briefs, helping claimants 
file all applicable forms, assuring that the initial development of a 
claim is completed within the time limits imposed by the VA, and 
performing whatever other tasks are required to successfully move the 
veterans' claims through the related adjudication process.
    In addition to the law students helping veterans to develop their 
claims, they also can assist in ordering further medical examinations 
when needed, and insuring that the VA applies its broadened duty to 
assist a veteran in the development of their claim which is required by 
the Veterans Claims Assistance Act of 2000, and by case law.
HR 67--VETERANS OUTREACH IMPROVEMENT ACT OF 2007
    While the Veterans Law Project believes that Federal, state and 
local governments; and VSOs; all have a heavy responsibility to reach 
out to eligible veterans and make them aware of the entitlements, 
programs, and benefits that Congress has made available for them, we 
feel that it is counter-productive for the Congress to make available 
to the various state veterans welfare agencies a program that is 
optional in its implementation and will almost certainly cause state 
legislators to become inclined to reduce their current funding 
authorizations for veterans programs, in light of the availability of 
additional Federal funding. We feel that the provision in the proposed 
Bill which provides that the funding provided to the states cannot be 
used ``for the purpose of administering outreach supporting funds, and 
are limited to no more than 50 percent of the total cost of such State 
and local government activities, and shall be used to expand existing 
outreach programs and services, not to supplant existing State and 
local funding'' will not deter an offsetting reduction in state funding 
in those states that have already implemented programs.
    The Veterans Law Project believes that the envisioned appropriation 
to support the proposed legislation, as currently offered, would be 
better spent in aiding veteran outreach efforts of the various Non-
governmental Organization (NGO) Veterans Service Organizations (VSO)--
not as direct funding support but in the form of informational packets 
and centrally produced ad-spots or online media information releases to 
be used as their ``message'' toolkits.
    The single most important factor in making a veterans outreach 
program successful, is the ability of the program to ``touch'' the 
veteran or the veteran's family--no other entity has a more focused 
need to do so than the various VSO's--as Membership recruiting is the 
impetus for their effort expenditure.
    The outreach program features envisioned in this proposed 
legislation will be more efficiently and broadly applied and executed 
through use of the VSO recruiting infrastructure that already exists; 
it will cost taxpayers far less than the proposed alternative; and it 
only lacks the informational toolkit referred to earlier to effectively 
reach out to veterans and their families.
HR 1490--PROPOSED LEGISLATION TO PROVIDE FOR A PRESUMPTION OF SERVICE-
        CONNECTEDNESS FOR CERTAIN CLAIMS FOR BENEFITS UNDER THE LAWS 
        ADMINISTERED BY THE SECRETARY OF VETERANS AFFAIRS
    The Veterans Law Project fully supports the proposed legislation 
that would ``Provide for a Presumption of Service-Connectedness for 
Certain Claims for Benefits under the Laws Administered by the 
Secretary of Veterans Affairs''. It is a fact that in the world of 
veteran's claims, determining eligibility is the most difficult part of 
the veteran's challenge.
    To file a claim, a veteran has to satisfy two main conditions--the 
injury or condition for which the claim is to be made has to have 
occurred while in the military (service-connectedness); and a 
determination must be made that the injury is causing ongoing problems. 
It is the ``Service Connectedness'' that presents the real challenge 
for many veterans--proving something happened in the military is often 
very, very hard to do. Often, one piece of documentation usually can 
clear matters up very easily--the veteran's DD214, which will have 
medals, rank, job codes and presents a fairly good history.
    More often than not, obtaining the veteran's DD-214 is impossible. 
In far too many instances--too many to count--none of a veteran's 
papers exist anymore. In the absence of a DD-214, putting together a 
claim is very nearly impossible. The number of veterans' records that 
were destroyed in the fire at the National Personnel Records Center in 
St. Louis is unknown, but clearly was very large--estimated at between 
15-18 million records!
    For Army personnel, it is estimated that 80% of the personnel 
records were destroyed for those who were discharged between November 
1, 1912, and January 1, 1960. For Air Force Personnel, it is estimated 
that 75% of the personnel records were destroyed for those who were 
discharged between September 25, 1947, and January 1, 1964 (with names 
alphabetically after Hubbard, James E).
    This records loss affects mainly those veterans of the Korean war 
and earlier conflicts, and early combat veterans in the Vietnam War. In 
many cases, even their backup records are gone as well, having been 
destroyed in the fire at the National Archives.
    Today, as many of the Subcommittee Members know full-well, it is 
not uncommon that a veteran must enlist the aid of his or her 
representation in Congress in an effort to get their claim into the VA 
system, when there is no record of the veteran's service except the 
statements of relative or friends, who are willing to give testimony 
that a frustrated claimant was actually a member of the armed forces.
    All too often, veterans who were injured during a war or conflict 
don't file claims for many years which makes proving their eligibility 
more difficult. The time between their service and the present makes it 
very problematic to establish a claim, though certain specific 
illnesses, such as Type II diabetes and certain cancers, are easier to 
prove.
    Today, a few non-profit organizations exist which have dedicated 
their resources to assisting veterans in the filing of their claims. 
Thus, the Armed Forces Services Corp. (AFSC). AFSC lends assistance to 
veterans in proving service-connection. Their personnel are 
knowledgeable, and are pretty thorough in evaluating the necessary 
proof, and will assist the Member or the surviving family Member in 
filing the claims paperwork. The problem for most veterans is that 
``they simply don't know what they don't know''. Consequently, sources 
of assistance such as the Veteran's Law Project and AFSC are of no 
assistance to the many veterans who can easily become befuddled by the 
VA's bureaucracy.
    Those of us associated with the Veterans Law Project feel that a 
liberal broadening of the practice of presumptive service-connectedness 
will offer great relief to a large number of veterans who are, today, 
finding it nearly impossible to prosecute their claims for service-
connected disabilities and illnesses.
HR 1444--PROPOSED LEGISLATION TO DIRECT THE SECRETARY OF VETERANS 
        AFFAIRS TO MAKE INTERIM BENEFIT PAYMENTS UNDER CERTAIN REMANDED 
        CLAIMS
    The Veterans Law Project fully supports the proposed legislation 
that would ``Make Interim Benefit Payments under Certain Remanded 
Claims'' under the Laws Administered by the Secretary of Veterans 
Affairs. The proposed legislation relates specifically to claims 
submitted by veterans for ``Compensation for Service-Connected 
Disability or Death''; or for claims by the dependents of veterans for 
``Dependency and Indemnity Compensation for Service-Connected Deaths''.
    While the Veterans Law Project supports the payment of interim 
benefits during the period in which a remanded claims case is being 
processed by the VA, we feel that the period of time proposed for the 
VA to make a decision on the matter prior to beginning of payments is 
too long, and simply provides yet another additional reason for delay 
in the payment of disability or death benefits to those veterans who 
are eligible. We strongly urge that this provision of the proposed Bill 
be changed to direct that interim payments be begun if no decision has 
been made by the VA after 30 days.
    The VA can, and sometimes does, expedite requests for disability 
assistance--which is rare--usually, the only time they are willing to 
do so, is if extreme financial hardship or a chronic condition is 
involved. We feel that in cases of remands the same sense of urgency 
ought to be routinely followed.
    In the case of disability or illness, there are already too many 
instances of the claimants dying before they ever receive any claims 
benefit payment--all too often payments for which the veteran is in 
dire need. The receipt of $500.00 per month may well represent the 
difference between a minimal quality of life and no life at all.
    We feel that the proposed provision that ``if (1) the final 
decision the award of benefits, the amounts paid as interim benefits 
shall be considered to be an advance payment of benefits owed for any 
period before the date of such final decision (except that if the total 
amount of interim benefits paid is greater than the amount of 
retroactive benefits, the amount of the difference shall not be 
considered to be an overpayment for any purpose)'' and (2) if ``the 
final decision is not to award benefits, the amounts paid as interim 
benefits shall not be considered to be an overpayment for any purpose'' 
are absolutely essential, given the circumstances of many of our 
veterans.
    Those associated with the Veterans Law Project have no issue to 
take regarding the appropriateness of the ``Effective Date'' provisions 
of the proposed legislation.

                                 <F-dash>
    Statement of Robert Vincent Chisholm, Past President, National 
                   Organization of Veterans Advocates
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    Thank you for the opportunity to present the views of the National 
Organization of Veterans' Advocates (``NOVA'') on the following bills: 
(1) H.R. 67; (2) H.R. 1435; (3) H.R. 1444 and (4) H.R. 1490. NOVA is a 
not-for-profit  501(c)(3) educational organization created for 
attorneys and non-attorney practitioners who represent veterans, 
surviving spouses, and dependents before the Court of Appeals for 
Veterans Claims (``CAVC'') and on remand before the Department of 
Veterans Affairs (``DVA''). NOVA has written many amicus briefs on 
behalf of claimants before the CAVC and the United States Court of 
Appeals for the Federal Circuit (``Federal Circuit''). The CAVC 
recognized NOVA's work on behalf of veterans when it awarded the Hart 
T. Mankin Distinguished Service Award to NOVA in 2000. The positions 
stated in this testimony have been approved by NOVA's board of 
directors and represent the shared experiences of NOVA's members as 
well as my own sixteen-year experience representing claimants at all 
stages of the veteran's benefits system from the Regional Office to the 
Board of Veterans Appeals to the CAVC as well as before the Federal 
Circuit.
H.R. 67 Veterans Outreach Improvement Act of 2007
    This bill if enacted would increase the funding provided for 
outreach activities and require increased cooperation and coordination 
amongst the various state agencies and their Federal counterparts. It 
has been my experience that the Department of Veterans Affairs has many 
excellent programs which truly can help our most vulnerable veterans. 
The veterans most in need of these services are the ones most likely to 
go unaware of their existence.
    In addition, our returning soldiers are often ill-prepared for the 
transition to civilian life following their time in service. This can 
be an extremely stressful time, even without the bureaucratic hassles. 
Some veterans are reluctant to use VA services either because of pride 
or the feeling that they do not deserve these benefits. As a 
consequence, many eligible veterans do not know what VA programs are 
available to them. Finally, most veterans simply do not have the 
patience to wade through the avalanche of paperwork that confronts them 
when they do approach the VA.
    Congress and the people of this country are truly in debt to this 
nation's veterans, and in response we have provided our Nation's 
veterans with some excellent benefits. But that debt remains unpaid 
when our veterans go unaware of the benefits they deserve. NOVA 
believes that H.R. 67 is critical for veterans and fully supports this 
bill.
H.R. 1435 Department of Veterans Affairs Claims Backlog Reduction Act 
        of 2007
    The goal of this bill is to help clear the backlog of approximately 
500,000 cases pending at the regional offices around the country. NOVA 
believes this is a laudable goal and supports reasonable measures that 
will directly advance that goal.
    The bill would in essence outsource the development of certain 
claims to the County Veterans Service Officers. The Secretary would be 
required to identify and classify claims in the backlog that need 
further development. Once the claims needing further development are 
identified by the Secretary, they would be referred to the County 
Service Officers for development.
    It has been NOVA's experience that one of the most time consuming 
steps in the adjudication of claims is indeed the development of 
claims. There are two critical parts to the development process. First, 
the Secretary is required to examine the evidence on each claim and 
then determine what evidence needs to be obtained or developed in order 
to rate a claim. Second, a letter is sent requesting that evidence and 
the file is calendared forward for follow-up by the Regional Office. It 
is at the first step in the process of development that the Secretary 
needs to devote more resources. Analyzing the evidence in the veteran's 
VA claims file to ascertain what needs to be developed consumes 
significantly more time than requesting the information. NOVA believes 
it would behoove Congress to consider adding more staff to the VA 
Regional Offices to review the claims in the backlog and identify the 
evidence that needs to be developed.
    NOVA is also concerned about who would have responsibility for the 
VA claims folder once it is placed with the County Service Officers. 
For example, once the file is transferred to the County Service 
Officer, does the veteran call the VA or the County Service Officer for 
updates on the case? As this Committee is well aware over the last few 
years there have been a number of serious security breaches at the VA. 
This bill does not address how security will be maintained when cases 
are transferred to the County Service Officers. Finally, if a VA file 
is lost in the transfer process, this would result in even greater 
delay.
    County Service Officers provide excellent service to thousands of 
veterans every day. We do not believe that they should do the VA's job 
for it, however. It is unclear how this law would make the current 
process more efficient, and it would take valuable time from County 
Service Officers whose expertise will be needed more each day as our 
soldiers returning from Iraq and Afghanistan separate from service and 
apply for benefits.
H.R. 1444 INTERIM PAYMENTS FOR CERTAIN REMANDED CLAIMS

    The Need for a Remedy for Delay

        1. Remanded Claims in General
    A claimant who files a new claim for benefits that is denied by the 
VA usually faces a three- to five-year horizon before he or she 
receives a decision from the Board of Veterans' Appeals. Unfortunately, 
what many of these veterans receive from the Board of Veteran's Appeals 
is a not a final decision on their claim but a remand to the regional 
office for more development. The following statistics \1\ tell the 
story of the percentage of cases remanded by the Board each year:
---------------------------------------------------------------------------
    \1\ This data was obtained from the ``Report of the chairman of the 
board of Veterans' Appeals for Fiscal Year 2006.''
---------------------------------------------------------------------------
          (1) Fiscal Year 2003: 42.6%;
          (2) Fiscal Year 2004: 56.8%;
          (3) Fiscal Year 2005: 38.6%
          (4) Fiscal Year 2006: 32.0%
    When a veteran receives a final adverse decision from the Board of 
Veterans' Appeals, he or she has the right to appeal the case to the 
United States Court of Appeals for Veterans Claims (``CAVC''). Since 
the CAVC's creation in 1988, on average 60% to 65% of the cases that 
receive a merits determination from the Court are in turn remanded back 
to the Board. Over the last 2 years, the number of appeals to the CAVC 
has increased by about 30% each year which shows increased 
dissatisfaction with the decisions from the Board of Veterans' 
Appeals.\2\ The time the case takes in Court can range from a low of 3 
months to more than 2 years. The problem is that many claimants do not 
survive the adjudicatory process. Those claimants who do survive are 
subjected to interminable delays before the VA.
---------------------------------------------------------------------------
    \2\ This data is from the annual reports of the CAVC's and is 
available at http://www.vetapp.gov/documents/Annual--Reports.pdf.
---------------------------------------------------------------------------
        2. Remanded Claims and the Right To Expeditious Treatment
    In 1994, Congress enacted the Veterans Benefits Improvement Act. 
section 302 of the Act, Pub.L. No. 103-446,  302, 108 Stat. 4645, 4658 
(1994), which provided for expeditious treatment for veterans claims 
that were remanded from the Court of Appeals for Veterans Claims back 
to the Board of Veterans Appeals. In addition, the same Act required 
claims remanded from the Board to the Regional Offices to receive 
expeditious treatment. The statute specifically mandates that ``[t]he 
Secretary of Veterans Affairs shall take such actions as may be 
necessary to provide for the expeditious treatment, by the Board of 
Veterans' Appeals and by the regional offices of the Veterans Benefits 
Administration, of any claim that has been remanded by the Board of 
Veterans' Appeals or by the United States Court of Veterans Appeals for 
additional development or other appropriate action.'' This act was 
codified in 2003 by P. L. 108-183, Title VII,  707(a)(1), 117 Stat. 
2672 at 38 U.S.C.  5109B. It provides that ``[t]he Secretary shall 
take such actions as may be necessary to provide for the expeditious 
treatment by the appropriate regional office of the Veterans Benefits 
Administration of any claim that is remanded to a regional office of 
the Veterans Benefits Administration by the Board of Veterans' 
Appeals.'' In addition, P. L. 108-183, Title VII,  707(a)(1), 117 
Stat. 2672 codified the VBIA at 38 U.S.C.  7112 which provides that 
the Secretary shall take such actions as may be necessary to provide 
for the expeditious treatment by the Board of any claim that is 
remanded to the Secretary by the
Court of Appeals for Veterans Claims.
    The intent behind the VBIA 1994 and the subsequent statutory 
codification is clear: Congress wants those claimants who have been 
unable to get a final decision from the Board to thereafter receive 
expeditious treatment whether on remand from the CAVC or on remand from 
the BVA to the Regional Offices. The problem is the VA has failed to 
execute the will of Congress.
        3. Delay_Not Expeditious Treatment_Is the Norm
    Typically, veterans face years of delay instead of receiving the 
expeditious treatment required by Congress. Delay occurs at two 
critical junctures:

    1.  When a case is remanded from the Court to the Board, and
    2.  When the Board remands a case back to the RO and the denial is 
sustained by the RO. In this latter situation, the matter is supposed 
to retain its earlier Board docket number but most cases are assigned 
new docket numbers. Docket numbers are important because the Board is 
required to decide cases in order of their docket numbers.

    As noted above, the first significant time delay occurs when the 
cases are remanded from the CAVC to the Board of Veterans Appeals. When 
a case is remanded from the Court to the Board, the Board is required 
to allow the claimant and the representative of record 90 days to 
submit additional evidence. Once the claimant or the representative 
respond, the Board is required to render a new decision. In my 
experience, claimants are generally waiting between 6 months to a year 
for a new decision once the cases is remanded from the CAVC to the 
Board of Veterans' Appeals.
    The second situation, when the Board remands a case back to the 
Regional Office, causes far more grievous delay, especially where the 
RO grants a part of the claim, but then commits error by denying less 
than the full relief required by law. In that situation, Congress 
requires that the BVA expeditiously review the RO's decision, but often 
it does not.
    B. The Remedy--Interim Payments for Certain Remanded Claims
    As set forth above, the Secretary has not been able to make a 
decision within 180 days of a remand. In fact, in the VA adjudication 
system, the Secretary does not really have any deadlines within which 
he must make a decision.
    H.R. 1444 seeks to ameliorate the harsh effects caused by the 
remand delay by requiring the Secretary to make interim payments. NOVA 
supports this goal. Nevertheless, the language of the bill raises the 
following issues:

    1.  For some disabilities like tinnitus, the maximum rating 
possible under the VA rating schedule is only 10% which presently 
equals $115.00 per month. If a veteran files a claim for VA disability 
benefits for one of the conditions where the maximum rate payable under 
the VA rating schedule is less than $500.00 per month, this could cause 
some unintended negative consequences.
    2.  What if a veteran files claims for multiple conditions and all 
are remanded. Is there just one $500.00 payment per month for the 
veteran or is there $500.00 for each claim?
    3.  Some have suggested that the practical effect of this bill 
would be for the VA just to deny the claims outright as the 180 day 
time limit approaches. To prevent this from happening, Congress should 
define ``final decision'' and ``finally decided'' as the point in time 
when the veteran has exhausted all administrative and court appeals.
H.R. 1490 PRESUMPTION OF SERVICE-CONNECTEDNESS FOR SUBMITTED CLAIMS.
    This bill if enacted would represent a profound change in the 
manner in which VA adjudication of claims occurs. A claim filed by a 
veteran would be presumptively valid unless the Secretary determines 
there is affirmative evidence to the contrary. Once a claim is granted, 
it might not be reviewed for years because only a percentage of the 
claims granted under this provision will actually be audited. In 
addition, the bill would require the Secretary to redeploy VA personnel 
from processing and rating activities to assist veterans with their 
claims.
    NOVA believes this bill is extraordinarily veteran friendly and 
seeks to provide a solution to the claims processing delays that occur 
at the VA. We fully support the generous intent of this bill. However 
its effect is unclear.
    NOVA is concerned that one possible outcome is that the VA would 
simply change the boilerplate language in its decisions to say that 
``there is positive evidence to the contrary'' of the veteran's claim 
and the VA would deny just as many claims as it presently does. By way 
of example, under the current law, a veteran is supposed to receive the 
``benefit of the doubt'' when the evidence for and against his claim is 
in equipoise. One would assume this doctrine would lead to many granted 
claims in situations where there is no evidence for or against a 
veteran's claim, such as when his service records have been lost or 
destroyed by the VA. But this is not the case. The benefit of the doubt 
doctrine is effectively rendered meaningless due to the VA's inclusion 
of the following line in many of its decisions: ``The preponderance of 
the evidence is against the claim,'' so ``the benefit of the doubt 
doctrine is therefore not for application.'' NOVA foresees a similar 
development as a result of this bill.

                                 <F-dash>
  Statement of Ronald R. Aument, Deputy Under Secretary for Benefits, 
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify on the four bills under consideration today.

                                H.R. 67

    H.R. 67, the ``Veterans Outreach Improvement Act of 2007,'' would 
require the Secretary to establish, maintain, and review procedures for 
ensuring the effective coordination of outreach activities within the 
Department of Veterans Affairs (VA). It would also authorize VA to make 
grants to state veterans agencies for the purposes of carrying out, 
coordinating, and improving outreach and assistance in the development 
and submittal of benefit claims. In addition, states could use grant 
funds to educate and train state and local government employees who 
provide veterans outreach services in order for those employees to gain 
accreditation. H.R. 67 would also authorize VA to enter cooperative 
agreements and arrangements with state veterans agencies to carry out, 
coordinate, or improve outreach by VA and the states. Finally, this 
bill would require a separate appropriations account for VA's outreach 
activities and would authorize the appropriation of $25 million for 
each of the fiscal years 2007, 2008, and 2009 to carry out the outreach 
activities mandated and authorized by this bill.
    Although VA supports the goal of improving outreach, we believe 
that, in light of the legislative changes made by Congress last year 
and recent VA-initiated changes in outreach coordination, Congress 
should allow VA to implement and assess these changes before taking 
additional measures.
    First, VA believes the provision mandating procedures to ensure the 
effective coordination of VA outreach activities is unnecessary because 
VA is already taking steps to improve outreach coordination. For 
example, in August of 2005, Secretary Nicholson established the Office 
of National Outreach Programs (Office), which is charged with working 
with VA's administrations and staff offices to coordinate and monitor 
major VA outreach efforts to ensure veterans and their families have 
timely access to information regarding VA benefits and services. The 
Office is also responsible for developing and implementing 
administrative and operational policies related to outreach.
    The Office coordinates with VA's senior leaders and the 
communications offices in the Veterans Health Administration (VHA), 
Veterans Benefits Administration (VBA), and National Cemetery 
Administration (NCA) to develop national, regional, and local outreach 
plans to inform specific veteran populations, their families, and 
service providers of VA benefits and services.
    Additionally, on March 6, 2007, President Bush issued an Executive 
Order establishing the President's Commission on Care for America's 
Returning Wounded Warriors (Commission). One of the four missions of 
the Commission is to ``analyze the effectiveness of existing outreach 
to service Members regarding such benefits and services, and service 
Members' level of awareness of and ability to access these benefits and 
services, and [to] identify ways to reduce barriers to and gaps in 
these benefits and services[.]'' We expect the Commission's findings to 
be useful in helping us to identify and address gaps in our outreach 
activities.
    We believe H.R. 67's requirement that VA annually review procedures 
for ensuring effective coordination of outreach is unnecessary because 
38 U.S.C.  6302 and 6308, which were added to title 38, United States 
Code, just last year, require VA to establish a biennial outreach plan 
and report to Congress on the implementation of the plan, including 
recommendations to improve outreach. The first outreach plan is due on 
October 1, 2007, and our first report is due to Congress no later than 
December 1, 2008. In addition, section 805 of Public Law 108-454 
requires VA to conduct a survey and report to Congress on service 
members', veterans', family Members', and survivors' awareness of the 
benefits and services provided by VA; the findings of the survey will 
be submitted to Congress in 2010. In view of the plans and reports 
currently required by law, the imposition of additional requirements is 
unnecessary.
    Second, H.R. 67's requirement to condition grants to state veterans 
agencies on provision of assistance to programs in locations with large 
or growing veteran populations would not provide VA sufficient 
flexibility to reach other deserving veteran populations, such as rural 
or smaller communities. Furthermore, we are not convinced that this 
program would be the most efficient use of the $25 million per year the 
bill would authorize. If Congress decides to provide money to perform 
outreach to veterans, it should also give VA the flexibility to reach 
out to all veterans, not just those in large or growing veteran 
communities.
    If funds are appropriated as authorized, enactment of H.R. 67 would 
cost $75 million over fiscal years 2007-2009. We estimate 
administrative costs involving two additional full-time employees at 
the GS11/12/13 level and $250,000 per year for travel, materials, 
training, and so forth., to administer the grants program.

                               H.R. 1435

    H.R. 1435, the ``Department of Veterans Affairs Claims Backlog 
Reduction Act of 2007,'' would require VA to conduct in California, 
Florida, Ohio, South Carolina, and Texas a 3-year pilot program whereby 
claims identified by VA as needing further development would be 
referred to a County Veterans Service Officer (CVSO) for further 
development and transmitted back to VA in ready-to-rate condition. This 
bill would also permit benefit claims to be submitted to CVSOs under 
the pilot program and require such claims to be treated as if received 
by VA. In authorizing a CVSO to develop a referred claim, the bill 
would require the CVSO to advocate for the claimant and ``work through 
and in cooperation with'' any veterans service organization appointed 
as the claimant's representative. Under the pilot program, CVSOs would 
have full access to veterans' information in VA's Benefits Delivery 
Network as well all appropriate electronic files concerning the 
claimant whose claim has been referred to development. Finally, this 
bill would require VA to report to Congress the effect the pilot 
program had on reducing the claims backlog and would authorize to be 
appropriated for each participating state such funds as may be 
necessary to carry out the pilot program.
    Although reducing the backlog of pending claims is one of VA's 
highest priorities, VA opposes enactment of H.R. 1435 for several 
reasons.
    First, under current law, accredited representatives of 
organizations recognized by VA, including CVSOs, may prepare and 
prosecute benefit claims. In fact, developing evidence to the point 
that claims are ready to be rated by VA is already one of the main 
responsibilities of these claim representatives. Therefore, in this 
respect, this bill would result in Federal funds going to just one 
category of representatives for performing responsibilities they 
already have.
    Second, VA is concerned that the pilot program may potentially 
adversely affect VBA's adjudication workload. Currently, nearly 20 
percent of VBA's adjudication workload is from the five states chosen 
in the bill to participate in the pilot program. If unforeseen problems 
arise during the course of the pilot program, claim processing could be 
disrupted.
    Third, to the extent this provision is intended to facilitate claim 
filing, VA has already created a faster, safer, and more efficient 
means. Today, a claimant can file a claim for benefits electronically 
over the Internet. This service allows a claimant to file from any 
Internet-enabled computer, creating greater access and eliminating the 
need to personally appear at a VA office or mail a claim. However, 
claimants who choose not to use this service still have the option of 
filing a claim in person at a local regional office or mailing the 
claim directly to VA, thus eliminating the need to file it with a CVSO.
    Fourth, CVSOs are funded by state or local tax revenues to benefit 
local veterans on behalf of the state or local taxpayers. This bill 
would authorize Congress to appropriate funds to support CVSOs involved 
in the pilot program. We believe that any additional funds for claim 
processing should be to support VA staff who are not only accountable 
to VA, but who also serve all veterans, not just those living in areas 
that provide CVSO representation.
    Fifth, VA is concerned that the bill may conflict with 
representation agreements entered into between claimants and their duly 
appointed claim representatives, including attorneys, agents, or 
Veterans Service Organization representatives. The bill appears to 
undercut the role of a claim representative appointed by the claimant 
because it would, in effect, create a dual system of representation by 
making the CVSO the claimant's advocate. Dual representation would 
create confusion and would be inefficient because representatives 
chosen by claimants and CVSOs developing claims under this bill would 
likely duplicate efforts. VA may be required to send additional notice 
letters, thereby reducing efficiency, and VA would nonetheless be 
required to fulfill its notice and claim development obligations under 
current law.
    Finally, this bill's authorization of appropriations concerns us 
for two reasons. First, the bill is unclear how the costs of the pilot 
program are to be determined. For example, do the costs include the 
salaries and benefits provided to CVSOs? Do they include overhead such 
as rent and office supplies? If that is the case, then the bill would 
effectively shift a cost currently funded by state and local tax 
revenues to the Federal government. Additionally, we are not sure of 
whether state and local computer systems are able to support the 
information-technology security programs mandated for VA computers, the 
costs associated with bringing them into compliance, and who would be 
responsible for such costs.
    More importantly, however, this bill mandates the pilot program be 
carried out in six states but only authorizes appropriations. If 
additional appropriations are not made to fund the pilot program, then, 
presumably, resources must be taken from VBA's General Operating 
Expense appropriation. If that were to occur, VBA would be forced to 
reallocate resources to pay for the pilot program. VBA would have to 
either take funds from allocations for states not participating in the 
pilot program and reallocate them to cover the cost of the pilot 
program in participating states or reduce funding to VBA activities in 
the participating states and reallocate them to CVSOs participating in 
the pilot program. The former alternative would be unfair to veterans 
not living in a participating state, and the latter would hurt the 
timeliness of adjudication of claims in the participating states 
because fewer VBA personnel would be available to rate claims.
    VA estimates that it would cost $69 million to conduct the 3-year 
pilot program created by H.R. 1435.

                               H.R. 1444

    H.R. 1444 would require VA to pay an interim benefit in the amount 
of $500 per month if a claim for benefits has been remanded by the U.S. 
Court of Appeals for Veterans Claims or the Board of Veterans' Appeals 
in ``a case'' involving a claim for disability compensation, pension, 
or dependency and indemnity compensation, and VA does not decide ``the 
matter'' within 180 days of the date of the remand. It would require VA 
to pay $500 per month to ``each claimant under the claim'' until ``the 
matter'' is finally decided. When a claim for which interim benefits 
are being paid is finally decided, amounts paid as interim benefits are 
to be considered an advance payment of benefits owed for any period 
before the date of the final decision if the claim is granted. In no 
case are amounts paid as interim benefits to be considered an 
overpayment. H.R. 1444 would also require VA to report to Congress, not 
later than 6 months after the date of enactment, on measures VA intends 
to take to expedite the processing of remanded benefit claims.
    VA opposes this bill for several reasons. First, it would create an 
incentive to submit claims of dubious merit, obtain a remand, and 
extend the claim-development process by piecemeal submission of 
information and evidence and multiple requests for extension of 
deadlines, for as long as possible in order to maximize the amount of 
interim benefits payable. A claimant's cooperation with VA can reduce 
the time it takes to resolve a remanded claim. Inversely, a claimant's 
lack of cooperation can delay the resolution of a claim. The law 
requires many procedural steps in developing and deciding claims and 
often provides substantial minimum periods in which claimants are 
required to respond to requests for information or evidence. There are 
also generous provisions for requesting extensions of deadlines. H.R. 
1444's requirement that VA pay interim benefits and permission for 
claimants to keep them regardless of whether they are ultimately found 
to be entitled to the amounts already paid or entitled to benefits at 
all would create a strong financial inducement to making the 
development time last as long as possible.
    By allowing claimants to retain interim benefits that would not 
have been paid but for this provision, this bill would in effect punish 
taxpayers for untimely decisions. Further, it is unlikely to improve 
adjudication timeliness because it does nothing to alleviate the causes 
of adjudication delay. We believe the President's budget provides VA 
the necessary resources to achieve VA's production goals.
    Finally, the interim benefit of $500 is approximately the amount 
paid to a single veteran with a service-connected disability rated at 
40 percent (currently $501 per month). However, in fiscal year 2005, 
nearly 60 percent of all veterans receiving disability compensation had 
a combined rating of 30 percent or less. Given that two-thirds of 
remanded claims are eventually denied and that nearly 60 percent of 
claimants entitled to disability compensation receive between $115 and 
$348 per month, the interim benefit rate of $500 per month is 
artificially high and would likely unjustly enrich many disability 
compensation claimants.
    VA estimates that enactment of H.R. 1444 would result in a cost of 
$46.2 million during the first year, $112.9 million for 5 years, and 
$180.1 million over ten years.

                               H.R. 1490

    H.R. 1490 would require VA to presume that a claimant presenting a 
claim for benefits with respect to service-connected disability or 
death has presented a valid claim of ``service-connectedness'' provided 
that the claimant supports the claim with proof of service ``in a 
conflict'' and a description of the nature (including the connection to 
such service) of the disability or claim. VA would not have to presume 
the validity of the claim if VA determines there is positive evidence 
to the contrary. H.R. 1490 would also require VA, immediately upon 
processing the claim, to award benefits at a ``median level'' for the 
type of disability described in the claim until the appropriate level 
of benefits is determined. The bill would also require VA to audit a 
percentage of claims to uncover and deter fraud. These provisions would 
apply to claims ``presented'' on or after the date of enactment and to 
claims still pending or not fully adjudicated as of the date of 
enactment. Finally, the bill would require VA to redeploy claim-
processing personnel who are no longer needed to evaluate service-
connection claims to Vet Centers or other locations for the purpose of 
assisting veterans apply for benefits related to service-connected 
disabilities.
    VA opposes H.R. 1490. Under current law, a claimant has the 
responsibility to present and support a claim for benefits. The basic 
elements necessary to establish a claim for service-connected 
disability compensation are: (1) the existence of a present disability; 
(2) in-service incurrence or aggravation of a disease or injury; and 
(3) a causal relationship between the present disability and the 
disease or injury incurred or aggravated during service. H.R. 1490 
appears to require VA to presume that all elements of the claim have 
been established based on the assertions of the claimant; thus, the 
only thing for VA to determine is the appropriate level of benefits. It 
is not clear whether VA would be expected, or permitted, to conduct any 
development to determine whether there is positive evidence to overcome 
the presumption.
    While VA supports getting benefits into the hands of deserving 
claimants as soon as possible, VA opposes H.R. 1490 for several 
reasons. First, VA is concerned that a presumption of service 
connection creates an incentive to file invalid claims, especially when 
benefits would be paid without appropriate claim development. If the 
intent is for VA to presume any current disability is service connected 
based on the veteran's statement without any supporting documentation 
or verification, then the system would be ripe for fraud and abuse. If 
VA audited as many as 25 percent of claims to determine whether the 
claimed disability is in fact service connected, an unscrupulous 
claimant would still have excellent odds of obtaining and retaining 
benefits based on an invalid claim.
    Second, by making immediate payments upon processing of a claim, VA 
may in many cases pay benefits to claimants whose claims would not be 
granted if fully developed and, in many other cases, may pay benefits 
at a rate ultimately determined not to be warranted. Furthermore, this 
bill gives no guidance as to whether Congress intends for an 
overpayment to be assessed and recouped from a claimant if the true 
benefit rate proves to be less than the median level of payments made. 
Failure to asses and recoup overpayments would increase the incentive 
to file a marginal or invalid claim. On the other hand, frequent 
creation of overpayments and a resulting need to collect them would 
divert VA resources from other claim-adjudication activities.
    Third, one of the predicates to the presumption of service 
connection under this bill would be proof of ``service in a conflict.'' 
The meaning of this term, which is not defined in the bill or in title 
38, United States Code, is uncertain. For example, it is unclear 
whether it is intended to refer to service in combat, service in 
wartime, or service in a theater of operations. The meaning of the term 
would affect the scope of the presumption of validity.
    Fourth, this bill would have major, apparently unintended, 
consequences for the veterans health-care system. Any veteran whose 
disability compensation claim is presumed valid and who is awarded a 
median rating under this provision would be eligible for VA health 
care. In fact, VHA estimates that 3.2 million new Priority 8 veterans 
who are not currently eligible to enroll would become eligible for VA 
health care. Of further concern is the effect on such a veteran if he 
or she is later determined not to be entitled to disability 
compensation. Such a veteran would then have to be disenrolled from 
care. Apart from the potential disruption of care, it is unclear 
whether a veteran would be financially liable for medical care received 
while entitled to compensation based on the presumption if the veteran 
is later found not to be entitled to compensation. In addition, subject 
to the existence of an employment handicap, veterans awarded 
compensation under the provisions of this bill may become eligible for 
vocational rehabilitation and employment benefits.
    Fifth, to the extent the bill is intended to simplify the 
adjudication process and free up resources, we question whether any 
reduction in claim-processing staff would be realized. Even if all 
elements of the claim are presumed to be met based on the veteran's 
statements, a likely significant increase in the total number of claims 
received and the burden of dealing with audited claims would likely 
consume any savings from not fully developing claims.
    Furthermore, even if savings in claim processing were to occur, VA 
is concerned with the bill's apparent contemplation that claim-
processing personnel be redeployed to Vet Centers. The Vet Center 
program has a specific and unique function to provide outreach and 
adjustment counseling to war veterans and to assist them in a 
successful social and psychological readjustment to civilian life. 
Furthermore, Vet Centers currently provide veterans with information 
about VA benefits and refer them to VA benefits counselors or veterans' 
service officers for assistance with benefit claims. We are concerned 
that placing claim-processing personnel in Vet Centers would not be 
consistent with the goals and functions of the Vet Centers.
    Assuming that all original and reopened compensation claims 
projected in the FY 2008 President's Budget submission are granted 
under the presumption for service connection, obligations may increase 
by as much as $173 billion over 10 years. This projection applies the 
average payment projections included in the budget model and does not 
include an expected increase in the number of claims received or an 
increase in the number of issues filed per claim. The mandatory costs 
do not include anticipated increases for the Vocational Rehabilitation 
and Employment account. With the increase in compensation 
beneficiaries, the number of veterans rated 20 percent or more would 
increase. These veterans would become eligible for Vocational 
Rehabilitation and Employment benefits resulting in increased mandatory 
spending. As mentioned earlier, this bill would apply only to veterans 
with ``proof of service in a conflict referred to in such claim.'' If 
this term is further defined, it may result in a decrease in the 
overall mandatory costs.
    This concludes my statement, Mr. Chairman. I would be happy to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                 <F-dash>
  Statement of Kimo S. Hollingsworth, National Legislative Director, 
                       American Veterans (AMVETS)
    Mr. Chairman and Members of the Subcommittee, thank you for holding 
this hearing and providing American Veterans (AMVETS) the opportunity 
to testify regarding pending claims legislation.
    As this Committee is aware, AMVETS hosted the ``National Symposium 
for the Needs of Young Veterans'' in Chicago, Illinois last year. More 
than 500 veterans, active duty and National Guard and reserve 
personnel, family Members, and others who care for veterans examined 
the growing needs of our returning veterans. Some of the issues 
relevant to today's hearing identified at the Symposium include the 
claims backlog and seamless transition. AMVETS believes these issues 
are inextricably linked.
    The Department of Veterans Affairs (VA) claims backlog is a 
relatively old issue that is complicated and multi-faceted. Currently, 
the backlog is way over the 600,000 mark and it continues to grow at a 
rapid rate. Rather than making headway and overcoming the chronic 
backlog, VA has lost ground on the problem. By VA's estimates, over 
263,000 Operation Enduring Freedom (OEF)/Operation Iraqi Freedom (OIF) 
veterans will seek VA services; most of them will want to file a claim. 
Secretary Nicholson has said that reducing the backlog is one of VA's 
highest management priorities.
    The reasons for the claims backlog are many--veterans repeatedly 
filing claims, a lack of quality control, misplaced or lost 
documentation and a lack of staffing. Overall, AMVETS believes that a 
lack of quality control is central to this issue. VA must establish a 
long-term strategy focused on attaining quality and not merely 
achieving quotas in claims processing. Veterans Benefits Administration 
(VBA) can greatly reduce the backlog by hiring more staff, initiating 
quality training programs, and most importantly, instituting an 
accountability program.
    Equally important, Congress must ensure that VA and the Department 
of Defense (DOD) are held accountable for ensuring a seamless 
transition. Congress directed VA and DOD to collaborate on health care 
issues 25 years ago when it passed Public Law 97-174. Congress should 
encourage the continued collaboration and sharing of health care issues 
to include the standardized use of electronic medical records. VA and 
DOD collaboration in the area of electronic medical records has a 
direct impact on the VA claims backlog issue.
    AMVETS fully understands that the VA and DOD are two distinct and 
separate health care systems. While there has been progress in the 
sharing of electronic data between the two agencies, progress is still 
limited. The technology is clearly available for complete electronic 
medical records collaboration, and now is the time for this to become a 
system-wide reality.
    Despite years of collaboration on a single separation physical and 
the development of the Benefits Delivery at Discharge exam (BDD), the 
Department of Defense (DOD) and VA still conduct separate separation 
physicals and separate compensation and pension exams. Furthermore, 
separation physicals are still not mandatory. Congress should require 
the DOD to conduct mandatory separation physicals and also require DOD 
to utilize the BDD that was jointly developed and agreed to by both 
agencies. The effective Benefits Delivery at Discharge joint physical 
was successfully demonstrated from 1995 through 1998 and still isn't 
universally adopted.
    In addition, AMVETS would encourage the VA to expand the practice 
of putting adjudication officers in VA offices aboard active duty 
military bases. For example, VA has an office aboard Camp Lejeune, NC. 
The office is staffed with qualified contract medical personnel and 
full-time VA claims adjudicators. Separating servicemembers are 
provided compensation exams on base. Many claims are adjudicated and 
issued a temporary rating decision pending receipt of a DD-214. Once 
discharged, many new veterans are receiving compensation and disability 
benefits within 30 days of final release from active duty. Addressing 
the issue of filing a claim when a servicemember begins the separation 
process is a crucial first-step and a lasting, long-term solution to 
reducing the VA claims backlog.
    As the number of OEF/OIF veterans continues to grow, so will the 
number of VA claims. I truly believe that we are now near a 
``culminating point'' that will determine the future of VA claims for 
generations to come. Claims backlogs have spanned several 
Administrations and it is clear that the VA is either unwilling or 
unable to resolve this issue.
    While veterans, the VSOs, the VA and the Congress all share 
responsibility for this debacle, what is very clear is that 
congressional intervention is now necessary. It is also very clear that 
the Department of Defense (DOD) has been absent in sharing 
responsibility for the backlog of VA claims. DOD must be forced to 
comply with congressional intent with regards to Seamless Transition. 
If Congress does not intervene, the system will fail.
    The VSOs must also ensure that all veterans understand the claims 
process, the timeframes involved, and the evidentiary requirements the 
veteran must meet. The VA must implement technological changes into the 
claims process (move from paper filing to electronic filing). VA also 
needs more, and better trained, claims adjudicators. Finally, VA needs 
``buy-in'' from DOD--veterans are still making hard copies of their 
medical records and having to hand delivered them to the VA. This is 
unacceptable!
    Regarding the legislation pending before the House Committee on 
Veterans' Affairs, AMVETS is supportive of H.R. 1444, legislation to 
direct the Secretary of Veterans Affairs to make interim benefit 
payments under certain remanded claims, and H.R. 1490, legislation to 
provide for a presumption of service-connectedness for certain benefits 
claims. Both of these bills provide the Secretary of Veterans Affairs 
with authority to essentially start providing disability and 
compensation benefits for claims against the government, pending a 
favorable rating decision.
    Provided the department issues reasonable implementation guidance, 
the bills could assist veterans receive benefits for claims that have a 
high degree of being awarded. While these legislative proposals may not 
directly aid in reducing the immediate backlog, the bills serve to 
provide veterans financial and possibly medical relief while waiting 
for a determination by the department.
    Although AMVETS fully supports the intent of H.R. 67, the Veterans' 
Outreach Improvement Act, we are concerned that this legislation is 
moving VA toward implementing yet another ``unfunded mandate'' on the 
department. AMVETS believes that VA has a demonstrated history of 
effective outreach. This legislation authorizes a total of $75 million 
over a 3-year period, for what appears to serve as a ``pass-through'' 
for Federal dollars to fund state and veterans county service programs. 
Overall, outreach activities attempt to provide prevention information, 
education, counseling, referrals and treatment options to targeted 
populations rather than wait for an individual to actively seek out 
services. While AMVETS is sensitive to the plight of veterans and their 
families and supports the intent of this legislation, we are concerned 
that it holds the potential to steer critical funding away from health 
care.
    Regarding H.R. 1435, the Claims Backlog Reduction Act, AMVETS would 
like to share several observations. Provided VA will train and accredit 
allowing full access to files in the Benefits Delivery Network, this 
could be a positive step in assisting veterans and VSOs in developing 
claims. However, generally speaking, State and County Veterans Service 
Officers are required to accept and submit all claims they receive. 
AMVETS believes that this obligation to accept any and all claims will 
actually result in growing the backlog instead of helping.
    Moreover, many state and local governments prevent State and County 
Veteran Service Officers from accepting a power of attorney to act as a 
custodian on behalf of the state or county. Most are certified or 
accredited through one of the several Veteran Service Organizations 
(VSO) and are generally allowed to act as the custodian based on this 
accreditation. Passing this legislation will ultimately require a State 
or County Veteran Service Officer the authority to accept a power of 
attorney with the legal representation/custodian being the state or 
county.
    Last, AMVETS believes that a review of claims backlog legislation 
would be incomplete without a discussion of Congress' authorization of 
private attorneys to access VA and charge veterans for representation 
in veterans' disability claims. The Veterans Benefits Administration 
has indicated allowing attorneys to represent veterans will only 
complicate and lengthen the resolution of veterans' disability claims. 
Despite these findings, Congress ignored the recommendation of VA and 
the VSOs and passed legislation to allow private attorneys to represent 
veterans during the claim process.
    AMVETS has 58 National Service Officers located across the country 
whose sole job is to aid veterans with their claim. We do provide--free 
of charge--a more thorough and complete representation for veterans and 
their families. We do not have any financial interests in a claim, and 
our National Service Officers know the Veterans Benefits Administration 
system. Recently, the Board of Veterans Appeals released its Fiscal 
Year 2006 Report. Out of the major VSOs, AMVETS has the lowest numbers 
of appeals submitted. Ultimately the report proves that organizations 
like AMVETS are filing well-developed and meaningful claims. Allowing 
attorneys to represent veterans will most likely complicate the process 
by legal maneuvering in lieu of good sound claim development. AMVETS 
asks that this Committee review its decision, and rescind this law.

                                 <F-dash>
 Statement of Brian Lawrence, Assistant National Legislative Director, 
                       Disabled American Veterans
    Mr. Chairman and Members of the Subcommittee:
    On behalf of the 1.3 million Members of the Disabled American 
Veterans (DAV), I appreciate the opportunity to express our views on 
the following bills which were considered during the Subcommittee 
hearing on April 17, 2007.

         H.R. 67, the Veterans Outreach Improvement Act of 2007

    This legislation would direct the Department of Veterans Affairs 
(VA) to establish procedures for effective coordination of outreach 
activities between the various offices and administrations within VA, 
and to ensure that state and local outreach assistance is provided in 
locations that have large concentrations of veterans or are 
experiencing growth in veteran populations. It would also authorize the 
VA to make grants to state veteran agencies for state and local 
outreach services. The bill would authorize $25 million to be 
appropriated annually through fiscal year 2009 for the outreach efforts 
and grants.
    The DAV understands the importance of reaching out to veterans to 
inform them of benefits to which they may be entitled, and expends 
considerable resources in this regard. Both the DAV Veterans' 
Information Seminar program and the DAV Mobile Service Office (MSO) 
program are designed to educate disabled veterans and their families on 
veterans' benefits and services. In both programs, highly trained 
Members of DAV National Service Officer Corps provide service deep 
within veterans' communities across the country to counsel and assist 
veterans in completing applications for benefits from the VA and other 
government agencies.
    While outreach is important, we believe a higher budget priority 
for VA is to decrease the number of backlogged VA compensation claims. 
Therefore, the $25 million that would be authorized by H.R. 67 for 
outreach would be better utilized if it was put toward a program that 
would help reduce the backlog. For instance, the Benefits Delivery at 
Discharge (BDD) is a program that assists servicemembers at 
participating military bases with development of VA disability 
compensation claims prior to release from active duty. The discharge 
physical is conducted under VA disability examination protocols either 
by VA medical staff, contract medical examiners or military personnel. 
BDD fosters a seamless transition from the military to the VA system 
and accelerates claims for compensation.
    Many questions also arise as to how H.R. 67 would be established. 
For instance, it would apparently press certain local government 
officials into Federal service without any involvement or agreement by 
their employers.
    In summary, the DAV does not oppose H.R. 67, but we would prefer to 
see its proposed funding directed toward the more urgent need for 
resources within the VA claims processing system.

H.R. 1435, the Department of Veterans Affairs Claims Backlog Reduction 
                              Act of 2007

    This legislation would establish a 3-year pilot program in an 
effort to reduce the backlog of pending claims for VA benefits. More 
specifically, it would require the VA to refer certain claims needing 
further development to County Veterans Service Officers (CVSO) in 
California, Florida, Ohio, South Carolina, and Texas. CVSO staffs would 
act as claimant advocates in developing such claims, and would be 
granted access to client information contained in the VA Benefits 
Delivery Network.
    The DAV is strongly opposed to this legislation. It is the Federal 
government's responsibility to provide benefits and services to Members 
of the Armed Forces. The VA is the agency that administers such 
benefits, and it does so effectively for health care, insurance and 
memorial affairs. But because the VA has efficiency problems within its 
claims processing system, its responsibility for assisting veterans 
with the development of their claims should not be shifted to local 
government officials. Veterans may currently enlist the help of a CVSO 
as a designated power of attorney (POA) for representation in a claim 
if they wish, but they are not required to do so. Requiring CVSO 
representation would be unfair to veterans who may choose to grant POA 
to a number of other veterans' service organizations that employ 
service officers that, in many instances, receive more extensive and 
superior training than is available to a CVSO. Additionally, because 
the need for further claims development often translates to the need 
for a more thorough VA medical examination, channeling the process 
through a CVSO would be an added, unnecessary step that would increase 
veterans' waiting times and add to the backlog. Further consideration 
should also be given to the security of veterans' highly sensitive and 
personal information, and the problems this bill might create in that 
regard.
    The DAV has for the past several years brought attention to the 
problems that have been steadily building within the VA claims 
processing system. Along with identifying the sources of these 
problems, we have offered solutions to reduce the backlog and restore 
efficiency to the claims processing system. I would refer Members of 
the Subcommittee to our prior testimonies on this issue, including our 
recent statement on the fiscal year 2008 budget for VA, which provides 
the core steps that must be taken to address the claims backlog 
problem.
    While we appreciate the Subcommittee's consideration of innovative 
methods to address the problems within VBA, the DAV does not believe 
this bill presents a sound idea and we encourage the Subcommittee to 
reject it.

                               H.R. 1444

    This legislation would require the VA to pay an interim benefit of 
$500 per month when a claim for veterans' benefits is remanded by 
either the U.S. Court of Appeals for Veterans Claims or the Board of 
Veterans' Appeals and the VA does not make a decision on the matter 
within 180 days of the date of the remand.
    The DAV appreciates the Subcommittee's effort to provide financial 
relief to veterans whose claims have been on appeal for some time, but 
we do not support this legislation. If enacted, this bill could lead to 
abuse of the system by some who might deliberately delay the appeal 
process in order to obtain the maximum amount of interim benefits. A 
number of procedural steps are in place to allow veterans adequate time 
to develop evidence to support claims appeals, and extensions of 
deadlines are also available for veterans to submit evidence. Such 
protections could be manipulated to maximize the amount of interim 
payments by dragging an appeal out as long as possible. Therefore the 
DAV opposes this well intended but flawed legislation.

                               H.R. 1490

    This legislation would provide a presumption of service connection 
to veterans presenting a claim for VA disability compensation or death 
benefits. Immediately upon processing the claim, VA would award 
benefits at a median level for the type of disability until the 
appropriate level of benefits is determined. The bill would also 
require VA to audit a percentage of claims to uncover and deter fraud. 
It would direct VA to redeploy, for the purpose of assisting veterans 
applying for benefits, those employees involved with processing claims 
that are no longer needed to evaluate claims due to the above 
presumption.
    The DAV does not support the idea of presumption of service-
connectedness for submitted claims. The laws and regulations 
formulating the VA ratings system are complex and veterans would both 
knowingly and unknowingly file meritless claims for benefits. The 
resulting penalties and overpayments would create a hardship for those 
who were audited, and the massive increase in mandatory funding that 
would certainly follow enactment of this legislation would place undue 
hardship on taxpayers because a large percentage of benefits paid would 
be unwarranted.
    The DAV appreciates the Subcommittee's consideration of innovative 
ways to address the longstanding problems within the VA claims 
processing system. However, we believe that addressing the issue will 
require measured steps to correct the problems at their core. VA needs 
adequate resources to hire an adequate number of full time employees. 
It requires resources to establish a comprehensive training program to 
bring new employees up to the standard of knowledge that will allow 
them to rate claims properly; and finally, VA needs to hold employees 
accountable for their work. Emphasis should be placed on quality as 
well as efficiency. Employees who fail to meet a specified level of 
accuracy should be required to take remedial training. Should accuracy 
problems remain after remedial training, the employee should be removed 
from a decisionmaking position and either terminated or relocated to a 
position that can be adequately fulfilled. VA should have the authority 
to make such changes so that our Nation's disabled veterans and their 
families can rely on a VBA that measures up to other administrations 
within the VA.
    Mr. Chairman and members of the Subcommittee, the DAV appreciates 
the opportunity to submit our views for the record. We look forward to 
our continued work with the Subcommittee to serve our Nation's disabled 
veterans and their families.

                                 <F-dash>
Delayed Benefits Frustrate Veterans
Hundreds of Thousands of Disability Claims Pending at VA; Current Wars 
        Likely to Strain System Further

                                           Washington Post Article,
                                                      April 8, 2007

By Christopher Lee
Washington Post Staff Writer
Sunday, April 8, 2007; A04

    In his last years, World War II veteran Seymour D. Lewis would 
stand at the door of his home in Savannah, Ga., waiting for a letter 
that never arrived.
    The family of the former Army private, who lost the hearing in his 
right ear to a grenade explosion in basic training in 1944, spent years 
wrestling with the federal bureaucracy for his disability benefits, at 
one point waiting more than a year just to be told to fill out more 
forms.
    In 2001, the Department of Veterans Affairs started sending Lewis a 
monthly check for $200, an amount he appealed as too little and too 
late for the lasting physical sacrifice he made for his country, his 
family said. The appeal was still pending when Lewis died last year at 
age 80.
    ``Every time I would call, they would send me a new form to fill 
out, with exactly the same information that they already had,'' said 
his son Frank A. Lewis, 61, a Navy veteran. ``They run you around. They 
keep you dangling. . . . My father was elderly. He would wait at the 
front door for the mailman, waiting for something from the VA. When he 
would get a letter, he would anxiously open it, and when it said 
nothing, the depression he would go into was unreal. I have a feeling 
they were just waiting for my father to drop dead so they wouldn't have 
to pay any money. It's been one big nightmare.''
    Hundreds of thousands of veterans, many approaching the winter of 
their lives, await VA disability claim decisions that will provide or 
deny a key source of income. The monthly payments, which range from 
$115 to $2,471 for individuals, are available to veterans of any age 
whose disability is ``a result of disease or injury incurred or 
aggravated during active military service,'' according to the Veterans 
Benefits Administration.
    Nearly 400,000 disability claims were pending as of February, 
including 135,741 that exceeded VA's 160-day goal for processing them. 
The department takes 6 months, on average, to process a claim, and the 
waiting time for appeals averages nearly 2 years.
    This already strained system may grow more overburdened in years 
ahead as many of the troops deployed to Iraq and Afghanistan return 
from those wars, experts say. VA gives veterans from the current 
conflicts top priority in claims processing.
    ``The projected number of claims from the wars in Iraq and 
Afghanistan will rapidly turn the disability claims problem into a 
crisis,'' said Linda J. Bilmes, a Harvard University professor of 
public policy who has studied the claims process and met with VA 
Secretary Jim Nicholson last month to discuss ways to improve it. 
Bilmes, who noted that those officially wounded in combat would be a 
small percentage of new veterans applying for compensation, estimated 
the long-term cost of providing them disability benefits at $70 billion 
to $150 billion.
    Presidents, Members of Congress and VA leaders have long promised 
to eliminate the backlog, but still the veterans wait. Some depict a 
cultural problem at VA--an attitude of indifference or hostility among 
claims workers, a lack of appreciation for veterans' service reflected 
in snubbed phone calls, slow answers and repetitive paperwork. Some 
even believe the delays are deliberate, a way to keep costs down by 
deterring new claims or postponing awards until older veterans die.
    ``Once we can no longer be utilized as a soldier, we are of no use 
to them,'' said Michael Foley, 52, a former Navy intelligence 
specialist who served in Vietnam and Cyprus during the seventies. 
``There is an impression of indifference when you are dealing with the 
VA benefits people. They are going to get a paycheck no matter what.''
    Foley has trouble sleeping and endures nightmares from things he 
saw in the service. The Thomasville, N.C., resident said he is in 
therapy for post-traumatic stress disorder, but VA denied the 
disability benefits claim that he filed more than 2\1/2\ years ago. He 
has appealed. Foley also wants VA compensation for a heart procedure in 
2004 that he says left him in the hospital for 137 days with 
complications that included a paralyzed right leg.
    ``A lot of people think all veterans want a handout. That's not 
it,'' said Foley, who is unemployed and lives on less than $1,100 a 
month, including a $240 VA pension. ``When I was in the Navy, they 
asked me to do things. At the time, it was exciting. My grandfather 
warned me that this was going to come back and bite me . . . 1 day. And 
it has. I lost my job, my house and everything else.''
    Ronald R. Aument, VA deputy undersecretary for benefits, 
acknowledged that the department needs to do better, but he rejected 
the idea that the delays and denials are motivated by money concerns.
    ``It's not as though we're working on commission here,'' Aument 
said. ``There is very much a shared passion in this organization in 
trying to do right by veterans. . . . As far as whether or not we treat 
people rudely, I would certainly hope that's just an exception as 
opposed to the rule.''
    The department fields 7 million phone calls about disability claims 
each year, he said. Forty-eight percent of the workers who handle 
claims are veterans. In part, the process is slow so that veterans have 
time to submit documents and other evidence bolstering their cases, 
Aument said.
    The VA load is getting heavier. Disability-related claims rose to 
806,000 in 2006--a 39-percent increase from the claims filed in 2000. 
The work force handling them grew by 36 percent over the same period, 
to 7,858 employees. VA officials expect 800,000 new claims this year.
    Veterans' disabilities are also growing more complex, with 
increasing claims for PTSD, diabetes (often tied to herbicide exposure 
in Vietnam) and multiple ailments. As the veteran population grows 
older, those who suffer from chronic, progressive conditions--heart, 
joint and hearing problems, for example--file repeat claims, which 
account for more than half of all claims, VA says.
    Earl Armstrong, 87, a former Army technician from Ravenna, Ohio, is 
a repeat filer.
    Armstrong drove an armored vehicle and won a Purple Heart and a 
Bronze Star while serving under Gen. George Patton in France and 
Germany in 1944. He suffers from PTSD and persistent ringing in his 
ears, the latter from the machine gun that was mounted a few feet from 
his head, he said. The problems have worsened, and for 3 years 
Armstrong and his wife have tried to persuade VA to raise his 
disability rating from 50 percent to 100 percent, which would more than 
triple the couple's $781 monthly compensation to $2,610.
    ``I am sick of the VA and the way they've been treating us,'' 
Armstrong said. ``I can't understand it. There's too many [claims], I 
guess, and they don't have enough people to handle them.''
    VA handed out $34.5 billion in disability payments to more than 3.5 
million veterans and their survivors last year. Aument said VA has 
increased its claims workforce by more than 580 people in the past year 
and plans to hire more than 400 additional staff by June. ``The 
cornerstone of our long-term strategy is to develop more processing 
capacity,'' he said.
    It is too early to predict whether there will be a ``huge surge'' 
of claims from Iraq and Afghanistan veterans, Aument said, and claims 
for severe disabilities such as lost limbs are those VA can process 
fastest. Still, some older veterans say their younger counterparts are 
in for a rude awakening when they apply.
    Army veteran Raymond L. Goings, 61, served as a military policeman 
in Vietnam from 1969 to 1971, an experience that left the Las Vegas 
resident with PTSD, he said. He praised his VA psychiatrists, but not 
the regional office that denied the disability claim he has pursued for 
3 years.
    ``Basically they said I was never being shot at, that the things I 
told them I saw, I didn't see,'' said Goings, who has appealed. ``They 
wanted dates and times, even though I tried to explain to them that 
there are a lot of things about combat that I can't remember.''
    Jerrel Cook of Joplin, Mo., another Army veteran, breathes with the 
help of an oxygen tank and suffers from asthma, chronic bronchitis, 
hearing loss, hypertension and thyroid problems. Cook, 62, blames 
biological and chemical testing in Alaska while he was stationed there 
in the mid-sixties. VA has denied his 5-year-old disability claim.
    ``They are playing a waiting game,'' he said. ``It's easier to 
stall out until the veteran dies rather than to pay his claim. . . . 
This is ongoing practice with the VA, and it's certainly something that 
needs to be corrected.''

                                 <F-dash>

                     Congressional Research Service

                         CRS Report to Congress

       Veterans Affairs: The Appeal Process for Veterans' Claims

                         Updated April 9, 2007

    Douglas Reid Weimer, Legislative Attorney, American Law Division

Summary
    Congress, through the United States Department of Veterans Affairs 
(VA), provides a variety of benefits and services to veterans and to 
certain Members of their families. These benefits range from health 
care and related services to burial benefits. The veteran's basic 
eligibility for these programs and services is usually determined by 
the local VA office. Veterans not satisfied with the VA's decision(s) 
may wish to have them reviewed and may appeal the decision(s). This 
report traces the various steps involved in the appeal process--
starting with the original application for benefits and concluding with 
an appeal to the U.S. Supreme Court. A flow chart outlining all of the 
steps in the appeal process is provided.
    Following the filing of the initial appeal, the local VA office 
will either allow or disallow the claim. If the veteran/claimant wishes 
to appeal, a written request for appeal must be filed and various time 
deadlines and other requirements must be met prior to the case being 
considered by the Board of Veterans' Appeals (BVA). The appeal before 
the BVA may be a hearing at the local VA office by a traveling Board 
Member; a hearing at the BVA office in Washington, DC; or a 
videoconference hearing at the local VA office. Various filing 
requirements and time limits must be met by the veteran/claimant in 
his/her appeal. There are specific guidelines for a person representing 
a veteran before the BVA. Legislation enacted in the 109th Congress 
changed traditional guidelines to allow for legal representation for 
veterans throughout the administrative appeals process.
    The veteran/claimant may appeal the decision of the BVA to the 
Court of Appeals for Veterans Claims (CAVC), which is an independent 
federal court and not part of the VA. The decision of the CAVC may be 
appealed by either the veteran/claimant or the VA to the U.S. Court of 
Appeals for the Federal Circuit (Federal Circuit), an Article III court 
that sits in Washington, DC and has exclusive jurisdiction to hear 
cases challenging CAVC rulings. Decisions of the Federal Circuit may be 
appealed to the U.S. Supreme Court, which has final jurisdiction.
    The VA has various statutory obligations to assist the veteran in 
the preparation of his/her application for benefits and any subsequent 
appeal(s). Among these obligations are assistance in the preparation of 
the initial application; provision of various records; medical exams; 
and other related issues. Certain legal and factual presumptions are 
established by statute that may be favorable to the veteran's claim. 
These issues are examined in the appendix to this report.
    Legislation introduced in the first session of the 110th Congress 
on the appeal process is summarized in the appendix.

                              Introduction

Veterans' Benefits
    Congress, through the United States Department of Veterans Affairs 
(VA) provides a broad variety of benefits and services to veterans and 
certain Members of their families.\1\ Among the benefits that the VA 
extends to veterans are various types of health care and related 
services, such as nursing homes, clinics, and medical centers; various 
types of financial benefits, including disability compensation and 
pensions; education, vocational training, and related career 
assistance; home financing; life insurance; burial benefits; and 
benefits for certain family survivors.\2\
---------------------------------------------------------------------------
    \1\ See generally Federal Benefits for Veterans and Dependents, 
published by the Department of Veterans Affairs (2007 edition), 
available online at http://www1.va.gov/opa/vadocs/fedben.pdf See CRS 
Report RL33113, Veterans Affairs: Basic Eligibility for Disability 
Programs, by Douglas Reid Weimer. This report deals with the 
fundamental requirements for disability benefit programs. See CRS 
Report RL33323, Veterans Affairs: Benefits for Service-Connected 
Disabilities, by Douglas Reid Weimer. This report discusses various 
aspects of disability compensation, a monthly cash benefit program for 
veterans currently impaired from past service-connected activities.
    \2\ See CRS Report RL33323
---------------------------------------------------------------------------
    The veteran's basic eligibility for these various services and 
programs is usually determined by the local VA office.\3\ Various 
criteria must be met in order for the veteran to be eligible for VA 
benefits and the local VA office scrutinizes the veteran's claim before 
determining eligibility.\4\
---------------------------------------------------------------------------
    \3\ The local VA office is defined by the VA as ``any local office 
of the Department of Veterans Affairs where claims for VA benefits are 
received and determined.'' This is usually a VA Regional Office or an 
administrative office at a VA medical center. The legal term for such 
an office is the ``agency of original jurisdiction.'' A VA Regional 
Office is one of 58 VA regional offices located throughout the United 
States and its territories, and it is at these offices where most 
claims for VA benefits are filed and determined. Thus, all Regional 
Offices are considered to be ``local offices,'' but the concept of 
``local office'' may also include administrative offices located at VA 
medical centers. Therefore, all Regional Offices are ``local offices,'' 
but not all ``local offices'' are Regional Offices. See Board of 
Veterans' Appeals, Understanding the Appeal Process, published by the 
Department of Veterans Affairs; VA Pamphlet 01-00-1 (Jan. 2000) at 38-
39 (cited to afterward as ``Understanding''). See http://www.va.gov/
vbs/bva/pamphlet.htm for the publication online. Go to the website and 
click on ``Understanding the Appeal Process.''
    \4\ See CRS Report RL33323
---------------------------------------------------------------------------
Appeals from the Local VA Office Decisions
    Veterans not satisfied with the decisions made by the local VA 
office on their claims or benefits may wish to have the decisions 
reviewed on appeal.\5\ The VA has stated that the two most common types 
of appeals are 1) the denial of benefits for a disability that the 
veteran believes is service-connected; and 2) the veteran believes that 
his/her disability is more severe than the VA has rated it.\6\ The 
first issue involves disability compensation, which is a monthly cash 
benefit for veterans currently impaired from past service-connected 
activities.\7\ The second issue involves the VA's rating of the 
severity of the veteran's disability--which is directly related to the 
amount of monthly disability compensation (a cash payment) the veteran 
receives.\8\ While these two issues seem to be the most prevalent types 
of appeals, nearly any decision made by the local VA office concerning 
veterans' benefits may be appealed.\9\
---------------------------------------------------------------------------
    \5\ How Do I Appeal?, published by the Board of Veterans Appeals, 
Department of Veterans Affairs; VA Pamphlet 1-02-02A (April 2002) at 1 
(cited to afterward as ``How Do I Appeal?''). See http://www.va.gov/
vbs/bva/pamphlet.htm. Go to the website and click on ``How Do I 
Appeal?'' for an online copy of the pamphlet.
    \6\ Id.
    \7\ See CRS Report RL33323
    \8\ Id. at 7-10. For instance, the local VA office may determine 
that the veteran is 10% disabled, while the veteran believes that he/
she is 40% disabled.
    \9\ See How Do I Appeal? at 1. For example, a veteran may appeal a 
denial of education benefits made by the local VA office.
---------------------------------------------------------------------------
    An appeal of the local VA office's decision may be made to 1) the 
local VA office (which made the original decision) and/or 2) the Board 
of Veterans' Appeals (BVA), which is discussed below. The findings of 
the BVA may be appealed to the U.S. Court of Veterans Claims. 
Subsequent appeals may be made to the U.S. Court of Appeals for the 
Federal Circuit and ultimately to the U.S. Supreme Court.

                           The Appeal Process

Flow Chart of the Various Steps in the Appeal Process
    The appeal process consists of several steps. The following flow 
chart provides a simplified outline of the steps that must be taken by 
the veteran in his/her appeal. Each step is discussed in detail in the 
text following the chart.

                        Figure 1. Appeal Process


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Source: Adapted from charts at How Do I Appeal? at 2 and 
Understanding at 32.
    Note: These filing time limits apply in most cases. However, they 
do not apply to ``simultaneously contested claims,'' when more than one 
person is trying to receive benefits that only one person is entitled 
to, such as life insurance proceeds. See Understanding at 11.
Filing the Original Claim for Benefits at the VA
    In order to apply for VA benefits, the veteran must file a claim at 
the local VA office or VA medical facility.\10\ A claim for benefits 
may also be filed online.\11\ The claim must specifically state the 
requested benefit(s).\12\ Assistance to the veteran during the 
application process may be provided by representatives from Veterans 
Service Organizations (VSOs)\13\ and/or by other persons or agents.\14\ 
The VSOs have staff located at most local VA offices.
---------------------------------------------------------------------------
    \10\ The local VA office is defined by the VA as ``any local office 
of the Department of Veterans Affairs where claims for VA benefits are 
received and determined.'' This is usually a VA Regional Office or an 
administrative office at a VA medical center. The legal term for such 
an office is the ``agency of original jurisdiction.'' A VA Regional 
Office is one of 58 VA regional offices located throughout the United 
States and its territories, and it is at these offices where most 
claims for VA benefits are filed and determined. Thus, all Regional 
Offices are considered to be ``local offices,'' but the concept of 
``local office'' may also include administrative offices located at VA 
medical centers. Therefore, all Regional Offices are ``local offices,'' 
but not all ``local offices'' are Regional Offices. See Board of 
Veterans' Appeals, Understanding the Appeal Process, published by the 
Department of Veterans Affairs; VA Pamphlet 01-00-1 (Jan. 2000) at 38-
39 (cited to afterward as ``Understanding''). See http://www.va.gov/
vbs/bva/pamphlet.htm for the publication online. Go to the website and 
click on ``Understanding the Appeal Process.''
    \11\ See How Do I Appeal at 3. File the claim at http://
www.vba.va.gov
    \12\ Such benefits might relate to medical care, disability 
compensation, or educational benefits.
    \13\ Such organizations are the American Legion, the Disabled 
American Veterans, and other veterans' groups.
    \14\ See How Do I Appeal? at 3.
---------------------------------------------------------------------------
    In addition to assistance that may be provided by the VSOs or other 
agents, the VA is obligated by statute and regulation to provide 
certain assistance to the claimant during the original claim procedure 
and during any subsequent appeal(s). Such assistance many involve 
locating and producing records and providing medical examinations. 
Certain presumptions relating to medical conditions are also mandated 
by statute. These obligations and presumptions are summarized in the 
Appendix to this report.\15\
---------------------------------------------------------------------------
    \15\ See discussion at Appendix.
---------------------------------------------------------------------------
    Following receipt of the veteran's claim for benefits, the local VA 
office will review the claim and make a decision about the 
claim(s).\16\ The local VA office will either allow or deny the 
claim.\17\ Where relevant, the local VA office may also rate (on a 
percentage basis) the veteran's degree of service-connected 
disability.\18\ The local VA office's determination will be mailed to 
the veteran.\19\ If the veteran is not satisfied with the local VA 
office decision, the veteran may appeal.
---------------------------------------------------------------------------
    \16\ See CRS Report RL33323
    \17\ Id.
    \18\ Id. at 7-10.
    \19\ See How Do I Appeal? at 3.
---------------------------------------------------------------------------
The Appeal: The First Steps
    An appeal\20\ is a request for a review of a local VA 
determination\21\ on a claim for benefits.\22\ Anyone who has filed a 
claim for benefits with the VA and has received a determination from a 
local VA office is eligible to appeal a complete or a partial denial of 
a claim.\23\ The veteran may also appeal the level of benefit 
granted.\24\
---------------------------------------------------------------------------
    \20\ See 38 C.F.R.  20.200. What Constitutes An Appeal. ``An 
appeal consists of a timely filed Notice of Disagreement in writing 
and, after a Statement of the Case has been furnished, a timely filed 
Substantive Appeal.''
    \21\ See Understanding at 6. Most local determinations are made by 
the local VA office. However, some determinations made by VA medical 
facilities, such as eligibility for medical treatment, may also be 
appealed.
    \22\ 38 U.S.C.  511(a) outlines the authority of the Secretary of 
the VA to make decisions regarding benefits for veterans.
    \23\ Again, see Understanding at 6. Most local determinations are 
made by the local VA office. However, some determinations made by VA 
medical facilities, such as eligibility for medical treatment, may also 
be appealed.
    \24\ For example, a veteran may be determined to be 20% disabled 
and the veteran may believe that he/she is 40% disabled and appeal.
---------------------------------------------------------------------------
    Time Limit. The veteran seeking a review of the local VA office 
decision (called ``the appellant'') has 1 year from the date on which 
the local VA office mails the appellant its initial determination of 
the claim to appeal. After one year, the local VA office determination 
is considered final and cannot be appealed unless there is proof of 
clear and unmistakable error on the part of the VA.\25\
---------------------------------------------------------------------------
    \25\ See Understanding at 6-7.
---------------------------------------------------------------------------
    The Notice of Disagreement (NOD).\26\ There is no special form 
needed to initiate the appeal process. The appellant need only submit a 
written statement disagreeing with the local VA office's claim 
determination and stating the veteran's wish to appeal the claim 
determination. This statement is called the Notice of Disagreement 
(NOD).\27\
---------------------------------------------------------------------------
    \26\ See 38 C.F.R.  20.201.
    \27\ See Understanding at 39.
---------------------------------------------------------------------------
    Appeal to the Local VA Office. The NOD is filed with the same local 
VA office that made the decision being appealed,\28\ as this is the 
location of the appellant's claims file or claims folder,\29\ unless 
the appellant has moved. After the NOD is filed, the appellant may 
request that his/her claims file be reviewed by a Decision Review 
Officer (DRO) from the local VA office. The DROs provide a second 
review of the entire file and may also hold a personal hearing on the 
claim.\30\
---------------------------------------------------------------------------
    \28\ 38 C.F.R.  20.300.
    \29\ For the purpose of this report, the appellant's records will 
be referred to as ``claims file.''
    \30\ See How Do I Appeal? at 4.
---------------------------------------------------------------------------
    The Statement of the Case. At this point, the local VA office will 
either allow or not allow the claim. If the claim is disallowed, the 
local VA office will prepare and send to the appellant a Statement of 
Case (SOC) and a blank VA Form 9 to be used for continuation of the 
appeal. The SOC summarizes the submitted evidence and the relevant laws 
and regulations and provides the local VA office's reasons for making 
its determination and disallowing the claim.\31\
---------------------------------------------------------------------------
    \31\ See Understanding at 8-9.
---------------------------------------------------------------------------
    VA Form 9 and the Substantive Appeal. \32\ To continue an appeal, 
the appellant must fill out and return the VA Form 9--the Substantive 
Appeal--to the local VA office. Form 9 is available online.\33\ The 
appellant must state the requested benefit, any mistakes in the SOC, 
and indicate whether a personal hearing is requested.\34\ The Form 9 
becomes part of the claims folder and is the basis for adding the 
appeal to the Board of Veterans Appeals docket. Specific provisions 
exist for the withdrawal of the appeal.\35\
---------------------------------------------------------------------------
    \32\ 38 C.F.R.  20.202.
    \33\ See http://www.vba.va.gov
    \34\ A personal hearing must be requested. Without such a request, 
the BVA will review the claims file and the VA Form 9 and make a 
decision without meeting or speaking with the appellant and his/her 
representative.
    \35\ 38 C.F.R.  20.204.
---------------------------------------------------------------------------
    Supplemental Statement of Case.\36\ If the appellant submits new 
evidence or information, the local VA office will prepare a 
Supplemental Statement of Case (SSOC). The SSOC is similar to the SOC 
and includes the newly submitted information.\37\ The appellant has 
sixty days from the date the SSOC was mailed to submit, in writing, any 
matter in dispute on the SSOC.
---------------------------------------------------------------------------
    \36\ 38 C.F.R.  20.302(b), (c).
    \37\ See Understanding at 40-41.
---------------------------------------------------------------------------
    Time Limitation.\38\ The local VA office must receive the VA Form 9 
within sixty days from the date that the VA mailed the SOC (or SSOC) or 
within 1 year of the date that the original decision denying the claim, 
whichever date is later.\39\
---------------------------------------------------------------------------
    \38\ 38 C.F.R.  20.302.
    \39\ Id. See How Do I Appeal? at 6.
---------------------------------------------------------------------------
    Withdrawal of Issue(s). If the appellant does not wish the Board of 
Veterans Appeals to examine an issue that is contained in the SOC or 
the SSOC, the appellant may state on Form 9 that the appellant is 
withdrawing the issue(s) on the appeal.\40\
---------------------------------------------------------------------------
    \40\ See Understanding at 10.
---------------------------------------------------------------------------
Issues Related to the Appeal Process
    Filing Extensions.\41\ An appellant may request an extension of the 
sixty day filing period for filing a Substantive Appeal or the sixty 
day period to respond to a Supplemental Statement of the Case.\42\ The 
appellant makes this request in writing to the local VA office handling 
the appeal. The appellant needs to explain to the VA local office why 
extra time is needed to file.
---------------------------------------------------------------------------
    \41\ 38 C.F.R.  20.303.
    \42\ 38 U.S.C  5105(d)(3); 38 C.F.R.  20.303.
---------------------------------------------------------------------------
    Representation for the Appeal.\43\ The appellant may represent him/
herself at the appeal. However, the VA has reported that about 90 
percent of appeals heard before the Board of Veterans Appeals (BVA) 
have some representation.\44\
---------------------------------------------------------------------------
    \43\ See in general, 38 C.F.R.  20.600. Legislation pending in the 
110th Congress, discussed below, may change the representation 
available to appellants.
    \44\ See Understanding at 12.
---------------------------------------------------------------------------
    There are three different categories of representatives that the 
appellant may engage. The first includes representatives of the VSO or 
from the state or local veterans' office. Usually, the representatives 
from the VSOs and the government veterans' offices do not charge for 
their services.\45\ Second, the VA recognizes certain ``agents'' who 
are able to represent appellants and who are certified by the VA.\46\ 
Third, the appellant may engage a lawyer for representation.\47\
---------------------------------------------------------------------------
    \45\ See Understanding at 12.
    \46\ 38 U.S.C.  5904; 38 C.F.R.  20.604.
    \47\ 38 C.F.R.  20.603.
---------------------------------------------------------------------------
    The appellant must complete a VA Form 21-22 to authorize 
representation by a VSO or a related entity on the appeal.\48\ The 
appellant must complete a VA Form 22a to authorize representation by a 
lawyer\49\ or a recognized agent for his/her appeal.\50\ An appellant 
is limited to one representative recognized by the BVA.\51\
---------------------------------------------------------------------------
    \48\ 38 C.F.R.  20.602.
    \49\ 38 C.F.R.  20.603.
    \50\ 38 C.F.R.  20.604.
    \51\ See Understanding at 12.
---------------------------------------------------------------------------
    Attorney Representation: Recent Legislation. The Veterans Benefits, 
Health Care, and Information Technology Act of 2006,\52\ enacted in the 
109th Congress, modified attorney participation in the appeal process. 
The act also requires the Secretary of the VA to provide additional 
qualifications and standards for agents and attorneys who represent 
veterans before the VA, including standards that deal with (1) training 
and character and (2) fee criteria and limitations. The Secretary is 
authorized to charge and collect fees from the agents or attorneys to 
be used for administrative expenses for veterans' benefits programs. 
The following grounds for suspension of agents or attorneys are 
provided in the act: presenting frivolous claims, prior suspensions, 
charging excessive or unreasonable fees, or failure to comply with the 
Secretary's regulations.
---------------------------------------------------------------------------
    \52\ P.L. 109-461, Title I.
---------------------------------------------------------------------------
    The legislation significantly broadens opportunities for legal 
representation during administrative appeals. Previously, an attorney 
could not represent a veteran for a fee until the BVA made a final 
decision.\53\ This had the effect of excluding an attorney from the 
process until all of the administrative appeals had been exhausted. The 
act now permits an attorney to enter the appeal process at a much 
earlier date--after the veteran has received a decision on his or her 
claim from the VA and decides to appeal this initial decision 
administratively through the filing of a NOD.\54\ An attorney may now 
provide representation for a fee after the NOD is filed. The act 
requires the Secretary to provide Congress with an evaluation of the 
effect of the new system of representation. The Secretary is also 
authorized to review fee agreements, and the Secretary may order a 
reduction in an agreed upon fee if the Secretary finds the fee 
excessive or unreasonable. The Secretary's decision may be reviewed by 
the BVA, which is authorized to make the final review of the issue.\55\
---------------------------------------------------------------------------
    \53\ See Figure I. Appeal Process at 3.
    \54\ Id.
    \55\ 38 U.S.C.  7104.
---------------------------------------------------------------------------
    Broadening attorney participation in the veterans' appeal process 
has been somewhat controversial. Opposition has focused on attorneys' 
fees and the possibility of additional delays in the appeal process. On 
March 5, 2007, Representative Ron Lewis introduced H.R. 1318,\56\ 
which, if enacted, would repeal the authority for certain agent or 
attorney representation in veterans' benefit cases before the VA. In 
effect, the bill would return to the process that existed prior to the 
enactment of the 2006 law and would permit representation only after 
the BVA renders a final decision in the case. The bill has been 
referred to the House Committee on Veterans' Affairs.
---------------------------------------------------------------------------
    \56\ 110th Cong., 1st Sess. (2007).
---------------------------------------------------------------------------
    Information for the Appeal. Should new evidence or medical proof 
supporting the appellant's claim arise during the appeal process, the 
evidence should be submitted to the VA. If the appellant's claims file 
is at the local VA office and the new evidence is sent there, the VA 
local office will send the appellant an SSOC if it does not allow the 
claim after reviewing the new evidence. The new evidence will be added 
to the claims file and considered during the appeal process.\57\
---------------------------------------------------------------------------
    \57\ Id. at 13-14.
---------------------------------------------------------------------------
    Location of the VA Form 9. After the Form 9 is filed, it becomes 
part of the claims file and serves as the basis for the appeal to the 
BVA. The Form 9, as part of the claims file, will be sent by the local 
VA office to the BVA and will be reviewed later by the BVA when the BVA 
considers the appeal and reviews the entire claims file.

                  The Board of Veterans' Appeals (BVA)

Organization\58\
---------------------------------------------------------------------------
    \58\ For a general overview of the BVA, see the website at http://
www.va.gov/vbs/bva
---------------------------------------------------------------------------
    Known as the ``Gateway to VA Appeals,''\59\ the Board of Veterans' 
Appeals (BVA) is a part of the VA based in Washington, DC.\60\ The BVA 
reviews benefit claims appeals and issues decisions on those appeals. 
The BVA is composed of ``Members of the Board'' who are attorneys 
experienced in veterans' law, appointed by the Secretary of Veterans 
Affairs and approved by the President of the United States. Staff 
attorneys, who are designated as Counsel or Associate Counsel, assist 
Members of the Board in preparing decisions.\61\ The function that they 
provide is similar to a law clerk who assists a judge in his/her legal 
capacities.\62\
---------------------------------------------------------------------------
    \59\ See note 57.
    \60\ 38 U.S.C.  7101(a); 38 U.S.C.  7104.
    \61\ Id. at 36.
    \62\ Id. at 36-37.
---------------------------------------------------------------------------
The BVA's Docket
    The BVA Docket and Docket Number. The local VA office will forward 
the appellant's claims file to the BVA's docket. The law requires that 
the BVA decide cases on a ``first come, first served'' basis.\63\ Each 
appellant's case is added to the docket when the VA receives the 
substantive appeal--VA Form 9--and the claims file from the local 
VA.\64\
---------------------------------------------------------------------------
    \63\ 38 U.S.C.  7107(a); 38 C.F.R.  20.900.
    \64\ See Understanding at 15. Each case is assigned a docket number 
when it is added to the list of cases. The first two numbers are the 
year in which the case was filed and the remaining numbers indicate the 
order in which the case was added to that year's list/docket. For 
example, 05-00111, would indicate the 111th claim filed in 2005.
---------------------------------------------------------------------------
    On occasion, the BVA may, on a motion by the appellant, advance the 
order of a claim on its docket.\65\ The appellant must demonstrate 
compelling need, exceptional circumstances, or proof of hardship.\66\ 
The BVA seldom grants a request for ``advancement on the docket,'' as 
the BVA feels that most appeals involve some form of hardship and the 
BVA wishes to treat all appellants fairly.\67\
---------------------------------------------------------------------------
    \65\ 38 U.S.C.  7107(a)92); 38 C.F.R.  20.900.
    \66\ For example, terminal illness, bankruptcy, pending eviction, 
and other hardships.
    \67\ See Understanding at 16.
---------------------------------------------------------------------------
    Waiting Time. Once a case/claim has been entered on the BVA's 
docket, it is uncertain how long it may take for the BVA to reach a 
decision on the case. The VA has stated, that as of the fall 1999, it 
took an average of 2 years from the time a NOD was filed, until a final 
decision was issued.\68\ However, 2005 congressional testimony by the 
Undersecretary for Benefits of the VA appears to indicate that the 
decision time has been substantially reduced.\69\
---------------------------------------------------------------------------
    \68\ Id. at 16.
    \69\ Testimony of Daniel L. Cooper, Undersecretary of Benefits, 
Department of Veterans Affairs before the Senate Veterans Affairs 
Committee (May 26, 2005). See http://www.va.gov/OCA/testimony/svac/
05052620.asp
---------------------------------------------------------------------------

                           Personal Hearings

    There are two types of personal hearings: a local VA office hearing 
\70\ and a BVA hearing.
---------------------------------------------------------------------------
    \70\ This is sometimes called a Regional Office hearing, an RO 
hearing, or a hearing officer hearing.
---------------------------------------------------------------------------
    As previously discussed,\71\ a local office hearing is held at the 
local VA office between the appellant and a hearing officer from the 
local VA office staff. Such a hearing is arranged between the appellant 
and the local VA office. The local VA office may find in favor of the 
appellant. The appellant may subsequently appeal the local office 
hearing through the BVA.
---------------------------------------------------------------------------
    \71\ See ``Appeal to the Local VA Office'' on page 4.
---------------------------------------------------------------------------
    The appellant may present his/her case in person to a member of the 
BVA. There are three types of BVA hearings: a hearing by a Board Member 
at a the local VA office (Regional Office), called a Travel Board 
hearing;\72\ a hearing at the BVA office in Washington, DC; or a 
videoconference hearing at the local VA office, if it is equipped for 
videoconferencing. The VA does not provide travel expenses to the 
appellant.\73\
---------------------------------------------------------------------------
    \72\ See note 3.
    \73\ See Understanding at 18.
---------------------------------------------------------------------------
Request for a BVA Hearing
    The typical way to request a BVA hearing is for the appellant to 
indicate on VA Form 9 the type of hearing that the appellant wishes. 
The appellant may also write to the BVA to request a hearing, 
indicating whether a hearing is requested at the local level or in 
Washington, DC.
Scheduling the BVA Hearing
    The schedule of the hearing depends upon the type of hearing 
requested. The BVA has reported that the Travel Board hearings are 
usually held as soon as they can be scheduled on the hearing officer's 
calendar,\74\ but that they may be difficult to arrange because of the 
schedules of the BVA Board Members and the accumulation of a sufficient 
number of appeals to warrant a scheduled visit from a BVA Member.\75\ 
Videoconferenced hearings are less complicated to arrange and can be 
scheduled more quickly than Travel Board hearings, according to the 
BVA.\76\
---------------------------------------------------------------------------
    \74\ Id. at 19.
    \75\ Id.
    \76\ Id.
---------------------------------------------------------------------------
    Hearings that are held at the BVA offices in Washington DC are 
usually scheduled close to the time when the BVA will consider the 
case. In 2000, the BVA reported that the BVA will schedule a case about 
three months before the case is reviewed.\77\
---------------------------------------------------------------------------
    \77\ Id.
---------------------------------------------------------------------------
The Ninety Day Rule
    The local VA office will notify the appellant by letter when it 
transfers the claims file to the BVA in Washington, DC. The letter will 
inform the claimant that the claimant has ninety days from the date of 
the letter or until the BVA decides the case, whichever comes first, to 
add additional evidence to the file, request a hearing (if none was 
selected), and/or select or change representation.\78\
---------------------------------------------------------------------------
    \78\ 38 C.F.R.  20.1304.
---------------------------------------------------------------------------
    In order for the BVA to accept any of these materials after the 
expiration of the ninety day period, the appellant must submit a 
motion--a written request--asking the BVA to accept the item, even 
though it is late. The motion needs to include an explanation of why 
the item is late and demonstrate why the BVA should accept the item 
into the claims file.
The Appeal at the BVA
    The local VA office will forward the appellant's file to the BVA. 
The appellant will be notified in writing when the file is officially 
transferred and received by the BVA.\79\ The decision time in the 
appeal process varies from case to case. After the file is received by 
the BVA, the appellant's case will then be assigned to a Board Member 
for review. When the docket number for the appeal has been reached, the 
file will be examined by a Board Member and a staff attorney. They will 
check the file for completeness, review all of the evidence and 
arguments, the transcript of the local VA hearing, the statement of the 
appellant's representative (if the appellant has a representative), and 
any additional information that may be with the claims file.\80\ The 
Board Member may request the staff attorney to undertake additional 
research on the case and prepare recommendations for the review of the 
Board member. If the appellant requested a BVA hearing, the Board 
Member assigned to the case will conduct the hearing before reaching a 
decision.
---------------------------------------------------------------------------
    \79\ Id. Appellants may check the status of their file after its 
transfer to by BVA by telephone at 202-565-5436.
    \80\ Id.
---------------------------------------------------------------------------
    Before reaching a decision, the Board Member will examine all of 
the material in the appellant's file, along with the recommendations 
prepared by the staff attorney. The Board Member will then issue a 
decision on the appeal.\81\
---------------------------------------------------------------------------
    \81\ Id. at 23.
---------------------------------------------------------------------------
Notification of the Board's Decision
    The BVA will issue its decision in writing. The decision may 
contain legal documents and legal discussions as well as medical 
discussions. The decision will be mailed to the appellant's home 
address.\82\
---------------------------------------------------------------------------
    \82\ Id.
---------------------------------------------------------------------------
    The decision will allow, deny, or remand the claim. If the claim is 
allowed or denied, the BVA's decision is final. A remand is not a final 
decision and allows further work on the claim.\83\
---------------------------------------------------------------------------
    \83\ See How Do I Appeal at 11.
---------------------------------------------------------------------------
    If the appeal is denied, the BVA will send a copy of the ``Notice 
of Appellate Rights'' that describes additional actions that the 
appellant may choose to pursue.
The Remand
    At times the BVA may review an appeal and determine that the case 
is not ready for a final decision. The BVA will send the case back to 
the local VA office with directions as to what should be done. The 
action of returning the case to the local VA office for additional work 
is called a remand. It is sometimes described as ``additional 
development.''\84\
---------------------------------------------------------------------------
    \84\ See Understanding at 24.
---------------------------------------------------------------------------
    After the case has been returned to the local VA office, it will 
perform the additional work on the file. The local VA office will 
review the case and issue a new determination. If the local VA office 
does not allow the claim, it will return the case to the BVA for a 
final decision. The case keeps its original place on the BVA's docket, 
so it is usually reviewed relatively soon after it is returned to the 
BVA.\85\
---------------------------------------------------------------------------
    \85\ Id.
---------------------------------------------------------------------------
    Certain cases are remanded because of new rulings by the U.S. Court 
of Appeals for Veterans Claims or changes in the law. The local VA 
office will then review them within the context of the new legislation 
or the court ruling.\86\
---------------------------------------------------------------------------
    \86\ Id.
---------------------------------------------------------------------------
Additional Appeal Options
    Should the appellant wish to appeal the BVA's decision, the 
appellant may appeal to the United States Court of Appeals for Veterans 
Claims (CAVC), an independent court and not part of the VA.\87\ An 
appellant may also wish to pursue further motions with the BVA.
---------------------------------------------------------------------------
    \87\ See the CAVC's website: http://www.vetapp.uscourts.gov/
---------------------------------------------------------------------------
    Notice of Appeal. Usually, the appellant must file the Notice of 
Appeal with the CAVC within 120 days from the date the BVA's decision 
is mailed. (The mailing date is stamped on the front of the BVA's 
decision.)
    If the appellant filed a motion to reconsider with the BVA within 
the 120 day time period and that motion was denied, the appellant has a 
new 120 day period to file the Notice of Appeal with the CAVC.\88\ The 
new 120 day period begins on the date the BVA mails the appellant a 
letter notifying the appellant that it has denied the motion to 
reconsider.
---------------------------------------------------------------------------
    \88\ See Understanding at 25-26 for the appropriate addresses to 
file the Notice of Appeal and a copy of the Notice of Appeal.
---------------------------------------------------------------------------
    Motion for Reconsideration. If the appellant is able to demonstrate 
that the BVA made an obvious error of fact or of law in its decision, 
the appellant may file a written ``motion to reconsider'' of the 
appeal.\89\ The appellant may have the VSO representative advise him/
her whether to file the motion and the VSO representative may also 
provide assistance in its preparation. The motion to reconsider is sent 
directly to the BVA and not to the local VA office.
---------------------------------------------------------------------------
    \89\ 38 U.S.C.  7103; 38 C.F.R.  20.1000; 38 C.F.R.  20.1001.
---------------------------------------------------------------------------
    The appellant will need to demonstrate that the BVA made a mistake 
in law or in fact and that the BVA's decision would have been different 
if the mistake had not been made.\90\
---------------------------------------------------------------------------
    \90\ See Understanding at 27.
---------------------------------------------------------------------------
    Reopening the Case. If the appellant has ``new and material'' 
evidence relating to his/her claim, the appellant can request that the 
case be opened.\91\ In order to be considered ``new and material,'' the 
evidence submitted needs to include information related to the case 
that was not included in the claims folder when the Board reviewed and 
decided the case.
---------------------------------------------------------------------------
    \91\ 38 U.S.C.  5108; 38 U.S.C.  7104(b); 38 C.F.R.  3.156; 38 
C.F.R.  20.1105.
---------------------------------------------------------------------------
    To reopen a case, the appellant must submit the new evidence 
directly to the local VA office and not to the BVA.\92\
---------------------------------------------------------------------------
    \92\ See Understanding at 27.
---------------------------------------------------------------------------
    CUE Motion. A BVA decision may be reversed or revised if the 
appellant is able to show that the decision contained ``clear and 
unmistakable error'' (CUE).\93\ The written request for the BVA to 
review its decision for CUE is called a motion. CUE motions are filed 
directly with the BVA and not with the local VA office.
---------------------------------------------------------------------------
    \93\ 38 U.S.C.  7111; 38 C.F.R.  20, subpart O.
---------------------------------------------------------------------------
    The motion for CUE review must meet various requirements and if the 
motion is denied, the appellant cannot request another CUE review.\94\ 
The VA has reported that not many CUE motions are successful. In order 
to succeed, the conclusion must be reached that the BVA would have 
decided the case differently, but for the error. A difference in 
opinion is not sufficient.\95\
---------------------------------------------------------------------------
    \94\ See Understanding at 28.
    \95\ Id.
---------------------------------------------------------------------------
    The appellant may file a motion to review a BVA decision for CUE at 
any time. However, if the motion for CUE is filed after filing a timely 
Notice of Appeal with the CAVC (120 days),\96\ the BVA will not be able 
to rule on the CUE motion.\97\
---------------------------------------------------------------------------
    \96\ See ``Nature of Appeal'' at 11.
    \97\ See Understanding at 28.
---------------------------------------------------------------------------
Death of the Appellant Before a Decision Issued
    The death of the appellant usually ends the appeal.\98\ If the 
appellant dies, the BVA normally dismisses the appeal without issuing a 
decision. Any rights of a deceased appellant's survivors are not 
affected by this action. The survivors may file a claim at the VA 
regional office (RO) for any benefits to which they may be 
entitled.\99\
---------------------------------------------------------------------------
    \98\ 38 U.S.C.  7104(a); 38 C.F.R.  20.1302.
    \99\ See Understanding at 29.
---------------------------------------------------------------------------
Subsequent Judicial Appeals
    The U.S. Court of Appeals for the Federal Circuit (Federal Circuit) 
has exclusive jurisdiction to hear cases involving challenges to VA 
decisions in an appeal of a CAVC decision and in a direct challenge to 
VA regulation and VA policies of general applicability.\100\ A decision 
of the CAVC may be appealed to the Federal Circuit by the persons who 
appealed to the CAVC or by the VA. An appeal to the Federal Circuit 
must be filed within sixty days of the final CAVC decision. After the 
Federal Circuit issues a final decision, either the claimant or the VA 
may petition the U.S. Supreme Court for certiorari (to hear the case) 
within ninety days of the Federal Circuit's final action.\101\ The 
Supreme Court is the court of last resort and the Supreme Court's 
decision is final.
---------------------------------------------------------------------------
    \100\ 38 U.S.C.  7292.
    \101\ 38 U.S.C.  7292(c).
---------------------------------------------------------------------------

                                Appendix

       Duties and Obligations of the VA to the Claimant/Appellant

The Obligations of the VA to the Claimant/Appellant \102\
---------------------------------------------------------------------------
    \102\ See CRS Report RL33323
---------------------------------------------------------------------------
    The VA\103\ has various legal obligations to a claimant/appellant 
relating to the completeness of the application for benefits (or a 
subsequent appeal), the provision of medical and service records, and 
other issues related to the application/appeals process.
---------------------------------------------------------------------------
    \103\ The statutory language provides that ``the Secretary'' is 
required to provide various assistance to the claimant. For the 
purposes of this summary and for consistency, the term ``VA'' is used 
instead.
---------------------------------------------------------------------------
    Application and Notice of Incomplete Application. The VA is 
required to provide to any person claiming or applying for any benefit, 
the ``instructions and forms necessary to apply for that 
benefit.''\104\ These materials are to be provided ``free of all 
expense'' to the claimant.\105\
---------------------------------------------------------------------------
    \104\ 38 U.S.C.  5102(a); 38 C.F.R.  3.150(a).
    \105\ 38 U.S.C.  5102(a).
---------------------------------------------------------------------------
    If the claimant's application for a VA benefit is incomplete, the 
VA is required to notify the claimant of the information that is 
necessary to complete the application.\106\
---------------------------------------------------------------------------
    \106\ 38 U.S.C.  5102(b); 38 C.F.R.  3.159(b)(2).
---------------------------------------------------------------------------
    Required Information and Evidence; and Time Limitation.\107\ After 
the VA receives a complete or a nearly complete application for 
benefits, the VA is required to notify the claimant of any information 
or medical or lay evidence that is needed to substantiate the 
claim.\108\ As part of this notification requirement, the VA is 
required to indicate which information and evidence is to be provided 
by the claimant and which information the VA will attempt to obtain on 
the claimant's behalf to substantiate and complete the claim.
---------------------------------------------------------------------------
    \107\ These provisions are not applicable for any application or 
claim for government insurance benefits. 38 U.S.C.  5103(b)(2).
    \108\ 38 U.S.C.  5103(a); 38 C.F.R.  3.159(b).
---------------------------------------------------------------------------
    The claimant is required to submit the above-mentioned evidence to 
substantiate the claim within 1 year of the date of the VA's 
notification. If no further evidence is obtained, no benefits will be 
paid or furnished on this claim.\109\
---------------------------------------------------------------------------
    \109\ 38 U.S.C.  5103(a); 38 C.F.R.  3.159(b)(1),
---------------------------------------------------------------------------
    Duty to Assist Claimants--Records. The VA is required to make 
``reasonable efforts'' to assist a claimant in obtaining evidence 
necessary to substantiate the claim for benefits.\110\ However, certain 
exceptions exist to this requirement. The VA is not required to provide 
assistance to the claimant if ``no reasonable possibility'' exists that 
such assistance would aid in substantiating the claim.\111\ The VA may 
defer providing assistance pending the claimant's submission of 
essential information that is missing from the claimant's 
application.\112\
---------------------------------------------------------------------------
    \110\ 38 U.S.C. 5103A(a)(1); 38 C.F.R.  3.159(c)(1).
    \111\ 38 U.S.C.  5103A(a)(2); 38 C.F.R.  3.160(d).
    \112\ 38 U.S.C.  5103A(a)(3).
---------------------------------------------------------------------------
    Assistance in Obtaining Records. The VA is required to make 
``reasonable efforts'' to obtain relevant records (including private 
records) that the claimant adequately identifies to the VA and 
authorizes the VA to obtain.\113\ Federal regulations outline the 
procedures for obtaining records not in the custody of a Federal 
department or agency \114\ and obtaining records in the custody of a 
Federal department or agency.\115\ If after making reasonable efforts, 
the VA is unable to locate the records, the VA will notify the claimant 
that the VA is unable to obtain the records pursuant to this 
claim.\116\ The notification is required to identify the records being 
sought, explain the efforts made to obtain the records, and described 
any further action to be taken by the VA regarding this claim.\117\ It 
is required that the VA's efforts to obtain records from the Federal 
department or agency will continue until the records are obtained, 
unless it is reasonably certain that such records do not exist or that 
further efforts to obtain the records would be futile.\118\
---------------------------------------------------------------------------
    \113\ 38 U.S.C.  5103A(b)(1); 38 C.F.R.  3.160(c).
    \114\ 38 C.F.R.  3.159A(c)(1).
    \115\ 38 C.F.R.  3.159A(c)(2).
    \116\ 38 U.S.C.  5103A(b)(2); 38 C.F.R.  3.160(e).
    \117\ Id.
    \118\ 38 U.S.C.  5103A(b)(3).
---------------------------------------------------------------------------
    Records for Compensation Claims. If the case involves a claim for 
disability compensation, additional assistance in obtaining records is 
required to be provided.\119\ Assistance is to be provided in locating 
the claimant's service medical records and other relevant records 
relating to the claimant's active military, naval, or air service that 
are held or maintained by a governmental entity;\120\ records of 
relevant medical treatment or examination at VA health-care 
facilities;\121\ and any other relevant records held by any Federal 
department or agency that the claimant identifies and authorizes the VA 
to obtain.\122\
---------------------------------------------------------------------------
    \119\ 38 U.S.C.  5103A(c); 38 C.F.R.  3.159(c)(3).
    \120\ 38 U.S.C.  5103A(c)(1).
    \121\ 38 U.S.C.  5103A(c)(2).
    \122\ 38 U.S.C.  5103A(c)(3).
---------------------------------------------------------------------------
    Medical Examinations for Compensation Claims. If the case involves 
a claim for disability compensation, the VA is required to provide a 
medical examination or obtain a medical opinion when such an 
examination or opinion is necessary to make a decision on the 
claim.\123\ The VA is required to treat an examination or opinion as 
being necessary to make a decision on a claim if the evidence on the 
record, taking in consideration all information and lay or medical 
evidence 1) contains competent evidence that the claimant has a current 
disability or persistent or recurrent symptoms of disability\124\ or 2) 
indicates that the disability or symptoms may be associated with the 
claimant's active military, naval, or air service;\125\ but does not 
contain sufficient medical evidence for the VA to make a decision on 
the claim.\126\
---------------------------------------------------------------------------
    \123\ 38 U.S.C.  5103A(c)(4); 38 C.F.R.  3.159(c)(4).
    \124\ 38 U.S.C.  5103A(d)(2)(A).
    \125\ 38 U.S.C.  5103A(d)(2)(B).
    \126\ 38 U.S.C.  5103A(d)(2)(C).
---------------------------------------------------------------------------
    Disallowed Claims. The statute specifically provides that the VA is 
not required to reopen a claim that has been disallowed except when new 
and material evidence is presented or secured.\127\
---------------------------------------------------------------------------
    \127\ 38 U.S.C.  5103A(f).
---------------------------------------------------------------------------
    Other Assistance not Precluded. The statute is not to be construed 
as precluding the VA from providing such other assistance to a claimant 
in substantiating a clam as the VA considers appropriate.\128\
---------------------------------------------------------------------------
    \128\ 38 U.S.C.  5103A(g).
---------------------------------------------------------------------------
    Decisions and Notices of Decisions. When the VA makes a decision 
affecting the provision of benefits to a claimant, the VA is required, 
on a timely basis, to provide the claimant (and the claimant's 
representative) notice of the decision.\129\ The notice must include an 
explanation of the procedure for obtaining a review of the 
decision.\130\ If the VA denies a benefit, the notice is required to 
include a statement of the reason for the decision and a summary of the 
evidence considered by the VA.\131\
---------------------------------------------------------------------------
    \129\ 38 U.S.C.  5104(a); 38 C.F.R.  3.103(b).
    \130\ Id.
    \131\ 38 U.S.C.  5104(b).
---------------------------------------------------------------------------
    VA's Obligation to Assist in the Development of Claims. Federal 
regulations require the VA to assist the claimant ``in developing the 
facts pertinent to the claim'' and to render a decision that grants 
every benefit that can be supported in law while protecting the 
interests of the government.\132\ Therefore, the VA has the duty to 
consider all legal theories upon which the claim could be granted,\133\ 
regardless of whether the claimant argues or focuses on every possible 
legal theory.
---------------------------------------------------------------------------
    \132\ 38 C.F.R.  3.103(a).
    \133\ The VA would be required to consider all possible legal 
theories (e.g., secondary service connection, presumptive service 
connection, and so forth.) upon which the claim could be granted.
---------------------------------------------------------------------------
    Reopening Disallowed Claims. If any new or material evidence is 
presented or secured relating to a claim that has been disallowed, the 
VA is required to reopen the claim and review the former disposition of 
the claim.\134\
---------------------------------------------------------------------------
    \134\ 38 U.S.C.  5108.
---------------------------------------------------------------------------
    Revision of Decisions on Grounds of Clear and Unmistakable Error. A 
VA decision is subject to revision on the grounds of clear and 
unmistakable error, as previously discussed.\135\ If there is evidence 
to establish the error, the prior decision is reversed or revised.\136\ 
For the purposes of authorizing benefits, a rating, or other 
adjudicative decision that constitutes a reversal or revision of a 
prior decision on the grounds of clear and unmistakable error, has the 
effect as if the decision had been made on the date of the prior 
decision.\137\ A review to determine whether a clear and unmistakable 
error exists in a case may be initiated by the VA or upon the request 
of the claimant.\138\ A request for a revision of a VA decision based 
on clear and unmistakable error may be made at any time after the 
decision is made.\139\ Such a request for a revision shall be submitted 
to the VA and shall be decided in the same manner as any other 
claim.\140\
---------------------------------------------------------------------------
    \135\ 38 U.S.C.  5109A(a). See discussion at 12.
    \136\ Id.
    \137\ 38 U.S.C.  5109A(b).
    \138\ 38 U.S.C.  5109A(c).
    \139\ 38 U.S.C.  5109A(d).
    \140\ 38 U.S.C.  5109A(e).
---------------------------------------------------------------------------
    Benefit of the Doubt Standard. The VA is required to consider all 
information and the legal and medical evidence of record in a case 
before the VA with respect to benefits under the laws administered by 
the VA.\141\ When there is an approximate balance of positive and 
negative evidence regarding any issue material to the determination, 
the VA ``shall give the benefit of the doubt to the claimant.''\142\ 
Regulations provide that when reasonable doubt arises, such doubt will 
be resolved in favor of the claimant.\143\ For instance, in order to 
satisfy this element, the submitted medical evidence generally needs to 
show that it is as likely as not that there is a connection between the 
in-service injury, occurrence, or illness and the current disability. 
Thus, the VA can deny the claim only if the preponderance of the 
evidence is against the claim.
---------------------------------------------------------------------------
    \141\ 38 U.S.C.  5107(b).
    \142\ Id. See 38 C.F.R.  3.102.
    \143\ 38 C.F.R.  3.102.
---------------------------------------------------------------------------
    Certain Presumptions. In its analysis of certain claims, the VA is 
required by statute and/or regulation to make certain presumptions.
    Presumption of Medical Soundness. In evaluating a veteran's claim, 
the VA generally presumes that the veteran entered the service in sound 
medical condition.\144\ This may assist the veteran in proving a claim 
by making it difficult for the VA to claim that the condition or 
disease existed prior to service. However, if the medical impairment 
was noted at the time of entry into service, the veteran may have to 
prove that the condition was exacerbated in-service. If the VA is able 
to prove by ``clear and unmistakable evidence'' that the disease or 
injury was in existence prior to service, and that it was not worsened 
during service, the veteran's claim will be denied.
---------------------------------------------------------------------------
    \144\ 38 U.S.C.  1111.
---------------------------------------------------------------------------
    Special Rules for Certain In-Service Occurrences. Special rules 
exist under which the VA is required to consider a service-connected 
problem by presumption. For example, certain diseases associated with 
exposure to Agent Orange will be presumed to be service-related in the 
case of Vietnam veterans.\145\
---------------------------------------------------------------------------
    \145\ 38 C.F.R.  3.307(a)(6)(iii).
---------------------------------------------------------------------------
    A similar regulation holds that veterans who were held prisoners or 
war, or who served in combat, can be presumed to have suffered 
traumatic, stressful events during their military service.\146\ 
Similarly, combat veterans have special rules applicable to them in 
proving an in-service injury or other incident.\147\ Usually, if a 
combat veteran states that he/she suffered a disease, injury, or other 
event during the combat, the VA will usually accept that statement as 
fact. This is the case even if there are no service records to 
substantiate the claim.
---------------------------------------------------------------------------
    \146\ 38 C.F.R.  3.304(f).
    \147\ 38 U.S.C.  1154(b); 38 C.F.R.  3.304(d),(f).
---------------------------------------------------------------------------

              Legislation Introduced in the 110th Congress

    Legislation has been introduced in the 110th Congress, which, if 
enacted, may affect the appeal process. The summary below covers the 
following bills: H.R. 67, H.R. 1435, H.R. 1444, and H.R. 1490
H.R. 67
    H.R. 67,\148\ the proposed Veterans Outreach Improvement Act of 
2007, would establish procedures for coordinating activities of the VA 
and various related entities, including the Veterans Health 
Administration, the Veterans Benefits Administration, and the National 
Cemetery Administration. The Secretary would be required to review 
these procedures annually.
---------------------------------------------------------------------------
    \148\ 110th Cong., 1st Sess. (2007).
---------------------------------------------------------------------------
    The bill would provide assistance to the states to help carry out 
veterans benefits and related programs. The Secretary could provide 
assistance to county veteran service programs, enter into agreements 
and arrangements with state veterans agencies, and make grants to state 
veterans agencies to assist in outreach activities and the submittal of 
benefits claims.
    Outreach activities would be funded through a separate 
appropriation account.
    A sum of $25 million would be authorized for each fiscal year from 
2007-2009.
    The bill defines ``outreach'' within the context of the legislation 
as taking steps in a way to provide ``information, services and 
benefits counseling to veterans'' and their survivors who may be 
eligible for such benefits.\149\
---------------------------------------------------------------------------
    \149\ Id. If enacted, to be codified at 38 U.S.C.  564.
---------------------------------------------------------------------------
    H.R. 67 was introduced by Representative McIntyre on January 4, 
2007, and referred to the House Committee on Veterans' Affairs.
H.R. 1435
    H.R. 1435, the proposed Department of Veterans Affairs Claims 
Backlog Reduction Act of 2007,\150\ if enacted, would direct the 
Secretary to conduct a pilot program to reduce the backlog of pending 
benefits claims.
---------------------------------------------------------------------------
    \150\ H.R. 1435, 110th Cong., 2st Sess. (2007).
---------------------------------------------------------------------------
    The bill would make various findings on claims backlogs and the 
quality of County Veterans Service Officers (CVSOs). The bill would 
establish a 3-year pilot program to reduce the backlog of veterans' 
claims in the following states: California, Florida, Ohio, South 
Carolina, and Texas.\151\ Claims identified as requiring further 
development would be referred to a CVSO, based upon the Officer's 
geographical proximity to the claimant. The bill outlines the 
procedures for the development of the claim by the CVSO and the 
claimant.\152\ Under the program, the CVSO would serve as the 
claimant's advocate in developing and transmitting the claim. The CVSO 
could also cooperate with a veterans service organization to develop 
the claim. During the development of the claim, the CVSO would have 
access to client information, including information held by the VA.
---------------------------------------------------------------------------
    \151\ Id.  4.
    \152\ Id.  4(d).
---------------------------------------------------------------------------
    Following the completion of the pilot program, the Secretary would 
report to Congress regarding backlog reduction, statistics, and other 
related information.
    H.R. 1435 was introduced by Representative Baca on March 9, 2007, 
and referred to the House Committee on Veterans' Affairs.
H.R. 1444
    H.R. 1444,\153\ if enacted, would direct the Secretary to make 
interim payments in cases remanded (referred back) to the VA by the BVA 
or the CAVC if the VA fails to decide the matter within 180 days of 
remand. If the Secretary does not make a decision within 180 days of 
the remand, then until the matter is finally decided, the Secretary 
would be required to pay an interim benefit of $500 per month. When a 
claim is finally decided, and if benefits are awarded, the interim 
payments would be considered advance benefit payments. If the final 
decision is not to award benefits, the interim benefits would not be 
considered an overpayment.
---------------------------------------------------------------------------
    \153\ H.R. 1444, 110th Cong. 1st Sess. (2007).
---------------------------------------------------------------------------
    Under the bill, the Secretary would also be required to submit to 
Congress a report on measures that the Secretary intends to expedite 
the process of remanded claims for veterans benefits.
    The bill was introduced by Representative Hall on March 9, 2007, 
and referred to the House Committee on Veterans' Affairs.
H.R. 1490
    If enacted, H.R. 1490 \154\ would provide for a presumption of 
service-connectedness in certain claims for benefits, upon the claimant 
proving service in a conflict and the nature of the claim, unless the 
Secretary determines that there is positive evidence to the contrary. 
The bill would require the Secretary to award benefits, at a ``median 
level'' as determined by the Secretary, immediately upon processing the 
claim until such time as the appropriate level of benefits is 
determined.\155\
---------------------------------------------------------------------------
    \154\ H.R. 1490, 110th Cong., 1st Sess. (2007).
    \155\ Id.  1.
---------------------------------------------------------------------------
    The bill would also provide for the redeployment of VA claims 
workers freed up by the presumption of service-connectedness to assist 
veterans with their claims.\156\ Such staff would be redeployed to 
veterans centers or other locations that the Secretary determines are 
appropriate.
---------------------------------------------------------------------------
    \156\ Id.  2.
---------------------------------------------------------------------------
    H.R. 1490 was introduced on March 13, 2007, by Representative 
Donnelly and referred to the House Committee on Veterans' Affairs.

                                  <all>

</pre></body></html>
